No.
IN THE

Supreme Court of the United States
PUBLIC WATCHDOGS, A CALIFORNIA 501(C)(3)
CORPORATION,
Petitioner,
v.
SOUTHERN CALIFORNIA EDISON COMPANY; SAN DIEGO
GAS & ELECTRIC COMPANY; SEMPRA ENERGY; HOLTEC
INTERNATIONAL,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
CHARLES LA BELLA
ERIC J. BESTE
BARNES & THORNBURG LLP
655 W. Broadway, Ste. 1300
San Diego, CA 92101
L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 Century Park East
Los Angeles, CA 90067

BRIAN E. CASEY
Counsel of Record
SARAH E. BROWN
BARNES & THORNBURG LLP
201 S. Main St.
Suite 400
South Bend, IN 46601
(574) 233-1171
brian.casey@btlaw.com
Counsel for Petitioner

i
QUESTION PRESENTED
The burial and storage of nuclear waste in faulty
canisters on a California beach significantly threatens
public health and safety. Petitioner sought to enjoin the
tortious conduct of private entities decommissioning the
San Onofre nuclear plant, but the courts below dismissed
its claims in favor of a Nuclear Regulatory Commission
(“NRC”) forum that cannot provide appropriate relief.
In Silkwood v. Kerr-McGee Corp., 464 U.S. 238, 248
(1984), this Court addressed an “important” issue
“affect[ing] both the states’ traditional authority to
provide tort remedies to its citizens and the federal
government’s express desire to maintain exclusive
regulatory authority over the safety aspects of nuclear
power,” and concluded that state law claims and remedies
are not wholly displaced by federal regulation. See also
Cook v. Rockwell Int’l Corp., 790 F.3d 1088, 1098 (10th
Cir. 2015) (Gorsuch, J.) (same).
Recently, four Justices warned against allowing the
Hobbs Act to exceed constitutional bounds and swallow up
viable claims. PDR Network, LLC v. Carlton & Harris
Chiropractic, Inc., 139 S. Ct. 2051, 2057 (2019)
(Kavanaugh, J., concurring). The decision below strips
district courts of jurisdiction over private litigation
against NRC licensees, contrary to the Hobbs Act’s
language and purpose, this Court’s precedents, and
multiple circuit courts. The question presented is:
Whether the Hobbs Act deprives a federal district
court of subject matter jurisdiction over state law and
Price-Anderson Act claims asserted by a private actor
against private party NRC licensees, on the ground such
claims are “ancillary or incidental to” an NRC final order.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Public Watchdogs was the plaintiff in the
district court and appellant in the Ninth Circuit Court of
Appeals. Respondents Southern California Edison
Company, San Diego Gas & Electric Company, Sempra
Energy, and Holtec International were defendants in the
district court and appellees in the court of appeals. The
NRC, which is not a respondent here, was also a
defendant in the district court and an appellee in the court
of appeals.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, petitioner certifies
that it is a California 501(c)(3) corporation. It has no
parent corporation, and, as a non-profit corporation, it has
no stock.

iii
STATEMENT OF RELATED PROCEEDINGS
Public Watchdogs v. S. Cal. Edison Co. et al., No. 19CV-1635, U.S. District Court for the Southern District of
California. Judgment entered Dec. 31, 2019.
Public Watchdogs v. S. Cal. Edison Co. et al., No. 1956531, U.S. Court of Appeals for the Ninth Circuit.
Judgment entered Dec. 29, 2020.
Public Watchdogs v. NRC, No. 19-72670, U.S. Court of
Appeals for the Ninth Circuit. Judgment entered Dec. 20,
2019.
Public Watchdogs v. NRC, No. 20-70899, U.S. Court of
Appeals for the Ninth Circuit. Judgment entered Jan. 13,
2021.

iv
TABLE OF CONTENTS
QUESTION PRESENTED ................................................ i
PARTIES TO THE PROCEEDINGS BELOW ............. ii
CORPORATE DISCLOSURE STATEMENT ............... ii
STATEMENT OF RELATED PROCEEDINGS ......... iii
TABLE OF CONTENTS................................................... iv
TABLE OF APPENDICES .............................................. vi
TABLE OF AUTHORITIES ........................................... vii
PETITION FOR A WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ........................................................... 1
STATEMENT OF JURISDICTION ................................ 1
STATUTORY PROVISIONS INVOLVED ..................... 1
INTRODUCTION ............................................................... 1
STATEMENT OF THE CASE ......................................... 6
I. Factual Background ................................................. 6
II. Procedural Background ........................................... 9
REASONS FOR GRANTING THE PETITION .......... 12
I. The Ninth Circuit Erred in Holding that the
Hobbs Act Divests District Courts of Jurisdiction
over Claims Brought by Private Parties against
NRC Licensees ....................................................... 12

v
A. The Hobbs Act confers on the courts of
appeals “exclusive jurisdiction” over actions
seeking to “enjoin, set aside, suspend” or
“determine the validity of” final agency
orders; nothing more ........................................ 12
B. The Ninth Circuit’s decision extends the scope
of Hobbs Act review to an unwarranted and
unprecedented degree...................................... 15
1.

The Hobbs Act does not apply to
litigation among private parties, and
has never been applied to such
litigation until now .......................... 15

2.

The Hobbs Act does not deprive
district courts of jurisdiction over
claims that do not seek to invalidate
a final agency order and simply
address licensee actions that are
“incidental” to final agency
orders ............................................... 18

II. The Ninth Circuit’s Decision Disregards The
Price-Anderson Act And Creates A Conflict With
The Hobbs Act Where None Exists ..................... 21
III.The Ninth Circuit’s Reasoning Contradicts this
Court’s Decision in Silkwood and the Tenth
Circuit’s in Cook ...................................................... 28
IV. This Petition Raises Urgent Issues That Must Be
Addressed Now ....................................................... 31
CONCLUSION .................................................................. 33

vi
TABLE OF APPENDICES
App. A: Court of Appeals Opinion
(December 29, 2020) ..................................................... 1a
App. B: Court of Appeals Order Dismissing Petition for
Review
(January 13, 2021) ....................................................... 50a
App. C: Nuclear Regulatory Commission Decision
(February 26, 2020) .................................................... 54a
App. D: District Court Opinion
(December 3, 2019) ..................................................... 62a
App. E: Relevant Statutory Provisions ........................ 117a

vii

TABLE OF AUTHORITIES
Page(s)
Cases
Acuna v. Brown & Root Inc.,
200 F.3d 335 (5th Cir. 2000) ................................ 5, 22, 29
In re Aiken County,
645 F.3d 428 (D.C. Cir. 2011) ....................................3, 31
American Bird Conservancy v. FCC,
545 F.3d 1190 (9th Cir. 2008) ....................................... 27
Bilski v. Kappos,
561 U.S. 593 (2010)...................................................24, 27
Bowen v. Michigan Academy of Family
Physicians,
476 U.S. 667 (1986)........................................................ 14
Brodsky v. U.S. Nuclear Regulatory
Comm’n,
578 F.3d 175 (2d Cir. 2009) .......................................... 13
California Save Our Streams Council, Inc.
v. Yeutter,
887 F.2d 908 (9th Cir. 1989) ......................................... 27
Cook v. Rockwell International Corp.,
790 F.3d 1088 (10th Cir. 2015) ............................. passim
Duke Power Co. v. Carolina Environmental
Study Group, Inc.,
438 U.S. 59 (1978).......................................................... 21

viii
Page(s)
Eddleman v. NRC,
825 F.2d 46 (4th Cir. 1987) ........................................... 25
El Paso Natural Gas Co. v. Neztsosie,
526 U.S. 473 (1999)....................................... 24, 25, 29, 30
Fla. Power & Light Co. v. Lorion,
470 U.S. 729 (1985)................................................ passim
General Atomics v. U.S. Nuclear
Regulatory Commission,
75 F.3d 536 (9th Cir. 1996) ................................ 13, 19, 20
Gorss Motels, Inc. v. Safemark Systems, LP,
931 F.3d 1094 (11th Cir. 2019) ................................15, 32
In re Hanford Nuclear Reservation Litig.,
534 F.3d 986 (9th Cir. 2008) ......................................5, 22
Manuel v. NRA Group LLC,
722 Fed. App’x 141 (3d Cir. 2018) ............................... 14
Morris v. NRC,
598 F.3d 677 (10th Cir. 2010) ....................................... 25
New York v. NRC,
681 F.3d 471 (D.C. Cir. 2012) ...................... 1-2, 3, 31, 32
PDR Network, LLC v. Carlton & Harris
Chiropractic, Inc.,
139 S. Ct. 2051 (2019) ........................................... passim
Roberts v. Florida Power & Light Co.,
146 F.3d 1305 (11th Cir. 1998) ..................................5, 22
Silkwood v. Kerr-McGee Corp.,
464 U.S. 238 (1984)................................................ passim

ix
Page(s)
Susquehanna Valley Alliance v. Three Mile
Island Nuclear Reactor,
619 F.2d 231 (3d Cir. 1980) .......................................... 26
In re TMI Litig. Cases Consol. II,
940 F.2d 832 (3d Cir. 1991) ........................... 5, 22, 24, 30
U.S. v. Any & All Radio Station
Transmission Equipment,
204 F.3d 658 (6th Cir. 2000) ......................................... 13
Virginia Uranium, Inc. v. Warren,
139 S. Ct. 1894 (2019) ................................................... 31
Estate of Ware v. Hospital of the University
of Pennsylvania,
871 F.3d 273 (3d Cir. 2017) .......................................... 29
Statutes
28 U.S.C. § 1254(1) ................................................................ 1
28 U.S.C. § 2342(4) .............................................................. 12
42 U.S.C. § 2012(a) .............................................................. 21
42 U.S.C. § 2012(i)............................................................... 21
42 U.S.C. § 2014 .................................................................. 27
42 U.S.C. § 2014(n)(2) ....................................................21, 22
42 U.S.C. § 2014(q) ............................................................. 22
42 U.S.C. § 2014(t) .............................................................. 24
42 U.S.C. § 2014(w) ............................................................. 23

x
Page(s)
42 U.S.C. § 2014(hh) .......................................... 21, 22, 27, 30
42 U.S.C. § 2131 .................................................................... 2
42 U.S.C. § 2132 .................................................................... 2
42 U.S.C. § 2133 .................................................................... 2
42 U.S.C. § 2201(b) ............................................................... 2
42 U.S.C. § 2201(h) ............................................................... 2
42 U.S.C. § 2201(i)................................................................. 2
42 U.S.C. § 2210 ......................................................... 3, 22, 30
42 U.S.C. § 2210(a).............................................................. 23
42 U.S.C. § 2210(c) ................................................... 22, 23, 24
42 U.S.C. § 2210(k) ............................................................. 23
42 U.S.C. § 2210(n) ........................................................10, 26
42 U.S.C. § 2210(n)(2) ................................................. passim
42 U.S.C. § 2210(n)(3) ....................................................25, 29
42 U.S.C. § 2210(n)(3)(C) ................................................... 30
42 U.S.C. § 2210(o) .........................................................25, 26
42 U.S.C. § 2210(hh) ........................................................... 22
42 U.S.C. § 2239 .................................................................. 12
42 U.S.C. § 2239(a).............................................................. 17

xi
Page(s)
42 U.S.C. § 2239(a)(1)(A).................................................... 13
42 U.S.C. § 2239(b) ............................................................. 13
42 U.S.C. § 2282 ...............................................................2, 26
42 U.S.C. § 2342(4) .............................................................. 27
42 U.S.C. § 4332(2)(C) ........................................................ 26
42 U.S.C. § 5801 .................................................................... 2
42 U.S.C. § 5841(a)................................................................ 2
42 U.S.C. § 5841(f) .............................................................. 13
42 U.S.C. § 5841(g) ............................................................. 13
Administrative Orders Review Act,
28 U.S.C. § 2341, et seq. ........................................ passim
Administrative Procedures Act,
5 U.S.C. § 702, et seq. ..................................... 9, 11, 14, 26
Cal. Civ. Code §§ 3479-80..................................................... 9
Price-Anderson Act, 42 U.S.C. § 2011, et seq. ......... passim
Pub. L. No. 88-82, 77 Stat. 115 ............................................ 6
Pub. L. 89-554, § 2342, 80 Stat. 378, 622 (1966) ............... 27
Pub. L. No. 100-408, 102 Stat. 1066 (1988) ....................... 27
Other Authorities
10 C.F.R. § 2.202 ................................................................... 2

xii
Page(s)
10 C.F.R. § 2.206 ......................................................... passim
10 C.F.R. § 2.206(a) .............................................................. 2
10 C.F.R. § 2.206(j) ............................................................. 26
10 C.F.R. § 72.146(a) ............................................................ 9
10 C.F.R. § 72.48 ................................................................... 9
10 C.F.R. § 72.214 ................................................................. 7
Fed. R. Civ. P. 12(b)(1) ....................................................... 11
Fed. R. Civ. P. 12(b)(6) ....................................................... 11
H.R. Rep. No. 100-104, pt. 1 (1987) ................................... 29
H.R. Rep. No. 2122 (1950) ................................................. 13
Ancilliary, https://www.merriamwebster.com/dictionary/ancillary (last
visited May 27, 2021) .................................................... 19
Blue Ribbon Commission on America’s
Nuclear Future, Report to the Secretary
of Energy vii (2012),
https://www.energy.gov/sites/prod/files/
2013/04/f0/brc_final report_jan2012.pdf
(last visited May 27, 2021) .............................................. 2
Incidental, https://www.merriamwebster.com/dictionary/incidental (last
visited May 27, 2021) .................................................... 19

xiii
Page(s)
Rob Nikolewski, Trump takes Yucca
Mountain off the table. What’s that
mean for San Onofre nuclear waste?,
San Diego Union-Tribune, Feb. 7, 2020 ....................... 3
S. Rep. No. 89-1605 (1966) ................................................. 29
S. Rep. No. 100-218 (1987) ................................................. 29
Undergoing Decommissioning, Nuclear
Regulatory Commission,
https://www.nrc.gov/infofinder/decommissioning/index.
html (last visited May 27, 2021) ................................... 32
U.S. Independent Spent Fuel Storage
Installations, Nuclear Regulatory
Commission, https://www.nrc.gov/
waste/spent-fuel-storage/map-fuelstorage-facilities.pdf (last visited May
27, 2021) ......................................................................... 32

PETITION FOR A WRIT OF CERTIORARI
Petitioner Public Watchdogs respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The decision of the Ninth Circuit Court of Appeals
(App., infra, 1a) is reported at 984 F.3d 744. The district
court’s opinion (App., infra, 62a) is unpublished and at
2019 WL 6497886.
The decision of the Ninth Circuit Court of Appeals
dismissing Public Watchdogs’ petition for judicial review
(App., infra, 50a) is unpublished and reported at 833 F.
App’x 460. The NRC’s decision denying Public Watchdogs’
10 C.F.R. § 2.206 petition (App., infra, 54a) is also
unpublished.
STATEMENT OF JURISDICTION
The Ninth Circuit’s judgment was entered on
December 29, 2020. This Court has jurisdiction under 28
U.S.C. § 1254(1). This petition is timely pursuant to this
Court’s March 19, 2020 order.
STATUTORY PROVISIONS INVOLVED
Relevant provisions of the Administrative Orders
Review Act (“Hobbs Act”), 28 U.S.C. § 2341 et seq., and
the Price-Anderson Act (“PAA”), 42 U.S.C. § 2011 et seq.,
are reproduced in the Appendix (App., infra, 117a-174a).
INTRODUCTION
Spent nuclear fuel (“SNF”) “poses a dangerous, longterm health and environmental risk. It will remain
dangerous for time spans seemingly beyond human
comprehension.” New York v. NRC, 681 F.3d 471, 474

2
(D.C. Cir. 2012) (internal quotations omitted). As of 2012,
there were “tens of thousands of tons of spent fuel at more
than 70 nuclear power plant sites around this country—
and … the United States currently has no physical
capacity to do anything with this spent fuel other than to
continue to leave it at the sites where it was first
generated.” Blue Ribbon Commission on America’s
Nuclear Future, Report to the Secretary of Energy vii
(2012) (“Blue Ribbon Commission”).1 Because of the sheer
danger presented by nuclear waste, including SNF,
Congress created a series of interconnected statutes,
regulations, and agencies to manage facilities storing
radioactive material and, in the worst-case scenario,
provide remedies for those harmed by its mishandling.
Congress established the NRC in 1973 and tasked it
with all the licensing and related regulatory functions of
the now-defunct Atomic Energy Commission (“AEC”). 42
U.S.C. § 5841(a), (f); id. § 5801. This includes the oversight
of licensing and regulating civilian storage and use of
radioactive material. Id. § 2201(b), (h), (i); id. §§ 2131-33.
Congress gave the NRC administrative tools to address
licensee noncompliance and violations. See, e.g., 42 U.S.C.
§ 2282 (authorizing the NRC to issue civil penalties for
licensing or certification violations). The NRC has
established procedures for modifying, suspending, or
revoking a license to remedy license violations. 10 C.F.R.
§ 2.202. Any person may file a request with the NRC to
“institute a proceeding pursuant to § 2.202[.]” 10 C.F.R. §
2.206(a). Congress further envisioned private parties
holding licensees accountable for licensed activity under
state and federal causes of actions, with the NRC
indemnifying licensees for judgments exceeding a certain
https://www.energy.gov/sites/prod/files/2013/04/f0/brc_final
report_jan2012.pdf (last visited May 27, 2021).
1

3
threshold. 42 U.S.C. § 2210; Silkwood v. Kerr-McGee
Corp., 464 U.S. 238, 250-55 (1984); Cook v. Rockwell Int’l
Corp., 790 F.3d 1088 (10th Cir. 2015) (Gorsuch, J.). The
Ninth Circuit’s decision would expand the administrative
reach of the NRC and disrupt the overlapping
enforcement regime Congress has established over
nuclear oversight, regulation, and remedy.
As every nuclear power plant in the country generates
SNF, Congress long ago realized that a safe and long-term
storage plan was essential. Despite the incalculable
hazards posed by SNF, no viable solution for the longterm storage and management problem has been
developed.
Congress, federal agencies, and other stakeholders
have long wrestled with deciding how, when, and where to
safely deposit nuclear waste. All the while, the dangerous
stockpile continues to grow. Over the years and much
unproductive political discourse, any potential plans for a
permanent site have been all but scrapped. Yucca
Mountain in Nevada was once a possibility but lost both
support and funding more than ten years ago. In re Aiken
County, 645 F.3d 428, 443 (D.C. Cir. 2011) (Kavanaugh, J.,
concurring). This leaves nuclear facilities with no longterm plan for storing mounting caches of SNF. “At this
time, there is not even a prospective site for a repository,
let alone progress toward the actual construction of one.”
New York, 681 F.3d at 474. The federal government’s
failure to create a long-term solution for SNF leaves
facilities like the San Onofre Nuclear Generating Stations
(“SONGS”) in limbo. See Rob Nikolewski, Trump takes
Yucca Mountain off the table. What’s that mean for San
Onofre nuclear waste?, San Diego Union-Tribune, Feb. 7,
2020 (discussing unclear fate of 3.55 million pounds of SNF
at SONGS).

4
This Court should grant certiorari to hear this case for
four reasons.
1. This case raises an issue concerning the
interpretation of the Hobbs Act that is even more
fundamental than the one four Justices found troubling in
PDR Network, LLC v. Carlton & Harris Chiropractic,
Inc., 139 S. Ct. 2051 (2019). There, Justices Thomas and
Gorsuch expressed concern that, if the Hobbs Act is read
“to prevent courts from applying the governing statute to
a case or controversy within its jurisdiction, the Act
conflicts with the ‘province and duty of the judicial
department to say what the law is.’” Id. at 2057 (Thomas,
J., concurring) (quoting Marbury v. Madison, 5 U.S. 137,
1 Cranch 137, 177 (1803)). Justice Kavanaugh, writing for
four Justices, acknowledged that “[t]he Hobbs Act does
not expressly preclude judicial review of an agency’s
statutory interpretation in an enforcement action.” Id. at
2058.
In PDR Network, neither the parties nor the Court
questioned whether a private party could assert a claim
against another private party even though an agency’s
order touches on that claim—plainly it can. Here,
however, the Ninth Circuit concluded that the Hobbs Act
precludes any judicial review of a private party’s state and
federal claims against other private parties, even when an
agency’s order and interpretation are not directly at issue.
If the Hobbs Act precludes district courts from
adjudicating claims in private party litigation simply
because of the presence of agency orders, a host of
otherwise private litigation may be barred wholesale.
2. The Ninth Circuit’s view effectively renders the PAA
a dead letter. The PAA expressly creates a federal cause
of action against entities licensed by the NRC, 42 U.S.C. §
2210(n)(2), and vests exclusive jurisdiction over such

5
claims in federal district court. Id.; Roberts v. Florida
Power & Light Co., 146 F.3d 1305, 1307 (11th Cir. 1998).
The Ninth Circuit nonetheless held that the Hobbs Act
precluded Petitioner from asserting a PAA claim against
other private entities, simply because they hold NRC
licenses. That decision contradicts five circuits’
interpretation of the PAA, including a prior decision of the
Ninth Circuit. Cook, 790 F.3d at 1090 (“any lawsuit
asserting liability for a ‘nuclear incident’ is automatically
considered a federal action that can be brought in (or
removed to) federal court.”); In re Hanford Nuclear
Reservation Litig., 534 F.3d 986, 997 (9th Cir. 2008);
Acuna v. Brown & Root Inc., 200 F.3d 335, 340 (5th Cir.
2000); Roberts, 146 F.3d at 1307; In re TMI Litig. Cases
Consol. II, 940 F.2d 832, 853-54 (3d Cir. 1991). If the
Hobbs Act precludes a private party from suing an NRC
licensee, the PAA is functionally a dead letter.
3. The opinion conflicts with this Court’s decision in
Silkwood, reaffirmed recently by the Tenth Circuit in
Cook, that private parties can bring state law claims or
seek state law remedies against NRC licensees despite
federal regulation of nuclear safety.
4. The management of the nation’s SNF stockpile is a
matter of national importance that becomes even more
urgent as it grows with no long-term solution for its safe
storage or disposal. Whether the citizens most affected by
the decisions (or lack thereof) on this issue can have their
claims addressed in federal court is an important federal
question that should be addressed now. The legal issues
associated with an increasing SNF stockpile along the
beach at SONGS, and elsewhere nationwide, should not be
left to percolate in the lower courts or, worse, be
postponed until a nuclear incident occurs. However, under

6
the Ninth Circuit’s reasoning, the Hobbs Act effectively
shuts the courthouse door and deprives private parties
from asserting state or federal claims in court against
private party NRC licensees regardless of legal theory,
the egregiousness of their conduct, and the views of five
circuit courts.
STATEMENT OF THE CASE
I.

Factual Background

This case revolves around the dangerous handling and
indefinite storage of nuclear materials at SONGS. The
facility is operated by Southern California Edison
(“Edison”), and partially owned by San Diego Gas &
Electric Company (“SDG&E”), and Sempra Energy, Inc.
(“Sempra”). The private contractor selected by Edison to
handle the movement and burial of SNF at Songs is Holtec
International (“Holtec”) (collectively, the “SONGS
Defendants”).
In 1963, Congress authorized the construction,
operation, and use of a nuclear power plant on Marine
Corps Base Camp Pendleton in San Diego County,
California. See Pub. L. No. 88-82, 77 Stat. 115. Three
nuclear electric generating units were constructed at the
base, collectively known as SONGS. The SONGS
Defendants are licensed by the NRC either to operate
SONGS or provide services at SONGS.
In 2013, the SONGS Defendants notified the NRC that
they planned to cease operations and begin the
decommissioning process. The decommissioning plan
called for the “temporary” storage of SNF on-site at
SONGS. Underlying that plan was the SONGS
Defendants’ false assumption that the Department of

7
Energy would begin accepting SNF in 2024 and that all
SNF would be removed from the SONGS site as of 2049.
In July 2015, the NRC approved the plan and amended the
SONGS licenses to begin the decommissioning process
(“2015 License Amendments”) and allow the licensees to
“maintain the facility, including, where applicable, the
storage, control and maintenance of the spent fuel, in a
safe condition[.]” Appellees’ Record, R. 29-1 at 15. These
amendments clearly state that the licensees are
responsible for the “overall safe handling and storage of
nuclear fuel and shall have control over those onsite
activities necessary for safe handling and storage of the
nuclear fuel.” Id. at 54.
While SONGS was operational, SNF was kept in
water-cooled wet storage encased in hardened structures.
As part of its decommissioning plan, the SONGS
Defendants, relying on Congress’ long-awaited,
permanent nuclear waste repository, proposed
temporarily storing the 3.55 million pounds of stockpiled
SNF in thin-walled canisters on-site in an Independent
Spent Fuel Storage Installation (“ISFSI”). The ISFSI is
in a precarious location; it is only 108 feet from the Pacific
Ocean, lies near multiple active earthquake fault lines, and
sits within a tsunami inundation zone.
In February 2018, as part of the decommissioning plan,
the SONGS Defendants began transferring SNF from wet
storage into thin, dry-storage canisters manufactured by
defendant Holtec. These canisters were purportedly
Holtec Hi-Storm Umax canisters, which the NRC
approved and certified for at least some uses (though not
specifically for use at SONGS nor for permanent
interment of SNF) in 2015. See 10 C.F.R. § 72.214
(Certificate of Compliance No. 1040). The SONGS

8
Defendants planned to bury these canisters in the Holtec
ISFSI’s underground silos.
Shortly after transfer began in 2018, design and
manufacturing flaws in the Holtec canisters became
apparent. After four canisters were buried, the SONGS
Defendants discovered that another canister had broken,
impairing its ability to cool SNF. Additionally, every single
canister was found to be gouged or scratched during the
downloading process. Some of these flaws occurred
because Holtec did not manufacture the canisters as
required by its NRC Certificate of Compliance.
Then, in the summer of 2018, the SONGS Defendants
caused two separate “near misses” at the site that were
nearly nuclear disasters. First, a 49-ton canister full of
SNF was almost dropped more than 18 feet to the concrete
floor of one of these beachside silos. Less than two weeks
later, employees at the site snagged another 49-ton
canister on a narrow steel outcropping, leaving the
canister hanging 20 feet in the air for almost an hour. Had
either of these canisters dropped, nuclear waste could
have been released. On neither occasion did the SONGS
Defendants inform either the NRC (or the public) within
24 hours, as NRC regulations require.
On August 6, 2018, Edison notified the NRC that it was
“voluntarily” suspending the movement and dry storage of
SNF at SONGS, and would continue to maintain SNF in
wet storage. However, the public was not informed of
these near misses until a whistleblower came forward at a
public hearing on August 9, 2018. After that public
disclosure, the SONGS Defendants maintained their
voluntary suspension of SNF fuel transfers until mid-2019.
The NRC ultimately issued two notices of violation to
the SONGS Defendants in connection with these incidents.
On November 29, 2018, the NRC found Holtec violated 10

9
C.F.R. §§ 72.146(a) and 72.48 because of the faulty design
of its canisters and its failure to notify the NRC that it had
changed the design of those canisters. On March 25, 2019,
the NRC notified Edison that it had violated NRC safety
requirements in its handling of the Holtec canisters.
On July 15, 2019, the SONGS Defendants notified the
NRC and the public that they were resuming transfer of
SNF from wet storage to dry canisters, and burying the
canisters near the San Onofre beach even though they had
not materially changed Holtec’s defective canisters, or the
processes for transferring SNF to dry canisters,
transporting the canisters, or burying them. The original
SONGS decommissioning plan approved by the NRC in its
2015 Licensing Amendments did not contemplate the
permanent interment of SNF, much less the indefinite
storage of SNF in structures only 108 feet from the Pacific
Ocean, between major earthquake fault lines, in a tsunami
inundation zone. The burial and interment of the SNF has
continued ever since.
II.

Procedural Background

Public Watchdogs, a non-profit public safety advocate,
repeatedly asked the SONGS Defendants to suspend their
“downloading” activities, as they had voluntarily done for
eleven months in 2018 and 2019. Its requests were rejected
or ignored.
On August 28, 2019, Public Watchdogs filed a
Complaint against the SONGS Defendants alleging
violations of California’s public nuisance law, Cal. Civ.
Code §§ 3479-80 and California’s product liability law.2 On
That suit also alleged that the NRC violated the Administrative
Procedures Act, 5 U.S.C. § 702 et seq. (“APA”). The NRC is not a
Respondent here.
2

10
September 24, 2019, Public Watchdogs filed a First
Amended Complaint adding a public-liability action
pursuant to the PAA, 42 U.S.C. § 2210(n). Public
Watchdogs sought primarily to enjoin the SONGS
Defendants from continuing with the decommissioning
process insofar as it violated the Price-Anderson Act or
state nuisance laws.
On December 3, 2019, the district court issued an order
dismissing Petitioner’s action with prejudice after
concluding that the Hobbs Act deprived it of subject
matter jurisdiction over the entire case, including the state
and federal claims against the private party SONGS
Defendants. (App., infra, 83a-94a). Specifically, the court
concluded that the alleged actions were all “taken
pursuant to” or “incidental to” the 2015 License
Amendments or the Holtec Certificate of Compliance and
thus Petitioner’s state and federal claims could not be
litigated in the district court. (App., infra, 94a). Public
Watchdogs timely appealed the court’s order on
December 31, 2019.
On September 24, 2019, Petitioner separately
petitioned the NRC (which licensed all the SONGS
Defendants), under 10 C.F.R. § 2.206 seeking an injunction
to (1) halt the movement and burial of spent fuel at
SONGS, and (2) order the SONGS Defendants to prepare
and submit an amended decommissioning plan. While
some underlying facts in the administrative petition
overlapped with those set forth in the Amended
Complaint, the legal theories and bases for relief were
separate and distinct. Specifically, the 2.206 Petition
focused only on the NRC’s actions and orders, contending
that the SONGS decommissioning plan rested on a
fundamentally false underlying premise—namely, that
the Department of Energy would begin accepting SNF for

11
long-term storage in 2024, and that all SNF would be
removed from SONGS by 2049. In fact, the Department of
Energy has no plan to begin accepting SNF in 2024, or any
time in the foreseeable future, because there is no place to
put it. This false assumption resulted in a gross
understatement of the actual costs to store and monitor
spent nuclear fuel at SONGS. The NRC denied Public
Watchdogs’ 2.206 Petition via letter on February 26, 2020,
because it “[did] not meet the acceptance criteria” for
review, allegedly because the issues Public Watchdogs
raised have been “the subject of a facility-specific or
generic NRC staff review,” and “none of the
circumstances in Section III.C.1(b) applies.” (App., infra,
61a).3
In its appeal from the dismissal of the Complaint,
Public Watchdogs argued that the district court erred in
dismissing Public Watchdogs’ claims under Rules 12(b)(1)
and 12(b)(6). On December 29, 2020, the Ninth Circuit
affirmed the district court’s decision. (App., infra, 1a-49a).
The court grounded its analysis on the premise that the
Hobbs Act deprived the district court of subject matter
jurisdiction over the state law nuisance and federal PAA
claims against the SONGS Defendants as well as the APA
claim against the NRC. The court focused on the effect of
the “2015 License Amendments, the Certificate of
Compliance for the Holtec System, and actions taken by
the licensees under the authority of both of those final
NRC orders.” (App., infra, 47a). According to the court,
Public Watchdogs sought review of the NRC’s decision in the
Ninth Circuit. (App., infra, 50a-53a). The Ninth Circuit dismissed
Public Watchdogs’ petition for review, holding that the NRC’s
decision was presumptively unreviewable, and Public Watchdogs had
not shown that the NRC “abdicated its statutory duties” or “point[ed]
to any specific language indicating an intent to circumscribe the
NRC’s discretion.” (App., infra, 52a-53a).
3

12
the existence of the NRC licenses transformed Public
Watchdogs’ claims against the SONGS Defendants into
claims precluded by the Hobbs Act, because the SONGS
Defendants’ conduct was “inextricably intertwined” with,
or “ancillary” or “incidental” to, those licensing orders.
(App., infra, 48a). The Ninth Circuit thus extended the
Hobbs Act’s exclusive jurisdiction provision beyond its
statutory bounds, locking the courtroom door to private
parties’ claims against other private parties, even when
those claims are not directed at the agency in question or
challenging agency orders.
The Ninth Circuit has precluded private parties from
suing other private parties regarding their dangerous
activities at SONGS.
REASONS FOR GRANTING THE PETITION
I.

The Ninth Circuit Erred in Holding that the
Hobbs Act Divests District Courts of
Jurisdiction over Claims Brought by Private
Parties against NRC Licensees.
A.

The Hobbs Act confers on the courts of
appeals “exclusive jurisdiction” over
actions seeking to “enjoin, set aside,
suspend” or “determine the validity of”
final agency orders; nothing more.

Congress passed the Hobbs Act in 1950 to channel
certain challenges to agency action directly to the courts
of appeals, which are granted “exclusive jurisdiction to
enjoin, set aside, suspend (in whole or in part), or to
determine the validity of ... all final orders of the [NRC]
made reviewable by section 2239 of title 42.” 28 U.S.C. §
2342(4). Section 2239 provides for Hobbs Act review of
“[a]ny final order entered in any proceeding” “for the

13
granting, suspending, revoking, or amending of any
license or construction permit, or application to transfer
control, and in any proceeding for the issuance or
modification of rules and regulations dealing with the
activities of licensees.” 42 U.S.C. § 2239(b), (a)(1)(A).4
Congress’ purpose in channeling direct challenges into
the courts of appeals was to help administrative agencies
act more efficiently. As the House Report explained,
“submission of the cases upon the records made before the
administrative agencies will avoid the making of two
records, one before the agency and one before the court on
review, and thus going over the same ground twice.” H.R.
Rep. No. 2122, at 3-4 (1950); Fla. Power & Light Co. v.
Lorion, 470 U.S. 729, 740 (1985) (describing similar
purpose).
This Court “has commanded ‘strict fidelity to the[]
terms’ of judicial review provisions” that create or limit
jurisdiction, such as those contained in the Hobbs Act.
Brodsky, 578 F.3d at 180 (quoting Stone v. INS, 514 U.S.
386, 405 (1995)). Courts of appeals have thus held that the
“exclusive jurisdiction” language of the Hobbs Act applies
only to direct challenges to agency action—namely, for
“requests to enjoin, set aside, suspend,” or “invalidate”
agency action or orders; in other words, to challenges
directed at an agency proper. See id. (Hobbs Act did not
apply to regulatory exemptions); United States v. Any &
All Radio Station Transmission Equip., 204 F.3d 658, 667
(6th Cir. 2000) (reversing district court’s decision that it
The Hobbs Act references the AEC, but the AEC was abolished
and its licensing functions were transferred to the NRC. NRC orders
are thus reviewable under the Hobbs Act. 42 U.S.C. §§ 5841(f),
5871(g); General Atomics v. U.S. Nuclear Regulatory Comm’n, 75
F.3d 536, 538 n.2 (9th Cir. 1996); Brodsky v. U.S. Nuclear Regulatory
Comm’n, 578 F.3d 175, 179 n.2 (2d Cir. 2009).
4

14
lacked subject matter jurisdiction “for the simple reason
that no [agency] order is being challenged”); Manuel v.
NRA Group LLC, 722 F. App’x 141, 144 n.5 (3d Cir. 2018)
(private suit did “not address the validity of the [agency’s]
orders” and was thus outside the Hobbs Act).
Four Justices of this Court, concurring in the
judgment in PDR Network, recently rejected the
Government’s argument, as an amicus, that the Hobbs
Act deprives a federal district court of jurisdiction to
interpret an agency order in private party litigation. See
139 S. Ct. at 2057-67 (Kavanaugh, J., concurring). The
Government in PDR Network stressed the “exclusive
jurisdiction” provision, but, as Justice Kavanaugh queried,
“‘exclusive jurisdiction’ to do what?” Id. at 2063. The
answer is simple: only to “issue an injunction or
declaratory judgment regarding the agency’s order.” Id.
While the Government might prefer to “choke off all
litigation at the pass,” Justice Kavanaugh observed, id. at
2066, that reading would contradict the APA’s “‘basic
presumption of judicial review for one suffering legal
wrong because of agency action.’” Id. at 2060 (quoting
Weyerhauser Co. v. US Fish & Wildlife Serv., 139 S. Ct.
361, 370 (2018) (quotation altered by Court)); Bowen v.
Mich. Acad. of Fam. Physicians, 476 U.S. 667, 670 (1986)
(unless “there is persuasive reason to believe that
Congress intended to preclude judicial review, the Court
will not preclude review”) (internal quotation marks
omitted).
The Government’s interpretation of the Hobbs Act in
PDR Network would also create serious constitutional
problems—including depriving litigants of their day in
court, in contravention of due process, and expanding the
authority of agencies, in contravention of the separation of
powers. See PDR Network, 139 S. Ct. at 2062-64, 2066

15
(Kavanaugh, J., concurring); Gorss Motels, Inc. v.
Safemark Systems, LP, 931 F.3d 1094, 1106-10 (11th Cir.
2019) (Pryor, J., concurring, joined by Newsom and
Branch, JJ.) (“The Hobbs Act, correctly construed, does
not require district courts adjudicating cases within their
ordinary jurisdiction to treat agency orders that interpret
federal statutes as binding precedent. Our precedents’
interpretation of the Hobbs Act ignores the statutory
context, generates absurd results, and raises serious
constitutional doubts. In the earliest appropriate case, we
should correct our mistake en banc.”).5
B.

The Ninth Circuit’s decision extends the
scope of Hobbs Act review to an
unwarranted and unprecedented degree.

The Ninth Circuit’s decision misinterprets and
misapplies the Hobbs Act two ways. First, it reads the
statute to preclude litigation between private parties,
simply because some private parties were NRC licensees.
Second, it interprets the Hobbs Act so broadly that it
precludes claims arising from conduct that is merely
“incidental” to a final agency order.
1. The Hobbs Act does not apply to litigation
among private parties, and has never been
applied to such litigation until now.
This case does not raise the issue left undecided in
PDR Network—namely, whether a district court may
interpret an agency order in a case between private
Citing PDR Network’s concurrences, Judge Pryor urged the
Eleventh Circuit to reconsider its precedents precluding district
courts from adjudicating an agency’s interpretation of its own orders:
“Unsurprisingly, if the Hobbs Act meant what we have said it means,
its constitutionality would be in doubt.” Id. at 1110.
5

16
parties that entails application of the order. See id. at 205356.
This case raises the even more fundamental question
of whether private parties can bring state law tort claims
or federal PAA claims at all against private parties who
misuse their NRC licenses to the detriment of the public.
Neither this Court nor any other court of appeals has ever
read the Hobbs Act so broadly, much less held that
possession of an agency license or certificate insulates a
private party from suit in a district court. That is because
nothing in the Hobbs Act strips district courts of
jurisdiction to adjudicate disputes among private
parties—that much is implicit in the PDR Network
decision: neither the Justices nor the parties themselves
questioned the district court’s jurisdiction over the parties’
dispute.
The court of appeals in this case relied on this Court’s
decision in Lorion to justify stripping the jurisdiction of
the district court and the rights of parties to sue other
private parties in the district court. Lorion justifies no
such thing.
In Lorion, this Court considered “whether the [NRC’s]
denial of a § 2.206 request should be considered a final
order initially reviewable exclusively in the court of
appeals.” Lorion, 470 U.S. at 734. The appellate court had
determined it lacked subject matter jurisdiction to review
the NRC’s decision denying petitioner’s request for a
hearing, on the grounds it was not an NRC “final order.”
Id. at 733.
This Court concluded that the court of appeals had
misconstrued the interrelation between the review and
hearing provisions of the Hobbs Act and reversed, holding
that the jurisdiction conferred by the Hobbs Act on the
courts of appeals does not turn on whether or not an

17
agency held a hearing, or could have held a hearing, in the
first instance. Id. at 734, 739-42. “If initial review in the
courts of appeals hinged on whether a hearing before the
agency actually occurred, then some licensing
proceedings will be reviewed in the courts of appeals while
others will not[.]” Id. at 741.
“[E]qually irrational consequences follow” “[i]f initial
review in the courts of appeals hinged on whether a
hearing could have taken place had an interested party
requested one.” Id. at 742. If that were the rule, some final
orders—for the “granting, suspending, revoking, or
amending of a license”—would be heard in the courts of
appeals, while other final orders—like summary
proceedings or rulemaking authorized by § 2239(a)—
would be “initially reviewed in the district court because
the Commission does not currently provide for a hearing
in such situations.” Id. (footnote omitted).
This Court thus held that all challenges seeking to
modify, suspend, or revoke an NRC license should be
heard in the courts of appeals, including final orders
“resolving issues preliminary or ancillary” to the core
issue. Id. at 743-44. This solution streamlines the process
and makes sense practically because the “factfinding
capacity of the district court is ... typically unnecessary to
judicial review of agency decisionmaking.” Id. at 744.
Two important things emerge from this decision. First,
the case began with a 2.206 petition challenging the NRC’s
decision. It was not a private party’s claim as asserted in
district court. And second, it reasoned that, absent this
conclusion, some final orders “would be reviewed initially
in the district court.” Id. at 742 (emphasis added). Lorion
in no way read the Hobbs Act to limit the judicial review
available to private litigants asserting claims against other
private litigants. Instead, it began with the presumption

18
that claims outside the purview of the Hobbs Act are
reviewable in district court.
PDR Network confirmed that the presence of an FCC
final order did not deprive private litigants of jurisdiction
in federal district court. No one doubted that the district
court had jurisdiction over the dispute. The concurring
Justices stated so clearly. PDR Network, 130 S. Ct. at 2056
(Thomas, J., concurring) (“[T]he Hobbs Act would have no
role to play in this case” precisely because “[t]his suit is a
dispute between private parties, and petitioners did not
ask the District Court to ‘enjoin, set aside, suspend’ or
‘determine the validity of any [agency] order.’“); id. at 2058
(Kavanaugh, J., concurring) (“The Hobbs Act does not
expressly preclude judicial review of an agency’s statutory
interpretation in an enforcement action.”).
The Ninth Circuit, however, concluded that the Hobbs
Act precluded all judicial review of a private party’s claims
against other private parties, even when no agency’s “final
order” is being directly challenged. That contravenes
PDR Network. In fact, if the Ninth Circuit were correct,
district courts could not oversee private litigation in any
case that arises from conduct by parties acting under
cover of “final agency orders” (including FCC orders in
many cases like PDR Network).
2. The Hobbs Act does not deprive district
courts of jurisdiction over claims that do
not seek to invalidate a final agency order
and simply address licensee actions that
are “incidental” to final agency orders.
The Ninth Circuit determined that the Hobbs Act must
be read “broadly to encompass not only all final NRC
actions in licensing proceedings, but also all decisions that
are preliminary, ancillary, or incidental to those licensing

19
proceedings,” (App., infra, 28a), based on its misreading
of Lorion, 470 U.S. 729, and the court of appeals’ own
decision in General Atomics, which likewise misread
Lorion.
The word “incidental”—which does not appear at all in
Lorion—appears in the Ninth Circuit’s 1996 opinion in
General Atomics, which held that the district court lacked
jurisdiction to determine a challenge to the NRC’s nonfinal decision ordering the appellant to clean up a nuclear
facility. 75 F.3d at 539. In reaching this decision, the court
mistakenly stated that Lorion “held that the Hobbs Act is
to be read broadly to encompass all final NRC decisions
that are preliminary or incidental to licensing.” Id.
(emphasis added). But “incidental” is not “ancillary.”
The word “ancillary” is defined as something that is
“subordinate” or “auxiliary.”6 It is derived from a Latin
word indicating service or support, and “picks up on the
notion of providing aid or support in a way that
supplements something else. In particular, the word often
describes something that is in a position of secondary
importance, such as the ‘ancillary products in a company’s
line.’”7 The word “incidental,” by contrast, is defined as
something “minor,” or “likely to ensue merely by chance
or without intention or calculation.”8 An event or object
that is incidental thus has a far more attenuated
relationship to something than one that is ancillary. An
“ancillary” order, therefore, is one that supplements or
supports a final order covered by the Hobbs Act; whereas,
Ancillary,
Merriam-Webster,
https://www.merriamwebster.com/dictionary/ancillary (last visited May 27, 2021).
6

7

Id.

Incidental,
Merriam-Webster,
https://www.merriamwebster.com/dictionary/incidental (last visited May 27, 2021).
8

20
an “incidental” order is one bearing an attenuated or even
accidental relationship to a relevant final agency order.
The Ninth Circuit’s opinion takes the mistake made in
General Atomics—the substitution of the word
“incidental” for the word “ancillary”—and compounds it
significantly by replacing the words “final order” with
“licensing proceedings.” (App., infra, 28a). In so doing, the
court expands the exclusive jurisdiction language of the
Hobbs Act to cover not only suits against the NRC
challenging NRC final orders (as in General Atomics), but
also suits (even against private parties) that do not
challenge NRC final orders, if they bear some “incidental”
or “ancillary” relationship to NRC licensing proceedings.
According to the Ninth Circuit, a claim is barred by the
Hobbs Act if a defendant’s challenged actions are merely
“related to” or “inextricably intertwined” with final agency
orders. (App. infra, 48a) (quoting Am. Bird Conservancy
v. FCC, 545 F.3d 1190, 1193 (9th Cir. 2008)). This strained
reading of the Hobbs Act is not supported by the language
of the Act, by Lorion, or anything else.
Contrary to the Ninth Circuit’s view, Lorion did not
read the Hobbs Act so broadly as to confer exclusive
jurisdiction on courts of appeals over anything more than
final agency orders, in keeping with the language of the
Hobbs Act itself. This Court used the terms “preliminary
or ancillary” to describe orders related to final agency
orders, not to factual scenarios giving rise to state law or
PAA claims. It did not address, much less hold, that claims
raising issues “incidental” to agency decisionmaking must
be adjudicated in the courts of appeals.
No court—until now—has precluded private parties
from bringing state law tort and federal PAA claims
against other private parties in federal district court,
simply because defendants are NRC licensees whose

21
misconduct bears some ancillary or incidental relation to
their licensed activities. The court here barred Petitioner
from asserting claims against the SONGS Defendants,
based on allegations that these defendants are engaging in
negligent, reckless, or intentional conduct that abuses
their NRC licenses and threatens the lives and well-being
of the residents of Southern California. NRC licenses do
not render these defendants untouchable in court. The
federal courts should not abdicate their responsibility to
adjudicate private party claims simply because an agency
also oversees defendant licensees.
II.

The Ninth Circuit’s Decision Disregards The
Price-Anderson Act And Creates A Conflict
With The Hobbs Act Where None Exists.

The Ninth Circuit’s interpretation of the Hobbs Act
directly conflicts with the text and purpose of the PAA, 42
U.S.C. §§ 2014(hh), 2210(n)(2) and the interpretation of
five circuit courts. In fact, it effectively eliminates PAA
public liability actions against NRC licensees—the
intended defendants in such actions.
The PAA was intended to strike a balance between
protecting the public and fostering nuclear energy and
technology. 42 U.S.C. §§ 2012(a), (i); Duke Power Co. v.
Carolina Envtl. Study Grp., Inc., 438 U.S. 59, 64 (1978). In
doing so, it established a framework for managing claims
and funding liability arising from nuclear incidents.9 Duke
Power, 438 U.S. at 65. The PAA did not displace state
Petitioner maintained below that the term “nuclear incident”
includes not just accidents, but conditions that creating significant risk
of a nuclear accident. If this were not so, conditions could not be
corrected, including by injunction, in time to avoid such accidents.
That interpretation is not at issue because the Ninth Circuit’s decision
was based exclusively on subject matter jurisdiction.
9

22
causes of action. Silkwood, 464 U.S. at 251-54; accord
Cook, 790 F.3d at 1098. This Court stressed that the PAA’s
legislative history contained “ample evidence” that
Congress did not intend to preclude state tort remedies for
harm related to nuclear activity. Silkwood, 464 U.S. at 25051.
Four years after Silkwood, Congress amended the
PAA to create a federal cause of action—i.e., a “public
liability action.” 42 U.S.C. §§ 2210(n)(2), 2014(hh) (“1988
Amendments”). A public liability action is one “arising out
of or resulting from a nuclear incident.” 42 U.S.C. §
2210(n)(2). The Act provides that the substantive rules of
a public liability action are derived from state law, unless
state law is “inconsistent” with § 2210. See 42 U.S.C. §
2014(hh); Cook, 790 F.3d at 1095.
The PAA creates an “exclusive federal cause of action”
which, according to at least five circuit courts, is properly
litigated in federal district court. Roberts, 146 F.3d at
1307; Cook, 790 F.3d at 1090 (“any lawsuit asserting
liability for a ‘nuclear incident’ is automatically considered
a federal action that can be brought in (or removed to)
federal court.”); In re Hanford Nuclear Reservation
Litig., 534 F.3d at 997; Acuna, 200 F.3d at 340; In re TMI
Litig. Cases Consol. II, 940 F.2d at 853-54.
A “nuclear incident” is defined as “any occurrence,
including an extraordinary nuclear occurrence, within the
United States ... arising out of or resulting from the
radioactive, toxic, explosive, or other hazardous properties
of source, special nuclear, or byproduct material.” 42
U.S.C. § 2014(q). That definition references 42 U.S.C. §
2210(c), which governs the PAA indemnification plan for
NRC licensees. Under that provision, “a contract of
indemnification shall cover public liability arising out of

23
or in connection with the licensed activity.” 42 U.S.C.
§ 2210(c) (emphasis added).
In turn, the PAA defines “public liability” as “any legal
liability arising out of or resulting from a nuclear incident
... except ... (iii) whenever used in subsections (a), (c), and
(k) of [section 2210], claims for loss of, or damages to, or
loss of use of property which is located at the site of and
used in connection with the licensed activity where the
nuclear incident occurs.” 42 U.S.C. § 2014(w) (emphasis
added).
Both the PAA’s indemnification plan and public
liability action explicitly provide for claims arising out of,
or in connection with, licensed activity and the harmful
actions of a licensee. The 1988 Amendments also explicitly
vested jurisdiction over public liability actions in district
courts. 42 U.S.C. § 2210(n)(2) (“With respect to any public
liability action ... the United States district court in the
district where the nuclear incident takes place ... shall have
original jurisdiction[.]”). In summary, the PAA created a
public liability action for nuclear incidents, including
incidents arising out of, or in connection with, licensed
activity against NRC licensees, and provided district
courts with original jurisdiction over those claims.
That is precisely the claim Petitioner asserted.
Petitioner brought a PAA claim against the SONGS
Defendants, alleging that they are burying and storing
SNF improperly in defective canisters inappropriate to
the location selected for burial and in a manner that
endangers public health and safety. According to the
Ninth Circuit, however, the Hobbs Act deprives a district
court of jurisdiction to hear any PAA claim against an
NRC licensee that challenges the licensees’ activities
when “NRC licensing orders or NRC decisions that were
ancillary or incidental to NRC licensing decisions” are

24
involved. (App., infra, 49a). This effectively guts the PAA’s
public liability claim against its primary intended
defendant—an NRC licensee.
To the contrary, at least five circuit courts (Third,
Fifth, Tenth, Eleventh, and the Ninth, previously) have
permitted PAA claims to be adjudicated against NRC
licensees in federal district court. See supra pp. 4-5.
Such a decision contradicts the text and purpose of the
PAA and renders it toothless. As discussed, the PAA’s text
contemplates actions against NRC licensees for activities
“arising out of or in connection with the licensed activity.”
42 U.S.C. § 2210(c) (emphasis added); In re TMI Litig.,
940 F.2d at 853-54 (PAA “channel[s] liability to licensees”)
(citing 42 U.S.C. § 2014(t)). As the Ninth Circuit interprets
the Hobbs Act, the proper jurisdiction for PAA actions
that “challenge” those licensed activities would be through
the NRC’s administrative process and then subject to the
exclusive jurisdiction of the Court of Appeals. (App., infra,
48a). Congress, however, clearly intended these actions
would be brought in district court. 42 U.S.C. § 2210(n)(2)
(original jurisdiction in the district court for public liability
claims); El Paso Natural Gas Co. v. Neztsosie, 526 U.S.
473, 477 (1999) (describing Congress’ “unmistakable
preference for a federal forum” for PAA public liability
actions).
The Ninth Circuit’s decision deprives federal district
courts of jurisdiction over claims holding licensees
responsible for tortious conduct relating to nuclear
activities in favor of the NRC’s administrative process
because any such conduct would, by definition, be
“preliminary, ancillary, or incidental to [the NRC’s]
licensing proceedings.” (App., infra, 28a). This
interpretation effectively makes the PAA a dead letter.
See Bilski v. Kappos, 561 U.S. 593, 607-08 (2010)

25
(interpreting any statutory provision to render another
provision superfluous “of course, applies to interpreting
any two provisions in the U.S. Code, even when Congress
enacted the provisions at different times”).
The 1988 Amendments vested jurisdiction over nuclear
incidents arising out of and in connection with licensed
activity in the district courts. A 2.206 Petition is not how
Congress envisioned these claims should be brought nor is
it the functional equivalent of a PAA claim. Under 10
C.F.R. § 2.206, a petitioner is not guaranteed a hearing,
but merely requests that the NRC institute a proceeding.
Eddleman v. NRC, 825 F.2d 46, 48 (4th Cir. 1987) (no right
to a hearing under 10 C.F.R. § 2.206); Morris v. NRC, 598
F.3d 677, 703 (10th Cir. 2010). If the NRC refuses to
institute a proceeding, as it did here, then what follows is
a deferential review in the Court of Appeals. (App., infra,
51a) (characterizing the NRC’s denial of Petitioner’s 2.206
petition as “a decision not to institute an enforcement
proceeding” and noting such a decision is “presumptively
unreviewable”) (citing Heckler v. Cheney, 470 U.S. 821,
833 n.4, 834 (1985)).
Further, the NRC lacks the authority to manage the
logistics associated with a PAA claim. It cannot
consolidate PAA actions, manage them once consolidated,
or distribute limited compensatory funds. Neztsosie, 526
U.S. at 477 (describing 42 U.S.C. §§ 2210(n)(2), (n)(3), and
(o)).
The Ninth Circuit reasoned that Petitioner’s 2.206
Petition “bolstered” the court’s conclusion because it
purportedly “addressed the same conduct of the [SONGS]
Defendants and sought the same remedy as the district
court action[.]” (App., infra, 48a). However, that logic is
flawed three ways.

26
First, Petitioner asserted different claims against
different parties in the two fora. In its 2.206 Petition,
Petitioner addressed the NRC’s actions, asserting that the
NRC violated its own regulations, the APA, and the
NEPA, 42 U.S.C. §4332(2)(C). Petitioner’s claims against
the SONGS Defendants (not the NRC) in the district court
include a PAA claim and state law nuisance claim, asserted
against NRC licensees based on their conduct. These
claims do not seek to “enjoin, set aside, suspend (in whole
or in part)” or invalidate any NRC order, including the
2015 License Amendments or the NRC Certificate of
Compliance.
Second, the NRC cannot award all the relief available
under the PAA. Susquehanna Valley Alliance v. Three
Mile Island Nuclear Reactor, 619 F.2d 231, 244 (3d Cir.
1980) (permitting federal claim and holding there would
have to be “rather compelling evidence of congressional
intent before [the court] would hold that there was no
opportunity to resort to either preventative or make-whole
judicial remedies” while the NRC considers “the
underlying problem”). For example, the NRC cannot
impose liability pursuant to the PAA; only district courts
do that. 42 U.S.C. § 2210(n), (o). It cannot award damages
under the PAA, id., § 2210(o), nor under state law. Its
ability to issue penalties is limited by both statute and
regulation. 42 U.S.C. § 2282; 10 C.F.R. § 2.206(j) (limiting
penalty amount to $298,211 per violation).
And third, even if similar relief were available in the
agency action, it would not deprive the district courts of
subject matter jurisdiction. While the relief Petitioner
sought from the NRC in its unsuccessful 2.206 Petition
was similar to that sought in the district court, that is no
different than the parallel forms of relief available in
numerous types of private litigation and agency

27
proceedings. NRC review also does not guarantee a day in
court for plaintiffs asserting PAA claims against NRC
licensees arising out of or in connection with licensed
activity, or anything comparable to the PAA.
Quite simply, the Ninth Circuit’s interpretation creates
a statutory conflict where none exists. See Bilski, 561 U.S.
at 607-08. The Hobbs Act is directed at invalidating,
enjoining, or setting aside agency action (i.e., final orders),
which only the agency and the appellate courts can do. The
PAA, by contrast, is directed at licensee actions. The
Ninth Circuit’s reliance on American Bird and Yeutter
therefore was entirely off-point because in those cases
plaintiffs’ claims challenged agency action by asserting
claims against administrative agencies, not private
parties. American Bird Conservancy v. FCC, 545 F.3d
1190 (9th Cir. 2008); California Save Our Streams
Council, Inc. v. Yeutter, 887 F.2d 908 (9th Cir. 1989).
A licensee has day-to-day control over how it handles
dangerous materials. When the licensee’s action involving
those materials becomes tortious and constitute a nuclear
incident, it is subject to public liability, the remedies of
which are determined by state law. 42 U.S.C. § 2014(hh).
Even if a conflict existed between these statutes, 42 U.S.C.
§ 2014 would control as the later-in-time act of Congress.
Compare 1988 Amendments, Pub. L. No. 100-408, 102
Stat. 1066 (enacted 1988) to Hobbs Act, Pub. L. 89-554, §
2342, 80 Stat. 378, 622 (enacted 1966).10 The Ninth Circuit’s
Hobbs Act interpretation creates an unnecessary conflict
and eviscerates a federal cause of action that plays a key
role in Congress’ plan in for remediating nuclear incidents.
The Hobbs Act was amended after its inception, but 42 U.S.C. §
2342(4) has not changed since 1966. See Pub. L. 89-554, § 2342, 80 Stat.
378, 622 (1966).
10

III.

28
The Ninth Circuit’s Reasoning Contradicts this
Court’s Decision in Silkwood and the Tenth
Circuit’s in Cook.

The Ninth Circuit’s decision also conflicts with this
Court’s reasoning in Silkwood and the Tenth Circuit’s
analysis in Cook (authored by then-Judge Gorsuch). Both
cases recognize that plaintiffs can assert traditional state
law claims and seek state law remedies, both when a
“nuclear incident” as defined by the PAA has, and has not,
been proven. The PAA thus leaves room for litigants to
seek state law remedies despite the pervasive federal
regulatory scheme involving nuclear safety. That could not
be the case if the Hobbs Act deprives federal district
courts of subject matter jurisdiction over claims asserted
against NRC licensees.
In Silkwood, this Court addressed an “important”
issue: the PAA’s effect on both states’ traditional tort
remedies and the federal government’s express desire to
maintain regulatory authority over nuclear safety.
Silkwood, 464 U.S. at 248. It ultimately found it “clear that
in enacting and amending the Price-Anderson Act,
Congress assumed that state-law remedies, in whatever
form they might take, were available to those injured by
nuclear incidents.” Id. at 256 (emphasis added). Evidence
supporting plaintiff’s state law negligence and strict
liability claims against Kerr-McGee, an NRC licensee,
included that the licensee “complied with most federal
regulations,” but “did not always comply with NRC
regulations.” Id. at 243-44.
Nothing in the PAA’s text has changed since Silkwood
to preclude the traditional state law injunctive remedies
Petitioner requests here. The PAA’s history suggests
Congress sought to “minim[ize] interference with State

29
law” so “the only interference with State law is ... in the
exceedingly remote contingency of a nuclear incident
giving rise to damages in excess of the amount of financial
responsibility required together with the amount of the
governmental indemnity.” S. Rep. No. 89-1605 (1966);
H.R. Rep. No. 100-104, pt. 1, at 20 (1987).
The 1988 Amendments’ creation of the public liability
action did not displace traditional state law remedies from
the PAA. Instead, the action was designed to “smooth and
speed the recovery process” following the disastrous
response to the Three Mile Island incident.11 Cook, 790
F.3d at 1096. Because that accident was not an
“extraordinary nuclear occurrence,” within the meaning of
the PAA, “there was no mechanism for consolidating the
claims in federal court.” Neztsosie, 526 U.S. at 477
(quotation omitted). Congress responded by providing for
public liability actions so parties can bring such claims. 42
U.S.C. § 2210(n)(2), (n)(3); Estate of Ware v. Hosp. of the
Univ. of Pa., 871 F.3d 273, 279 (3d Cir. 2017) (“These 1988
amendments … deliberately increased the scope of the
Act’s coverage.”); Acuna, 200 F.3d at 339 (“‘Nuclear
incident’ is not limited to a single, catastrophic accident:
indeed, one purpose behind the 1988 amendments was to
expand the scope of federal jurisdiction beyond actions
arising from ‘extraordinary nuclear occurrences’ only.”).
The PAA’s purpose is to “improve the manageability of
complex litigation, to ensure that liabilities arising from
large nuclear incidents don’t shutter the nuclear industry,
and to guarantee compensation for victims who otherwise
might be left trying to squeeze damages out of firms
The Three Mile Island incident spurred over 150 cases, from
over 3,000 claimants, throughout state and federal courts. See S. Rep.
No. 100-218, at 13 (1987).
11

30
bankrupted by enormous awards.” Cook, 790 F.3d at 1096
(citing Duke Power, 438 U.S. at 83); Neztsosie, 526 U.S. at
486 (“The Act provides clear indications of the
congressional aims of speed and efficiency.”). To avoid
duplicative claims by the multitude of plaintiffs nuclear
incidents can create, Congress created mechanisms to
consolidate cases and gave district courts power to
encourage the “equitable, prompt, and efficient
resolution” of claims. Neztsosie, 526 U.S. at 486-87 (citing
42 U.S.C. § 2210(n)(3)(C)).
None of these goals requires stripping district courts
of jurisdiction over traditional state law claims. In fact,
stripping district courts of jurisdiction contravenes these
goals. Instead, the amendments arm the district court with
an additional tool. In re TMI Litig., 940 F.2d at 858
(“Through the Amendments Act, Congress has placed an
overlay of federal law upon the rights and remedies
previously available under state law.”) (emphasis added).
The PAA preempts remedies that are inconsistent with
section 2210, see 42 U.S.C. § 2014(hh), but nothing in
section 2210 conflicts with or precludes injunctive relief
against licensees. The Court’s reasoning in Silkwood still
stands and, if anything, has been reinforced by the 1988
Amendments’ explicit reliance on state law for the
substantive rules of decision. See 42 U.S.C. § 2014(hh).
In 2015, the Tenth Circuit reaffirmed that the PAA
leaves room for state law claims, including nuisance claims
like Petitioner’s that do not rise to the level of a PAA
“nuclear incident.” Cook, 790 F.3d at 1095 (“Where does
any of [the PAA’s] language—expressly—preempt and
preclude all state law tort recoveries for plaintiffs who
plead but do not prove nuclear incidents? We just don’t see
it.”); id. at 1103 (“the [PAA] does not preempt and
preclude a freestanding state law nuisance claim when a

31
nuclear incident is alleged but unproven.”). And in
Virginia Uranium, Inc. v. Warren, this Court again
interpreted Silkwood to mean that “state tort law … fell
beyond any fair understanding of the NRC’s reach under
the AEA.” 139 S. Ct. 1894, 1905 (2019). This is true even
though in Silkwood “state tort law sought to regulate the
safety of a nuclear plant’s operations.” Id.
Under Silkwood and Cook, plaintiffs can successfully
assert claims against NRC licensees—PAA claims if they
can prove a “nuclear incident,” or state law claims, like
nuisance, if the occurrence does not rise to the level of a
“nuclear incident.” Either way, a private plaintiff can
assert some kind of claim against an NRC licensee.
According to the Ninth Circuit, the Hobbs Act bars
litigation of both species of claims in federal court. This
Court should grant certiorari to resolve this contradiction.
IV.

This Petition Raises Urgent Issues That Must
Be Addressed Now.

This is not a “wait and see” case that would benefit
from further percolation in the lower courts. This Court
will likely need to address the breadth of the Hobbs Act in
this and other contexts; and waiting until after a nuclear
release to address whether the Hobbs Act precludes a
PAA claim against NRC licensees will have profound
human and economic consequences.
Whether or not private parties can assert a PAA claim in
federal court is all the more pressing because Congress’
continued failure to develop any long-term plan for SNF
storage makes future PAA litigation increasingly likely. New
York, 681 F.3d at 474; In re Aiken County, 645 F.3d at 43031 (compiling cases regarding the long-term storage and
disposal of nuclear waste). Without a long-term solution,
stockpiles at these “temporary” sites continue to grow. 86

32
nuclear facilities across the United States are being
decommissioned now, and 34 states have at least one ISFSI
location.12 By 2050, the national SNF stockpile will reach
150,000 metric tons by conservative estimates. Blue Ribbon
Commission, supra, at 14. It is hard to overstate the dangers
posed by the sheer mass of SNF and its long-lasting effects.
New York, 681 F.3d at 474. But under the Ninth Circuit’s
view, those most likely to be affected by tortious activities
associated with the storage or transport of SNF have no
judicial forum, state or federal, to assert claims against
private parties potentially responsible for those activities.
The Ninth Circuit’s view also has implications beyond
nuclear power regulation. This Court has already seen the
growing body of case law interpreting the Hobbs Act to
reach well beyond its text and Congress’ intentions. See
PDR Network, 139 S. Ct. at 2057-67 (Kavanaugh, J.,
concurring); Gorss Motels, 931 F.3d at 1106-10. The Ninth
Circuit’s interpretation expands the breadth of the Hobbs
Act even further. Instead of simply precluding district
courts from reviewing an agency interpretation of a
federal statute—hereby undermining “the ‘province and
duty of the judicial department to say what the law is,’”
PDR Network, 139 S. Ct. at 2057 (Thomas, J., concurring)
(quoting Marbury, 5 U.S. 137)—the Ninth Circuit would
deprive federal courts from reviewing the conduct of any
private parties licensed by a federal agency.
The decision also improperly expands the putativelyexclusive jurisdiction of each of the Hobbs Act’s listed
Sites Undergoing Decommissioning, Nuclear Regulatory
Commission, https://www.nrc.gov/info-finder/decommissioning/index.
html (last visited May 27, 2021); U.S. Independent Spent Fuel Storage
Installations, Nuclear Regulatory Commission, https://www.nrc.gov/
waste/spent-fuel-storage/map-fuel-storage-facilities.pdf (last visited
May 27, 2021).
12

33
agencies, i.e., the Federal Communications Commission,
the Departments of Agriculture and Transportation, the
Federal Maritime Commission, the Surface Transportation
Board, and the Federal Railroad Administration. By the
Ninth Circuit’s logic, “decisions that [a]re ancillary or
incidental to” these agencies’ “final orders” effectively
deprive private litigants of state and federal causes of action
where those decisions are simply in the background of the
dispute. (App., infra, 49a). This has far-reaching
consequences for countless areas of administrative law.
This petition enables the Court to address the
overbreadth of the Hobbs Act and the time-sensitive issue
of nuclear regulation and public safety.
CONCLUSION
The petition should be granted.

Respectfully submitted,
CHARLES LA BELLA
ERIC J. BESTE
BARNES & THORNBURG LLP
655 W. Broadway, Ste. 1300
San Diego, CA 92101
L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 Century Park East
Los Angeles, CA 90067
May 2021

BRIAN E. CASEY
Counsel of Record
SARAH E. BROWN
BARNES & THORNBURG
LLP
201 S. Main St.
Suite 400
South Bend, IN 46601
(574) 233-1171
brian.casey@btlaw.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE NINTH
CIRCUIT, FILED DECEMBER 29, 2020
United States Court of Appeals
for the Ninth Circuit
No. 19-56531
PUBLIC WATCHDOGS, a California 501(c)(3)
corporation,
Plaintiff-Appellant,
v.
SOUTHERN CALIFORNIA EDISON COMPANY;
SAN DIEGO GAS & ELECTRIC COMPANY;
SEMPRA ENERGY; HOLTEC INTERNATIONAL;
U.S. NUCLEAR REGULATORY COMMISSION,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of California.
D.C. No. 3:19-cv-01635-JLS-MSB
Janis L. Sammartino, District Judge, Presiding.
June 3, 2020, Argued and Submitted,
Pasadena, California
December 29, 2020, Filed

2a
Appendix A
Before: Johnnie B. Rawlinson and N. Randy Smith,
Circuit Judges, and Edward R. Korman,* District
Judge. Opinion by Judge N. Randy Smith.
Opinion by Judge N. Randy Smith
SUMMARY**
Hobbs Act
The panel affirmed the district court’s dismissal of a
complaint for lack of subject-matter jurisdiction under the
Administrative Orders Review Act, frequently referred
to as the Hobbs Act.
Under the Hobbs Act, courts of appeals have exclusive
jurisdiction to enjoin, set aside, suspend (in whole or
in part), or to determine the validity of all final orders
of the United States Nuclear Regulatory Commission
made reviewable by section 2239 of title 42. Section 2239
also provides for Hobbs Act review of “[a]ny final order
entered in any proceeding,” 42 U.S.C. § 2239(b)(1), “for
the granting, suspending, revoking, or amending of any
license . . . and in any proceeding for the issuance or
modification of rules and regulations dealing with the
activities of licensees,” id. § 2239(a)(1)(A).
* The Honorable Edward R. Korman, United States District
Judge for the Eastern District of New York, sitting by designation.
** This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.

3a
Appendix A
Plaintiff-Appellant Public Watchdogs, a non-profit
corporation advocating for public safety, brought an action
against the NRC and others alleging claims related to
the decommissioning of two nuclear generating units
at San Onofre Nuclear Generating Station (SONGS). In
2015, after the units ceased operating, the NRC approved
changes to the Facility Operating Licenses by amending
the licensing agreements with Southern California Edison
Company and San Diego Gas & Electric Company. The
2015 License Amendments required the utility defendants
to take actions necessary to decommission the plants and
continue to maintain the facility, including the storage,
control and maintenance of the spent nuclear fuel, in a
safe condition. As part of the decommissioning plan, the
utility defendants elected to use private defendant Holtec
International’s HI-STORM UMAX Canister Storage
System (“Holtec System”), a canister-based spent nuclear
fuel storage system that had been approved for the
storage of spent nuclear fuel by the NRC in a Certificate
of Compliance. Public Watchdog sought to enjoin the
defendants’ allegedly negligent decommissioning activities
at SONGS and challenged, among other things, the NRC’s
selection of Holtec International as the supplier of the
spent nuclear fuel storage system and the NRC’s grant
of the 2015 License Amendments.
The panel held that the Hobbs Act must be interpreted
broadly to encompass not only all final NRC actions in
licensing proceedings, but also all decisions that are
preliminary, ancillary, or incidental to those licensing
proceedings. Because Public Watchdogs’s complaint
challenged final orders of the NRC related to licensing,

4a
Appendix A
the NRC’s enforcement decisions related to NRC licenses
and certifications, and conduct licensed or certified by the
NRC, Public Watchdogs’s action fell squarely within the
scope of the Hobbs Act.
Specifically, the panel held that the district court
correctly determined that Public Watchdogs’s claim
under the Administrative Procedure Act (“APA”) directly
challenged the grant of the 2015 License Amendments
and the Certificate of Compliance for the Holtec System.
The panel held that the 2015 License Amendments and
the Certificate of Compliance were final orders of the
NRC and related to the grant or amendment of a license
or the issuance or modification of rules and regulations
dealing with the activities of licensees. Accordingly,
under the Hobbs Act, the court of appeals had exclusive
jurisdiction to enjoin, set aside, suspend or to determine
the validity of those orders. The district court therefore
correctly found that it lacked subject-matter jurisdiction
over Public Watchdogs’s claim brought under the APA
against the NRC to the extent it challenged the 2015
License Amendments and the Certificate of Compliance
for the Holtec System.
The panel rejected Public Watchdog’s argument that
the district court had subject-matter jurisdiction over
its APA claim because other agency actions, including
a decision exempting Holtec from certain pre-approval
requirements for canister design changes, fell outside the
scope of the Hobbs Act. The panel held that even assuming
Public Watchdogs’s APA claim did not challenge the grant
of the 2015 License Amendments or the Certificate of

5a
Appendix A
Compliance for the Holtec System, Public Watchdogs’s
APA claim related to other agency actions still fell within
the scope of the Hobbs Act because it challenged the
NRC’s enforcement “decisions not to suspend” a license
or licensed operations and sought relief that should have
first been pursued before the NRC pursuant to 10 C.F.R.
§ 2.206.
The panel held that Public Watchdogs’s claims
against private defendants, Holtec International and
the utility defendants, fell within the scope of the Hobbs
Act. The panel held that despite Public Watchdogs’s
artful pleading, it was clear its claims against these
private defendants were an attempt to challenge the 2015
License Amendments, the Certificate of Compliance for
the Holtec System, and actions taken by the licensees
under the authority of both of those final NRC orders.
Public Watchdogs, therefore, could not avoid the Hobbs
Act’s exclusive avenue of judicial review by pleading
its challenge to the 2015 License Amendments and the
Certificate of Compliance for the Holtec System as a
public liability action under the Price-Anderson Act, or as
a public nuisance claim or a strict products liability claim
under California law.

6a
Appendix A
OPINION
N.R. SMITH, Circuit Judge:
Under the Administrative Orders Review Act—
frequently referred to as the Hobbs Act—courts of appeals
have “exclusive jurisdiction to enjoin, set aside, suspend
(in whole or in part), or to determine the validity of . . . all
final orders of the [United States Nuclear Regulatory
Commission (“NRC”)] made reviewable by section 2239
of title 42.” 28 U.S.C. § 2342(4). Section 2239 also provides
for Hobbs Act review of “[a]ny final order entered in any
proceeding,” 42 U.S.C. § 2239(b)(1), “for the granting,
suspending, revoking, or amending of any license . . . and
in any proceeding for the issuance or modification of rules
and regulations dealing with the activities of licensees,” id.
§ 2239(a)(1)(A). Because the scope of the Hobbs Act must
be read broadly, the Hobbs Act thus encompasses not only
all final NRC orders in licensing proceedings, but all NRC
decisions that are preliminary, ancillary, or incidental to
those licensing proceedings. See Fla. Power & Light Co.
v. Lorion, 470 U.S. 729, 737, 743, 105 S. Ct. 1598, 84 L. Ed.
2d 643 (1985); Gen. Atomics v. U.S. Nuclear Regulatory
Comm’n, 75 F.3d 536, 539 (9th Cir. 1996).
Plaintiff—Appellant Public Watchdogs, a non-profit
corporation advocating for public safety, appeals the
district court’s dismissal with prejudice of its first amended
complaint for a lack of subject-matter jurisdiction under
the Hobbs Act. Because Public Watchdogs’s complaint
challenges final orders of the NRC related to licensing,
NRC enforcement decisions related to NRC licenses and

7a
Appendix A
certifications, and conduct licensed or certified by the
NRC, Public Watchdogs’s action falls squarely within the
scope of the Hobbs Act. Therefore, we affirm the district
court’s dismissal of Public Watchdogs’s first amended
complaint with prejudice for a lack of subject-matter
jurisdiction under the Hobbs Act.
I.

BACKGROUND
A.	The NRC Regulates the Construction and
Operation of Nuclear Power Plants and Spent
Fuel Storage Facilities, and the Storage of
Spent Nuclear Fuel

The NRC is an independent regulatory commission
established by Congress in the Energy Reorganization
Act of 1974 (“ERA”). See 42 U.S.C. § 5841(a)(1). The ERA
transferred “all the licensing and related regulatory
functions of the Atomic Energy Commission” to the
NRC. Id. § 5841(f). Under the Atomic Energy Act of 1954
(“AEA”), the NRC is tasked with licensing and regulating
civilian storage and use of radioactive material to promote
the common defense and security and public health and
safety. See id. § 2201(b), (h), (i); see also id. §§ 2131-33.
“Consistent with its administrative mandate, the NRC
is empowered to promulgate rules and regulations
governing the construction and operation of nuclear power
plants.” Cnty. of Rockland v. U.S. Nuclear Regulatory
Comm’n, 709 F.2d 766, 769 (2d Cir. 1983); see also U.S.
Nuclear Regulatory Comm’n, NUREG-1350, vol. 31,
2019-2020 Information Digest 34 (2019) [hereinafter NRC
Information Digest] (“The NRC establishes requirements

8a
Appendix A
for the design, construction, operation, and security of
U.S. commercial nuclear power plants.”). Accordingly, the
NRC has promulgated extensive regulations governing
the agency’s issuance of licenses to construct and operate
nuclear power plants and fuel storage facilities and to
possess spent nuclear fuel. See 10 C.F.R. Parts 50, 52, 72.
If a person’s interests will be affected by an NRC
proceeding “for the granting, suspending, revoking, or
amending of any license or construction permit” or by
a “proceeding for the issuance or modification of rules
and regulations dealing with the activities of licensees,”
then that person may request a hearing before the NRC.
42 U.S.C. § 2239(a)(1)(A). However, the hearing request
must state “that one or more of the acceptance criteria in
the . . . license ha[s] not been, or will not be met, and the
specific operational consequences of nonconformance that
would be contrary to providing reasonable assurance of
adequate protection of the public health and safety.” See
id. § 2239(a)(1)(B)(ii). Regardless of whether a hearing is
requested or actually held, the NRC’s final order in these
proceedings is subject to initial judicial review in the
courts of appeals under the Hobbs Act. See id. § 2239(b)
(1); 28 U.S.C. § 2342(4); see also Lorion, 470 U.S. at 737
(“Congress intended to provide for initial court of appeals
review of all final orders in licensing proceedings whether
or not a hearing before the [NRC] occurred or could have
occurred.”).
Aside from the NRC’s licensing and rule-making
responsibilities, the agency is also responsible for:
(1) “conducting criminal, civil, and administrative

9a
Appendix A
investigations of alleged violations by NRC licensees”;
(2) “inspecting NRC licensees to ensure adequate
performance of safety and security programs”; and (3)
“enforcing NRC regulations and the conditions of NRC
licenses and imposing, when necessary, civil sanctions
and penalties.” NRC Information Digest at 5; see also 42
U.S.C. § 2282 (authorizing the NRC to issue civil penalties
for licensing or certification violations). Relatedly, the
NRC may issue orders modifying, suspending, or revoking
a license to remedy license violations or other “potentially
hazardous conditions.” See 10 C.F.R. § 2.202. The NRC
regulations also provide a mechanism through which
“[a]ny person” may file a request with the NRC to
“institute a proceeding pursuant to § 2.202 to modify,
suspend, or revoke a license, or for any other action as
may be proper.” 10 C.F.R. § 2.206(a).
The NRC also regulates the storage of spent nuclear
fuel (“SNF”), which is the radioactive byproduct that
results from the “burning” of nuclear fuel (i.e., uranium
fuel rods bundled into fuel assemblies) in nuclear reactors.
See U.S. Nuclear Regulatory Comm’n, NUREG/BR-0528,
Safety of Spent Fuel Storage at 1 (April 2017) [hereinafter
NRC Spent Fuel Storage]; see generally 10 C.F.R. Part
72. After SNF is removed from a nuclear reactor, it is
first stored in deep pools of continuously flowing water
that cool the spent fuel. NRC Information Digest at 7071; NRC Spent Fuel Storage at 1. Once the SNF has
cooled sufficiently, it is often transferred into dry casks.
Information Digest 71-72; NRC Spent Fuel Storage at 1-2.
Dry casks are “typically made of leak-tight, welded, and
bolted steel and concrete surrounded by another layer of

10a
Appendix A
steel or concrete.” NRC Information Digest at 68. There
are two basic designs of dry casks that are widely used
to store SNF: (1) a canister-based system that utilizes an
inner steel canister that contains the SNF that is then
surrounded by three feet or more of steel and concrete;
and (2) a “bolted cask system” that does not have an
inner canister but instead encases the SNF in “thick
steel shells, sometimes with several inches of radiation
shielding inside.” NRC Spent Fuel Storage at 2. The
dry casks are normally stored on site in facilities called
independent spent fuel storage installations (“ISFSI”).
NRC Information Digest at 68.
The NRC regulates the on-site storage of SNF in one
of two ways: (1) it grants a site-specific license based on a
safety review of the technical requirements and operating
conditions for the specific ISFSI; or (2) it issues a general
license that authorizes the licensee to store SNF in dry
storage casks certified by the NRC for the storage of SNF.
See id.; see also 10 C.F.R. § 72.210 (issuing a general license
for the storage of spent fuel in an ISFSI for individuals
“authorized to possess or operate nuclear power reactors
under” 10 C.F.R. Parts 50 or 52). The NRC regulations
impose several conditions on a general licensee, including
requiring the licensee to use only “casks approved under
the provisions of this part” and ensuring the cask used
by the licensee “conforms to the terms, conditions, and
specifications of a [Certificate of Compliance] or amended
[Certificate of Compliance] listed in § 72.214.” 10 C.F.R.
§ 72.212(a)(2), (b)(3). Once the NRC approves a dry cask
for the storage of SNF under the specific conditions noted
in the Certificate of Compliance, it adds the approved

11a
Appendix A
cask system to a list of approved storage systems. See
id. § 72.214 (listing approved casks for storage of SNF).
Prior to the NRC’s approval of a cask for storage of
SNF in a Certificate of Compliance, the agency subjects
the storage system to a rigorous review process, including
public scrutiny through notice-and-comment rule making.
See, e.g., id. § 72.232 (requiring the applicant for a
Certificate of Compliance to: (1) allow the NRC “to inspect
the premises and facilities where a spent fuel storage
cask is designed, fabricated, and tested”; (2) “make
available to the NRC for inspection . . . records kept by
them pertaining to the design, fabrication, and testing of
spent fuel storage casks”; and (3) “perform . . . tests that
the [NRC] deems necessary or appropriate”); id. § 72.236
(listing the specific requirements for spent fuel storage
casks). Ultimately, the NRC only certifies for use those
systems that meet certain requirements for safely storing
SNF. See id. § 72.238 (providing that a Certificate of
Compliance for a storage cask will be issued by the NRC
if the requirements in § 72.236(a though (i)) are satisfied).
Thus, under the terms of its operating license and the
relevant Certificate of Compliance, an NRC nuclear power
reactor licensee may store SNF on site in an ISFSI in a
dry storage cask certified by the NRC. See id. §§ 72.210,
72.212.

12a
Appendix A
B. 	The NRC’s Grant of a License Amendment
to the SONGS Licensees and Certification
of Holtec International’s HI-STORM UMAX
Canister Storage System for the Storage of
Spent Nuclear Fuel at SONGS
In August 1963, Congress enacted Public Law 88-82
that authorized the “construction, operation, maintenance,
and use” of a nuclear power plant on the Camp Pendleton
military base in Southern California. Act of July 30, 1963,
Pub. L. No. 88-83, 77 Stat. 115. Thereafter, three nuclear
electric generating units were constructed and operated
at San Onofre Nuclear Generating Station (“SONGS”)
pursuant to permits and licenses issued by the NRC.
The NRC issued three separate Facility Operating
Licenses—one for each unit—to Southern California
Edison Company (“Edison”) and San Diego Gas & Electric
Company (“SDG&E”), the co-licensees of SONGS.1 All
three licenses permitted the Utility Defendants to possess
and store spent fuel at SONGS.
The first nuclear generating unit operated from
1968 until 1992. The second and third units operated
from 1983 and 1984, respectively, until both units ceased
operation and began the decommission process in 2013.
In 2015, after the Utility Defendants ceased operation of
the second and third nuclear generating units, the NRC
approved changes to the Facility Operating Licenses for
Units 2 and 3 by amending the license agreements (“2015
1. Edison, SDG&E, and SDG&E’s parent company, Sempra
Energy (“Sempra”), are collectively referred to as the “Utility
Defendants.”

13a
Appendix A
License Amendments”). The 2015 License Amendments
require the Utility Defendants to “[t]ake actions necessary
to decommission the plant and continue to maintain the
facility, including . . . the storage, control and maintenance
of the spent fuel, in a safe condition.”
The NRC’s review of the 2015 License Amendments
was open to public comment and intervention. See
Biweekly Notice, Applications and Amendments to
Facility Operating Licenses and Combined Licenses
Involving No Significant Hazards Considerations, 79 Fed.
Reg. 55,507, 55,508, 55,513-14 (Sept. 16, 2014) (soliciting
comments on the NRC’s determination that the 2015
License Amendments involved “no significant hazards
consideration” and informing the public they could
request a hearing before the NRC). However, the NRC
received no comments. See Biweekly Notice; Applications
and Amendments to Facility Operating Licenses and
Combined Licenses Involving No Significant Hazards
Considerations, 80 Fed. Reg. 46,345, 46,354 (Aug. 4, 2015).
Although the SNF at SONGS had historically been
stored in wet-storage pools, the Utility Defendants’
decommissioning plan required the SNF to be buried in
dry casks in the SONGS ISFSI. The Utility Defendants
elected to use Holtec International’s (“Holtec”) HISTORM UMA X Canister Storage System (“Holtec
System”), a canister-based SNF storage system that had
been approved for the storage of SNF by the NRC in a
Certificate of Compliance. The Holtec System consists
of three components: “(1) interchangeable multi-purpose
canisters . . . , which contain the fuel; (2) underground

14a
Appendix A
Vertical Ventilated Modules . . . , which contain[] the
[canisters] during storage; and (3) a transfer cask . . . ,
which contains the [canisters] during loading, unloading
and transfer operations.”
Like the 2015 License Amendments, the public had the
opportunity to provide comments concerning the NRC’s
evaluation and approval of the Holtec System. See List of
Approved Spent Fuel Storage Casks: Holtec International
HI-STORM Underground Maximum Capacity Canister
Storage System, Certificate of Compliance No. 1040,
80 Fed. Reg. 12,073, 12,074-76 (Mar. 6, 2015) (codified
at 10 C.F.R. § 72.214) (responding to public comments
related to the addition of the Holtec System to the list
of approved spent fuel storage casks); see also List of
Approved Spent Fuel Storage Casks: Holtec International
HI-STORM UMAX Canister Storage System, Certificate
of Compliance No. 1040, Amendment No. 1, 80 Fed. Reg.
35,829, 35,829-30 (June 23, 2015) (codified at 10 C.F.R.
§ 72.214) (soliciting public comments related to the direct
final rule amending the certificate of compliance to include
the “seismically enhanced version of the HI-STORM
UMAX Canister Storage System”); List of Approved
Spent Fuel Storage Casts: Holtec International HISTORM UMAX Canister Storage System; Certificate
of Compliance No. 1040, Amendment No. 2, 81 Fed.
Reg. 73,335, 73,336 (Oct. 25, 2016) (codified at 10 C.F.R.
§ 72.214) (soliciting public comments related to the direct
final rule amending the Certificate of Compliance to
include new fuel types).

15a
Appendix A
The Preliminary Safety Evaluation Report, issued
in connection with the Certificate of Compliance for
the Holtec System, documented the NRC’s review and
evaluation of the Holtec System. Therein, the NRC
considered the Holtec System’s shielding and radiation
protection; its susceptibility to chemical, galvanic, or other
reactions; and its potential performance in the event of an
accident. Ultimately, the NRC concluded that the activities
authorized by the Holtec System Certificate of Compliance
could “be conducted without endangering the health and
safety of the public” and could “be conducted in compliance
with the applicable regulations of [10 C.F.R. Part 72].”
In response to public comments, the NRC reiterated
that “the design [of the Holtec System] is robust, and
contains numbers of layers of acceptable confinement
systems in compliance w ith [10 C.F.R . Pa r t 72]
requirements.” 80 Fed. Reg. at 12,074-75. The NRC also
emphasized that it “evaluated the susceptibility to and
effects of stress corrosion cracking and other corrosion
mechanisms on safety significant systems” and concluded
that the Holtec System “will safely store SNF and
prevent radiation releases and exposure consistent with
regulatory requirements.” Id. at 12,075.
C. 	The Decommissioning of SONGS
On August 29, 2019, Public Watchdogs brought suit
against Edison, SDG&E, Sempra, Holtec, and the NRC
(collectively, “Defendants”), seeking to enjoin Defendants’
allegedly negligent decommissioning activities at
SONGS. In its First Amended Complaint (“FAC”), Public

16a
Appendix A
Watchdogs challenges the NRC’s selection of Holtec as
the supplier of the SNF storage system and the NRC’s
grant of the 2015 License Amendments. For example,
Public Watchdogs alleges that: (1) the NRC’s selection
of Holtec as the supplier of the SNF storage system was
done recklessly or in conscious disregard for the safety and
competency issues that have surrounded Holtec for years;
and (2) the NRC’s grant of the 2015 License Amendments
was arbitrary, capricious, or otherwise unlawful.
Public Watchdogs’s allegations also challenge the
Holtec SNF canisters that were certified for the storage
of SNF by the NRC in a Certificate of Compliance. In fact,
Public Watchdogs alleges that: (1) the design of the Holtec
SNF canisters “deviates from the acceptable minimum
safety thresholds required for the design and manufacture
of nuclear waste storage containers”; and (2) Holtec made
changes to the design of the Holtec SNF canisters after
the NRC’s certification of the Holtec System without
the authorization of the NRC and those design changes
rendered several of the Holtec SNF canisters defective. 2
Despite the NRC learning of the allegedly defective Holtec
SNF canisters, Public Watchdogs argues the NRC “failed
to act” and permitted the Utility Defendants to continue
loading the Holtec SNF canisters.
Public Watchdogs’s FAC also complains of the Utility
Defendants’ allegedly negligent decommissioning conduct,
2. Public Watchdogs complains that the NRC declined to
impose a civil fine on Holtec for its failure to seek pre-authorization
of the design change that allegedly rendered several Holtec SNF
canisters defective.

17a
Appendix A
including allegations that: (1) the Utility Defendants
negligently “gouged” a number of Holtec SNF canisters
as they buried them in the SONGS ISFSI; and (2) many
Holtec SNF canisters were negligently scratched during
transportation to the SONGS ISFSI. Public Watchdogs’s
allegations related to decommissioning conduct also
highlight two instances (one in July 2018 and one in August
2018) where the Utility Defendants mishandled loaded
Holtec SNF canisters as they were transferred into the
SONGS ISFSI and subsequently failed to report those
incidents to the NRC.
In response to the August incident where the Utility
Defendants mishandled a loaded Holtec SNF canister,
the NRC issued an Inspection Charter for SONGS. The
scope of the special inspection sought to evaluate, inter
alia, the adequacy of the Utility Defendants’ loading
procedures, corrective actions, and reporting procedures.
In the Inspection Charter, the NRC noted that the Utility
Defendants voluntarily committed to not resuming their
SNF transfer operations until the NRC’s inspection and
review was complete. Public Watchdogs argues, however,
that the NRC should have ordered the Utility Defendants
to cease SNF transfer operations.
Public Watchdogs also points to a number of NRC
issued Inspection Reports that identified various
violations related to the Utility Defendants’ and Holtec’s
decommissioning conduct at SONGS. For example, in
March 2019, the NRC issued a Notice of Violation and
NRC Special Inspection Report to Edison for two safety
violations that occurred at SONGS on August 3, 2018, the

18a
Appendix A
date of the second incident where the Utility Defendants
mishandled a loaded Holtec SNF canister as it was loaded
into the ISFSI. The two violations allegedly related to the
Utility Defendants “failure to make certain that safety
equipment was operating” and their “failure to report the
safety incident to the NRC.” Ultimately, the NRC imposed
on Edison a $116,000 fine.
Finally, on July 15, 2019, the Utility Defendants
informed the public that they were resuming the
movement of SNF from wet storage to the Holtec SNF
canisters and were resuming the burial of the canisters
in the SONGS ISFSI.
D. 	Procedural History
Based on the above allegations, Public Watchdogs
asserted: (1) the NRC violated the Administrative
Procedure Act, 5 U.S.C. §§ 702 et seq.; (2) Edison, SDG&E,
Sempra, and Holtec (collectively, “the Private Defendants”)
violated the Price—Anderson Act, 42 U.S.C. § 2210(n)(2);
(3) the Private Defendants violated California’s public
nuisance laws, Cal. Civ. Code §§ 3479-80; and (4) Holtec
was liable under a strict products liability theory. Public
Watchdogs also filed a motion for preliminary injunction
and a temporary restraining order that sought to restrain
Defendants from transferring additional SNF into the
Holtec SNF canisters and, in turn, the SONGS ISFSI.
Defendants opposed Public Watchdogs’s request for
a temporary restraining order and moved to dismiss
the FAC for a lack of subject-matter jurisdiction and for

19a
Appendix A
failure to state a claim pursuant to Federal Rules of Civil
Procedure 12(b)(1) and 12(b)(6).
A fter commencing proceedings in the district
court, Public Watchdogs also filed a petition with
the NRC pursuant to 10 C.F.R. § 2.206, requesting
the NRC suspend all decommissioning operations at
SONGS and require Edison and SDG&E to submit an
amended decommissioning plan that accounted for the
long term storage of SNF at SONGS. In addition to
arguing the requested relief was appropriate, because
the NRC permitted Edison and SDG&E “to implement
their decommissioning plan based on the unreasonable
assumption that spent nuclear fuel will be stored at
SONGS only temporarily,” Public Watchdogs also argued
it was entitled to the requested relief, because Edison and
SDG&E’s burial of SNF at SONGS posed “an imminent
threat to public safety.”
Public Watchdogs’s allegations supporting its petition
with the NRC pursuant to 10 C.F.R. § 2.206 closely
mirror those allegations in the FAC. For example, Public
Watchdogs alleges in the § 2.206 petition that the “Holtec
dry storage canisters . . . are defective and unfit for the
indefinite storage of [SNF]” and that Holtec “secretly
modified the design and manufacture of the canisters”
so that they are no longer “design[ed], manufacture[d],
[or] supplie[d]” in conformity with the Certificate of
Compliance approving their use. Public Watchdogs’s
petition also complains that, due in part to the defective
design of the Holtec System, “extensive gouging [of
the canisters] occur[ed] during routine loading into the

20a
Appendix A
storage system” and there is no way to monitor, inspect,
or fix the canisters once they are in the ground. As with
the FAC, Public Watchdogs alleges in the petition that
Edison and SDG&E “negligently gouged and then buried
. . . fully loaded [Holtec] canisters at SONGS” and “many
(if not all) of the canisters were negligently scratched
during transportation to the ISFSI.” Also similar to the
FAC, Public Watchdogs’s petition complains of Edison
and SDG&E’s failure to disclose the two mishandling
incidents discussed above and the NRC’s inadequate
response thereto.
While Defendants’ motions to dismiss in the instant
suit and the § 2.206 petition before the NRC were still
pending, Public Watchdogs filed an emergency petition for
writ of mandamus with the Ninth Circuit Court of Appeals
that sought to immediately suspend decommissioning
operations at SONGS until the NRC resolved Public
Watchdogs’s pending § 2.206 petition. We denied the writ
of mandamus, reasoning that “the petition requesting
suspension ha[d] only been before the NRC for a short
period of time, and the NRC ha[d] represented to the
Court in its response that it [was] processing the petition
and ha[d] not engaged in delay.” In re Public Watchdogs,
No. 19-72670, Dkt. No. 19, at 4.
On December 3, 2019, the district court granted
Defendants’ motions to dismiss, denied Public Watchdogs’s
motion for preliminary injunction, and dismissed Public
Watchdogs’s FAC with prejudice. The district court held
Public Watchdogs had standing to pursue injunctive relief
against the Private Defendants, reasoning the allegations

21a
Appendix A
in the FAC were sufficient to allege Article III standing
and satisfy the injury-in-fact requirement, because the
allegations tended to show “there is a ‘credible threat’ that
a probabilistic harm will materialize.” 3 Pub. Watchdogs
v. S. Cal. Edison Co., No. 19-CV-1635 JLS (MSB), 2019
U.S. Dist. LEXIS 208372, 2019 WL 6497886, at *7 (S.D.
Cal. Dec. 3, 2019) (unpublished) (quoting Nat. Res. Def.
Council v. U.S. Envtl. Prot. Agency, 735 F.3d 873, 878
(9th Cir. 2013)).
The district court next concluded that all of Public
Watchdogs’s claims challenged NRC decisions that fell
within the scope of the Hobbs Act, thereby depriving it of
subject-matter jurisdiction over the action. See 2019 U.S.
Dist. LEXIS 208372, [WL] at *8-12. With respect to Public
Watchdogs’s claim against the NRC, the district court
found it lacked subject-matter jurisdiction: (1) because the
claim challenged the grant or amendment of 2015 License
Amendments and the Certificate of Compliance for the
Holtec System (both final orders of the NRC relating to
the grant or amendment of a license for the purpose of the
Hobbs Act); and (2) because the claim’s challenge to “the
Other Agency Actions” touched upon “issues preliminary
or ancillary to” the 2015 License Amendments and the
Certificate of Compliance for the Holtec System. 2019
U.S. Dist. LEXIS 208372, [WL] at *9-10.
3. The district court also concluded that Public Watchdogs did
not have standing to contest the NRC’s grant of two exemptions
related to the use of decommissioning trust funds and certain
insurance requirements. Public Watchdogs does not challenge these
conclusions on appeal.

22a
Appendix A
Similarly, with respect to Public Watchdogs’s various
claims against the Private Defendants, the district court
determined it lacked subject-matter jurisdiction, because
all of Public Watchdogs’s claims “trace[d] back to actions
that were taken pursuant to or that were incidental to the
NRC’s issuance of the . . . 2015 License Amendment or
the [C]ertificate of [C]ompliance for the Holtec canisters,
actions that must be challenged before the Ninth Circuit
pursuant to the Hobbs Act.” 2019 U.S. Dist. LEXIS
208372, [WL] at *11.
After concluding it lacked subject-matter jurisdiction
over the action, the district court proceeded to grant the
Private Defendants’ motions to dismiss for failure to state
a claim, finding all of Public Watchdogs’s claims against
the Private Defendants were preempted or failed to allege
facts sufficient to state a claim for relief. See 2019 U.S.
Dist. LEXIS 208372, [WL] at *13-18. Finally, the district
court denied Public Watchdogs’s motion for a preliminary
injunction, because it was unlikely to succeed on the merits
considering the district court lacked subject-matter
jurisdiction over the action, and Public Watchdogs failed
to state a plausible claim for relief. See 2019 U.S. Dist.
LEXIS 208372, [WL] at *19. Public Watchdogs appealed
the district court’s decision to us.
After Public Watchdogs appealed the district court’s
order dismissing the instant action, the NRC denied
Public Watchdogs’s § 2.206 petition, and Public Watchdogs
filed a Petition for Judicial Review directly with us

23a
Appendix A
challenging the NRC’s denial of its § 2.206 petition.4 See
Pub. Watchdogs v. Nuclear Regulatory Comm’n, No. 2070899 (9th Cir. Mar. 30, 2020). 5
II. 	STANDARD OF REVIEW
“We review de novo the district court’s determination
that it lacked subject matter jurisdiction because of the
Hobbs Act.” Carpenter v. Dep’t of Transp., 13 F.3d 313,
314 (9th Cir. 1994).
III.	DISCUSSION
We must first determine whether the district court
correctly held that it lacked subject-matter jurisdiction
over Public Watchdogs’s suit against Defendants. To
answer this question, we must determine the appropriate
scope of the Hobbs Act and then consider whether Public
Watchdogs’s claims challenged decisions that fall within
the scope of the Hobbs Act.

4. While Public Watchdogs’s initial § 2.206 petition was
pending, Public Watchdogs filed another § 2.206 petition that sought
to “immediately suspend decommissioning operations at [SONGS]
Units 2 and 3 on the grounds that the present ISFSI is operating in
an unanalyzed condition,” i.e., a potential flooding threat.
5. This petition is pending review.

24a
Appendix A
A. 	The Scope of the Hobbs Act Encompasses All
Final Orders of the NRC Related to Licensing
and All Decisions of the NRC Preliminary,
Ancillary, or Incidental Thereto
“[T]he Administrative Orders Review Act, 28 U.S.C.
§ 2342, commonly referred to as the Hobbs Act,” Gen.
Atomics, 75 F.3d at 538, provides courts of appeals with
“exclusive jurisdiction to enjoin, set aside, suspend (in
whole or in part), or to determine the validity of . . . all
final orders of the [NRC] made reviewable by section
2239 of title 42,” 28 U.S.C. § 2342(4).6 Section 2239, in
turn, provides for Hobbs Act review of “[a]ny final order
entered in any proceeding,” 42 U.S.C. § 2239(b)(1), “for
the granting, suspending, revoking, or amending of any
license . . . , and in any proceeding for the issuance or
modification of rules and regulations dealing with the
activities of licensees,” id. § 2239(a)(1)(A).
The district court held that the Hobbs Act must be
read broadly to encompass issues preliminary or ancillary
to licensing proceedings. Public Watchdogs, however,
argues that the Hobbs Act should be construed narrowly
to exclude from district court review only actions where
the NRC is called upon to grant, suspend, revoke, or
6. The language of the statute “actually refers to final orders of
the Atomic Energy Commission . . . , which has been abolished and
whose functions have been transferred in large part to the NRC.”
Gen. Atomics, 75 F.3d at 538 n.2. However, “final orders entered
by the NRC in the performance of functions transferred from the
[Atomic Energy Commission] are reviewable as if they had been
made by the [Atomic Energy Commission].” Id.

25a
Appendix A
amend a license. We disagree; the Hobbs Act must not be
construed so narrowly.
In Lorion, the Supreme Court addressed whether the
NRC’s denial of a § 2.206 petition “should be considered
a final order initially reviewable exclusively in the court
of appeals” under the Hobbs Act. 470 U.S. at 734-35.
After determining that the language of § 2239 was
ambiguous, id. at 736, the Court examined certain “indicia
of congressional intent” and concluded that “Congress
intended to provide for initial court of appeals review of
all final orders in licensing proceedings,” regardless of
whether a formal hearing occurred, id. at 737. Looking to
the relevant legislative history, the Court found that the
evolution of the judicial review provision, which evolved
independently of the hearing provision, supported its
conclusion that Congress intended “to provide for initial
court of appeals review of all final orders in licensing
proceedings,” including “Commission decisions not to
suspend, revoke, or amend” a license. Id. at 738-39 (first
emphasis added). The Court explained that, “[w]hen
Congress decided on the scope of judicial review, it did so
solely by reference to the subject matter of the Commission
action and not by reference to the procedural particulars
of the Commission action.” Id. at 739. Thus, after also
crediting the “basic congressional choice of Hobbs Act
review” in § 2239, id. at 740, the Supreme Court held
that § 2239 vests in the federal courts of appeals initial
subject-matter jurisdiction over NRC orders denying
§ 2.206 petitions, id. at 746.

26a
Appendix A
The Court bolstered its conclusion by examining the
irrational consequences that would flow from the adoption
of the contrary rule announced by the lower court—i.e.,
that § 2239 vested the courts of appeals with initial subjectmatter jurisdiction only over proceedings where a hearing
took place or over proceedings where a hearing could have
taken place. Id. at 741. If initial review in the courts of
appeals depended on whether a hearing actually occurred
before the agency, then some licensing proceedings would
be reviewed in the courts of appeals while others would not
based solely on “the ‘fortuitous circumstance’ of whether
an interested person requested a hearing.” Id. at 741-42
(quoting Crown Simpson Pulp Co. v. Costle, 445 U.S.
193, 196-97, 100 S. Ct. 1093, 63 L. Ed. 2d 312 (1980) (per
curiam)). “Absent a far clearer expression of congressional
intent,” however, the Court was unwilling to sanction
“such a seemingly irrational bifurcated system.” Id. at
742 (quoting Crown Simpson Pulp Co., 445 U.S. at 197).
The Court further explained that, “[i]f initial review in
the court of appeals hinged on whether a hearing could
have taken place had an interested person requested one,”
this could “cause bifurcation of review of orders issued in
the same proceeding.” Id. at 742-43. Again, absent specific
evidence of a contrary congressional intent, the Court
“held that review of orders resolving issues preliminary
or ancillary to the core issue in a proceeding should be
reviewed in the same forum as the final order resolving
the core issue.” Id. at 743 (emphasis added). Ultimately,
recognizing there was no “firm indication that Congress
intended to locate initial [Administrative Procedure Act
(“APA”)] review of agency action in the district courts,”
the Court refused to “presume that Congress intended to

27a
Appendix A
depart from the sound policy of placing initial APA review
in the courts of appeals.” Id at 745.
Relying on Lorion, we held in General Atomics that
“the Hobbs Act is to be read broadly to encompass all
final [NRC] decisions that are preliminary or incidental
to licensing.” 75 F.3d at 539 (emphasis added). We further
explained that § 2239 should be “read liberally.” Id.
Thus, reading the Hobbs Act broadly and interpreting
§ 2239 liberally, we concluded that a district court action
challenging an NRC order that a parent company must
“assure the cleanup costs” of its subsidiary (the actual
NRC licensee) fell within the auspices of the Hobbs Act.
Id. at 537, 539. We explained that the goal of the NRC
hearing (which had been initiated but not yet completed
at the time the appellant filed the district court action)
was to determine whether the parent company was, in
fact, a licensee. Id. at 539. Such a hearing, we determined,
fell squarely within the Hobbs Act, because it “directly
involve[d] the granting and possible amending of the
license.” Id.7
7. Public Watchdogs points to no caselaw of our circuit or of the
Supreme Court that calls into question General Atomic’s conclusion—
which is anchored by the Supreme Court’s Lorion decision—that the
Hobbs Act must be construed broadly to encompass decisions that
are preliminary or incidental to licensing. Our circuit precedent
remains binding until the Supreme Court “undercut[s] the theory or
reasoning underlying the prior circuit precedent in such a way that
the cases are clearly irreconcilable.” Miller v. Gammie, 335 F.3d 889,
900 (9th Cir. 2003) (en banc). Public Watchdogs principally relies on
Justice Kavanaugh’s concurring opinion in PDR Network, LLC v.
Carlton & Harris Chiropractic, Inc., 139 S. Ct. 2051, 2057-67, 204
L. Ed. 2d 433 (2019), to argue that the district court’s “sweeping

28a
Appendix A
Thus, in view of Lorion and General Atomics, it is
clear we must read the Hobbs Act broadly to encompass
not only all final NRC actions in licensing proceedings,
but also all decisions that are preliminary, ancillary, or
incidental to those licensing proceedings. See Lorion, 470
U.S. at 737, 743; Gen. Atomics, 75 F.3d at 539. 8
interpretation of the Hobbs Act” is incorrect. However, aside from the
fact that concurring opinions have no binding precedential value, see
Maryland v. Wilson, 519 U.S. 408, 412-13, 117 S. Ct. 882, 137 L. Ed.
2d 41 (1997), nothing in Justice Kavanaugh’s concurrence undercuts
the reasoning of General Atomics such that the cases are “clearly
irreconcilable,” Miller, 335 F.3d at 900. In fact, Justice Kavanaugh’s
concurrence addressed a question wholly irrelevant to the case at
hand—whether the Hobbs Act required a district court to accept
the Federal Communication Commission’s legal interpretation of
the Telephone Consumer Protection Act in a subsequent private
enforcement action. See PDR Network, LLC, 139 S. Ct. at 2058
(Kavanaugh, J., concurring).

8. Our sister circuits have reached similar conclusions. See,
e.g., Citizens Awareness Network, Inc. v. United States, 391 F.3d
338, 346-47 (1st Cir. 2004) (recognizing that Lorion requires courts
to interpret the Hobbs Act “broadly” to “maximize the availability
of initial circuit court review of licensing proceedings” and holding
that “original jurisdiction in the courts of appeals is proper to review
any NRC action that could be cognizable in a petition for review
from a proceeding under [§] 2239”); N.J., Dep’t of Envtl. Prot. &
Energy v. Long Island Power Auth., 30 F.3d 403, 410 (3d Cir. 1994)
(recognizing the Hobbs Act is to be “liberally construed to allow
exclusive jurisdiction in the court of appeals” (quoting Conoco, Inc.
v. Skinner, 970 F.2d 1206, 1214 (3d Cir. 1992))); Commonwealth
Edison Co. v. U.S. Nuclear Regulatory Comm’n, 830 F.2d 610, 612
(7th Cir. 1987) (recognizing that “issues preliminary or ancillary to
the core issue” in a licensing proceeding should be reviewed in the
same forum as the final order resolving the core licensing issue).

29a
Appendix A
B. 	Public Watchdogs’s Claim Challenged Decisions
that Fall Within the Scope of the Hobbs Act
Having determined the appropriate scope of the
Hobbs Act, we must now determine whether Public
Watchdogs’s causes of action against the NRC and the
Private Defendants challenge final NRC actions in
licensing proceedings or challenge decisions preliminary,
ancillary, or incidental thereto.
i. 	Public Watchdogs’s Claim Against the
NRC Challenges NRC Licensing Decisions
or Decisions Ancillary or Incidental to
Licensing Decisions
Public Watchdogs asserted a single cause of action
against the NRC for the violation of the APA, 5 U.S.C.
§ 702 et seq. The district court held it lacked subject-matter
jurisdiction over this claim, because the claim directly
challenged the grant of the 2015 License Amendments and
the Certificate of Compliance for the Holtec System and
the complained-of “Other Agency Actions” 9 raised issues
preliminary or ancillary to those orders. Public Watchdogs
first argues the district court “misconstrued” its APA
claim as a challenge to the 2015 License Amendments,
because “any fair reading” of the FAC reveals that the
APA claim challenged the NRC’s failure to halt Holtec
9. In the FAC, Public Watchdogs alleged that a category of
other “final action[s]” of the NRC violated the APA and vaguely
defined these “Other Agency Actions” to include “accepting
amendments to certificates of compliance and granting exemptions
from other statutory and regulatory requirements.”

30a
Appendix A
and the Utility Defendants allegedly dangerous transfer
of SNF. We disagree.
On its face, Public Watchdogs’s FAC challenges the
grant of the 2015 License Amendments and the Certificate
of Compliance for the Holtec System—both final orders
of the NRC for the purposes of the Hobbs Act. See 10
C.F.R. § 72.210 (granting “[a] general license . . . for the
storage of spent fuel in an independent spent fuel storage
installation at power reactor sites to persons authorized
to possess or operate nuclear power reactors”); id.
§ 72.212(a)(2) (limiting the general license in § 72.210 “to
storage of spent fuel in [approved] casks”); id. § 72.214
(listing casks “approved for storage of spent fuel,”
including the Holtec System at issue in this case). For
example, Public Watchdogs alleges in its FAC that “[t]he
NRC’s grant of the [Utility] Defendants’ application for a
License Amendment [in July 2015] was in violation of the
[APA].” Public Watchdogs further alleges that the NRC
issued the 2015 License Amendments without complying
with the adjudicative rule-making requirements of 5
U.S.C. §§ 554, 556, 557, and the NRC’s grant of the 2015
License Amendments was arbitrary, capricious, and an
abuse of discretion. Ultimately, Public Watchdogs seeks
to enjoin “the NRC from allowing the [Utility] Defendants
to proceed with the decommissioning as provided for in
the License Amendment.” Public Watchdogs’s FAC also
challenges the Certificate of Compliance for the Holtec
System, alleging that, inter alia, the Holtec SNF canisters
“deviate[ ] from the acceptable minimum safety thresholds
required for the design and manufacture of waste storage
containers,” and the NRC has accepted amendments

31a
Appendix A
to the Certificate of Compliance for the Holtec System
without satisfying the above-referenced adjudicative rulemaking requirements. Thus, the district court correctly
determined that Public Watchdogs’s APA claim directly
challenged the grant of the 2015 License Amendments
and the Certificate of Compliance for the Holtec System.
Accordingly, because the 2015 License Amendments
and the Certificate of Compliance for the Holtec System
are final orders of the NRC and relate to the grant or
amendment of a license or the “issuance or modification
of rules and regulations dealing with the activities of
licensees,” 42 U.S.C. § 2239(a)(1)(A), “[t]he court of
appeals . . . ha[d] exclusive jurisdiction to enjoin, set
aside, suspend . . . , or to determine the validity of” those
orders, 28 U.S.C. § 2342(4). Therefore, the district court
correctly found that it lacked subject-matter jurisdiction
over Public Watchdogs’s APA claim against the NRC to
the extent it challenged the 2015 License Amendments
and the Certificate of Compliance for the Holtec System.
See Gen. Atomics, 75 F.3d at 539; see also N.J., Dep’t of
Envtl. Prot. & Energy, 30 F.3d at 410, 412-13 (affirming
the district court’s dismissal of a plaintiff’s National
Environmental Policy Act claim against the NRC for
lack of subject-matter jurisdiction under the Hobbs Act
where the claim challenged a license amendment and
a Certificate of Compliance for radioactive material
canisters and therefore could not “be maintained in the
district court”).
Next, Public Watchdogs argues that the district
court had subject-matter jurisdiction over its APA claim,

32a
Appendix A
because the following five “Other Agency Actions” fall
outside of the scope of the Hobbs Act: (1) the NRC’s
exemption of Holtec from the requirement it receive
pre-approval of its design change to the Holtec SNF
canisters; (2) the NRC’s decision to relieve Holtec from
the responsibility of complying with the Certificate of
Compliance for the Holtec SNF canisters; (3) the NRC’s
exemption of the Utility Defendants from the requirement
they file an event report after the mishandling incident
in July 2018; (4) the NRC’s decision permitting Holtec to
continue moving SNF from wet to dry storage in 2019; and
(5) the NRC’s decision permitting the Utility Defendants
to resume transferring SNF from wet to dry storage,
despite the two safety violations that occurred in 2018.
Public Watchdogs implies that three of the five
complained-of NRC actions fall outside the scope of the
Hobbs Act, because the actions relate to the issuance
of an “exemption”—a type of NRC action that the
Second Circuit in Brodsky v. U.S. Nuclear Regulatory
Commission, 578 F.3d 175, 182 (2d Cir. 2009) held escapes
the reach of the Hobbs Act. We need not decide whether
Brodsky was correctly decided, however, because none
of the identified actions involve the actual grant of an
exemption by the NRC.
An “exemption” is a formal NRC action that relieves
an NRC licensee of the duty to comply with a certain
regulatory requirement. See id. at 177-78 (explaining
“NRC regulations also permit the agency to grant
‘exemptions from the requirements of regulations,’
as long as” certain requirements are met (quoting 10

33a
Appendix A
C.F.R. § 50.12(a)). Exemptions are granted by the NRC
pursuant to specific regulations if certain requirements
contained therein are met. For example, the regulations
addressing licensing requirements for the independent
storage of spent nuclear fuel allow the NRC to “grant such
exemptions from the requirements of the regulations” if
it determines the exemption is “authorized by law and
will not endanger life or property or the common defense
and security and are otherwise in the public interest.” 10
C.F.R. § 72.7; see also id. § 50.12 (authorizing the NRC to
grant exemptions to regulations related to the licensing
of production and utilization facilities).
Here, none of the NRC actions identified by Public
Watchdogs involve the grant of an “exemption” under an
NRC regulation. For instance, although Public Watchdogs
argues the NRC “exempted” Holtec from the requirement
that it obtain pre-approval from the NRC for its purported
design change to the Holtec SNF canisters, the identified
allegations do not detail the NRC’s grant of an exemption
to Holtec. Instead, the allegations complain of the NRC’s
reluctance “to censure the [Utility] Defendants for their
repeated disregard of NRC regulations” and the NRC’s
decision not to impose a fine for the alleged violation.
Similarly, despite arguing that the NRC exempted
Holtec from complying with the Certificate of Compliance
for the Holtec System, Public Watchdogs fails to identify
any “exemption” granted by the NRC that excused Holtec
from complying with the Certificate of Compliance.
Public Watchdogs’s complaint at best contains a generic
and conclusory allegation that the NRC has periodically

34a
Appendix A
“accept[ed] amendments to certificates of compliance and
grant[ed] exemptions from other statutory and regulatory
requirements.” Even this allegation does not take issue
with an alleged exemption related to a Certificate of
Compliance, but instead challenges the NRC’s alleged
grant of exemptions from “other statutory and regulatory
requirements.” In response, Public Watchdogs points to
allegations that, after learning the Holtec SNF canisters
had been scratched, gouged, or dented, the NRC failed to
“independently evaluate[ ] the increased risks posed by
this damage to the canisters.” But, again, these allegations
do not describe the NRC’s grant of an exemption.
Public Watchdogs finally implies that the NRC
“exempted” the Utility Defendants from the requirement
that they file an “Event Notification Report” after the
Utility Defendants mishandled a fully-loaded Holtec SNF
canister in July of 2018. Again, however, these allegations
do not describe the NRC’s grant of an exemption relieving
the Utility Defendants of the requirement to file an
“Event Notification Report.” Instead, Public Watchdogs
appears to object either to the NRC’s decision not to
take enforcement action against the Utility Defendants
for their failure to file the appropriate reports after the
mishandling incidents in July and August of 2018 or the
sufficiency of the penalty imposed for such violations.10
10. The final two NRC “actions” Public Watchdogs contends
fall outside the scope of the Hobbs Act also do not involve the grant
of an exemption. Rather, these “actions” relate to the NRC’s alleged
decisions to permit Holtec and the Utility Defendants to continue the
movement of SNF from wet to dry storage, despite safety violations
or potential safety violations at SONGS.

35a
Appendix A
In sum, none of the complained-of “Other Agency
Actions” involve the issuance of an exemption by the
NRC, but instead focus on either the NRC’s decisions
not to take enforcement action against Holtec and the
Utility Defendants or the sufficiency of the NRC’s selected
enforcement action. Thus, Brodsky is not implicated here.
Public Watchdogs also argues the five “Other Agency
Actions” fall outside of the scope of the Hobbs Act,
because they are not actions for the “granting, suspending,
revoking, or amending of any license” and were taken
after the grant of the 2015 License Amendments and
after the issuance of the Certificate of Compliance for
the Holtec System. This argument is not persuasive,
because the Hobbs Act not only encompasses all final
NRC actions in licensing proceedings but also all issues
that are preliminary, ancillary, or incidental to those
licensing proceedings. See Lorion, 470 U.S. at 737, 743;
Gen. Atomics, 75 F.3d at 539. As discussed above, Public
Watchdogs’s APA claim is properly viewed as a challenge
to the grant of the 2015 License Amendments and the
Certificate of Compliance for the Holtec System over
which the court of appeals had exclusive jurisdiction.
Those final orders permitted the Utility Defendants to
remove SNF from wet storage at SONGS and transfer it
into the Holtec System as part of the decommissioning
process. Public Watchdogs’s challenge to the “Other
Agency Actions” addresses the propriety of the NRC’s
subsequent decisions that permitted Holtec and the Utility
Defendants to continue the transfer of SNF to the Holtec
System at SONGS under the authority of the 2015 License
Amendments and the Certificate of Compliance for the

36a
Appendix A
Holtec System. Thus, because the “Other Agency Actions”
raise issues related to NRC actions that permitted Holtec
and the Utility Defendants to continue transferring SNF
to the Holtec System under the authority of the 2015
License Amendments and Certificate of Compliance,
we agree with the district court that Public Watchdogs’s
challenge to the “Other Agency Actions” presents issues
incidental or ancillary to its challenge to the grant of 2015
License Amendments and the Certificate of Compliance
for the Holtec System. Cf. Commonwealth Edison Co.,
830 F.2d at 612-13 (finding, in an action where the “core
issue” presented was “whether to grant operating licenses
in a section 2239(a) proceeding,” the court of appeal had
jurisdiction over “[t]he ‘ancillary or preliminary’ issue [of]
whether to uphold the NRC’s bill for review costs incurred
during the section 2239(a) proceeding considering [the
licensee’s] license application”).
ii. 	Even if Public Watchdogs’s APA Claim
Did Not Challenge the 2015 License
A mend ments or the Cer ti f ic at e of
Compliance for the Holtec System, the
Claim Still Falls Within the Scope of the
Hobbs Act, Because It Seeks Relief that
Should Have First Been (and Later Was)
Pursued Before the NRC in a § 2.206
Petition
Further, even assuming Public Watchdogs’s APA
claim did not challenge the grant of the 2015 License
Amendments or the Certificate of Compliance for the
Holtec System, Public Watchdogs’s APA claim related to

37a
Appendix A
the “Other Agency Actions” still falls within the scope of
the Hobbs Act, because it challenges NRC enforcement
“decisions not to suspend” a license or licensed operations
and seeks relief that should have first been pursued before
the NRC in a § 2.206 petition. See Lorion, 470 U.S. at 738.
In Lorion, the Supreme Court held that § 2239 “vests
in the courts of appeals initial subject-matter jurisdiction
over [NRC] orders denying § 2.206 citizen petitions.”
Id. at 746. A citizen petition under § 2.206 “is but the
first step in a process that will, if not terminated for any
reason, culminate in a full formal proceeding under 42
U.S.C. § 2239(a)(1).” Id. at 745 n.11. This mechanism allows
“[a]ny person” to file a request with the NRC to “institute
a proceeding pursuant to [10 C.F.R.] § 2.202 to modify,
suspend, or revoke a license, or for any other action as
may be proper.” 10 C.F.R. § 2.206(a). Therein, a petitioner
can allege “a license violation or ‘potentially hazardous
conditions or other facts deemed to be sufficient ground for
the proposed action.’” N.J., Dep’t of Envtl. Prot. & Energy,
30 F.3d at 413 (quoting 10 C.F.R. § 2.202(a)(1)). The Lorion
Court—recognizing that Congress defined the scope of
review for § 2239 “solely by reference to the subject matter
of the [NRC] action and not by reference to the procedural
particulars of the [NRC] action”—determined that the
courts of appeals had initial subject-matter jurisdiction
over the denial of a § 2.206 petition, because Congress
intended “to provide for initial court of appeals review
of all final orders in licensing proceedings,” including
“[NRC] decisions not to suspend, revoke, or amend” a
license. 470 U.S. at 738-39, 746 (first emphasis added).

38a
Appendix A
The five “Other Agency Actions” identified by Public
Watchdogs all focus on either the NRC’s decisions
not to take enforcement action based on the alleged
misconduct related to the 2015 License Amendments and
Certificate of Compliance for the Holtec System or the
NRC’s failure to take (in Public Watchdogs’s opinion) the
appropriate enforcement action related to those orders. In
briefing, Public Watchdogs makes plain the appropriate
enforcement action that it believes the NRC failed to
take was the suspension of the Private Defendants’
decommissioning activities carried out under the 2015
License Amendments and the Certificate of Compliance
for the Holtec System. Indeed, Public Watchdogs states
that “any fair reading” of its APA claim shows it was
a challenge to the NRC’s failure to “halt” the Private
Defendants’ decommissioning activities. In that sense,
like the denial of a § 2.206 petition, Public Watchdogs’s
APA claim challenged “[NRC] decisions not to suspend”
the 2015 License Amendments or licensed operations
over which the court or appeals had exclusive jurisdiction.
See id. at 738, 746. Ultimately, to remedy these alleged
failures, Public Watchdogs asked the district court
to do, in effect, what the NRC declined to do with its
enforcement actions—suspend the Private Defendants’
licensed and certified operations at SONGS conducted
under the authority of the 2015 License Amendments
and the Certificate of Compliance for the Holtec System.
In other words, Public Watchdogs’s FAC sought relief
identical to that which could have been requested in a
§ 2.206 petition.

39a
Appendix A
Indeed, if Public Watchdogs wanted the NRC to
take additional enforcement action related to the alleged
decommissioning misconduct at SONGS or to suspend the
Private Defendants’ decommissioning activities under the
2015 License Amendments, the proper course under NRC
regulations was to first file a citizen petition pursuant
to 10 C.F.R. § 2.206. See Cnty. of Rockland, 709 F.2d at
773-74 (recognizing a county’s petition for review of an
NRC order declining to shut down or take additional
enforcement action at a nuclear plant must be dismissed,
because the county failed to exhaust its administrative
remedies by failing to, inter alia, file a § 2.206 petition).
If the agency denied the petition, then Public Watchdogs
could have appealed directly to this court. See Lorion,
470 U.S. at 746.
In fact, after Public Watchdogs filed its FAC, it chose
to follow the path outlined above by submitting a § 2.206
petition to the NRC that addressed the same conduct and
sought the same remedy from the NRC that it sought
before the district court—a temporary suspension of
decommissioning activities at SONGS. The NRC declined
to take the requested action, and Public Watchdogs filed
a petition for review of the denial of the § 2.206 petition
directly with us.
Public Watchdogs’s decision to file a § 2.206 petition
that addressed the same conduct and sought the same
remedy that it sought before the district court and its
decision to appeal that action directly to us reinforces
our conclusion that the district court did not have subjectmatter jurisdiction over Public Watchdogs’s APA claim.

40a
Appendix A
Public Watchdogs’s APA claim challenged NRC “decisions
not to suspend” a license or licensed conduct based on
alleged decommissioning misconduct that also formed
the basis of its § 2.206 petition. See id. at 738. If Public
Watchdogs could divert review of this type of challenge
to the district court from the court of appeals simply by
choosing not to file (or belatedly filing) a § 2.206 petition,
we would be endorsing a “seemingly irrational bifurcated
system” where the court of review would be predicated
on the “procedural particulars of the [NRC] action”
rather than the “subject matter of the [NRC] action.” See
id. at 739, 741-42. Moreover, this “seemingly irrational
bifurcated system” would result in some NRC decisions
related to licensing receiving two layers of judicial
review while others received one. See id. at 742. “One
crucial purpose of the Hobbs Act and other jurisdictional
provisions that place initial review in the courts of appeals
is to avoid the waste attendant upon this duplication of
effort.” Id. at 744. Like Lorion, we decline to endorse such
an irrational approach that is at odds with this “crucial
purpose of the Hobbs Act.” See id. at 741-42, 744-45.
Finally, basic principles of administrative law
also support our decision to allow the NRC to first
address Public Watchdogs’s § 2.206 petition that
raises concerns related to the safety of NRC licensees’
nuclear decommissioning activities—an area that is
unquestionably within the NRC’s special competence. See
Parisi v. Davidson, 405 U.S. 34, 37, 92 S. Ct. 815, 31 L. Ed.
2d 17 (1972) (“The basic purpose of the exhaustion doctrine
is to allow an administrative agency to perform functions
within its special competence—to make a factual record,

41a
Appendix A
to apply its expertise, and to correct its own errors so as
to moot judicial controversies.”); McKart v. United States,
395 U.S. 185, 194, 89 S. Ct. 1657, 23 L. Ed. 2d 194 (1969)
(“[I]t is normally desirable to let the agency develop the
necessary factual background upon which decisions should
be based. And since agency decisions are frequently of a
discretionary nature or frequently require expertise, the
agency should be given the first chance to exercise that
discretion or to apply that expertise.”).
For the foregoing reasons, we hold the district court
correctly determined it lacked subject-matter jurisdiction
under the Hobbs Act, because Public Watchdogs’s APA
claim challenged final orders of the NRC related to
licensing or challenged decisions incidental or ancillary
thereto.11

11. Because we conclude Public Watchdogs’s challenge to the
“Other Agency Actions” falls within the scope of the Hobbs Act, we
do not reach the district court’s alternative holding that it lacked
jurisdiction to review those actions under 5 U.S.C. § 701(a)(2), because
those actions constituted “presumptively unreviewable” enforcement
decisions. See Heckler v. Chaney, 470 U.S. 821, 832, 105 S. Ct. 1649,
84 L. Ed. 2d 714 (1985) (recognizing that an “agency’s decision not
to take enforcement action” is “presumptively unreviewable”).

42a
Appendix A
iii. 	Public Watchdogs’s Claims Against Holtec
and the Utility Defendants Challenge
NRC Licensing Decisions or Decisions
Ancillary or Incidental Thereto, and
Challenge Conduct That Also Forms the
Basis of Its § 2.206 Petition to the NRC
We must also determine whether Public Watchdogs’s
claims against the Private Defendants12 fall within the
scope of the Hobbs Act. To do this, we must once again
ascertain whether Public Watchdogs’s claims challenge
final NRC orders in licensing proceedings or challenge
decisions that are preliminary, ancillary, or incidental to
those licensing proceedings. See Lorion, 470 U.S. at 737,
743; Gen. Atomics, 75 F.3d at 539.
Public Watchdogs asserted three causes of action
against the Private Defendants: (1) a public liability action
under the Price—Anderson Act; (2) a public nuisance
claim under California law; and (3) a strict product liability
claim under California law. The district court held that all
three causes of action fell within the Hobbs Act’s scope,
because they “trace back to actions that were taken
pursuant to or that were incidental to the NRC’s issuance
of the July 2015 License Amendment or the [C]ertificate
of [C]ompliance for the Holtec canisters.” However, Public
Watchdogs argues the district court’s holding cannot be
squared with the narrow scope of the Hobbs Act that only
grants the court of appeals “exclusive jurisdiction” over
12. We previously defined “Private Defendants” to include the
Utility Defendants and Holtec.

43a
Appendix A
actions against the NRC challenging its orders “granting,
suspending, revoking, or amending” a license. See 28
U.S.C. 2342(4); 42 U.S.C. § 2239(a)(1)(A).
In the FAC, Public Watchdogs alleges the NRC
improperly granted the Utility Defendants’ request for a
license amendment that permitted them to decommission
SONGS. Public Watchdogs further alleges that the NRC
selected Holtec as the supplier of the SNF containment
system with reckless disregard for the safety and
competence issues surrounding Holtec. Public Watchdogs’s
FAC also takes aim at the Holtec SNF canisters, alleging:
(1) they do not comply with acceptable minimum safety
requirements for the design and manufacture of SNF
storage containers; and (2) they are defective as a result
of a design change made by Holtec without the NRC’s
approval. Additionally, Public Watchdogs complains of the
Utility Defendants’ allegedly negligent decommissioning
conduct, including using less personnel than necessary to
ensure that Holtec SNF canisters are safely loaded into
the SONGS ISFSI, scratching or gouging several Holtec
SNF canisters prior to burying them at SONGS, and
mishandling two loaded Holtec SNF canisters as they
were loaded into the SONGS ISFSI.
Based on these allegations, Public Watchdogs claims
the Private Defendants violated the Price—Anderson
Act by “burying SNF in defective canisters that are
destined to fail.” Public Watchdogs’s public nuisance
claim, in turn, is predicated on the Private Defendants’
reckless handling of the SNF, their failure to investigate
and replace the defective Holtec SNF canisters, and their

44a
Appendix A
intent to continue to store additional SNF in the Holtec
SNF canisters despite the known defects of the canisters.
Finally, Public Watchdogs’s strict products liability claim
against Holtec is predicated on the allegedly defective
design of the Holtec SNF canisters. To remedy these
alleged violations, Public Watchdogs sought to enjoin
any further decommissioning efforts by the Private
Defendants.
Although Public Watchdogs frames its claims against
the Private Defendants as a challenge to private entities’
alleged mishandling of nuclear waste, it alleges the 2015
License Amendments (which permits the storage of SNF
at SONGS in the storage systems certified by the NRC)
were improperly granted and the Holtec SNF canisters
(which were certified for the storage of SNF at SONGS by
the NRC in a Certificate of Compliance) do not comply with
minimum safety requirements for SNF storage containers
and are defective. Thus, it is clear from the allegations
in the FAC that Public Watchdogs’s claims against the
Private Defendants are properly viewed, in part, as a
veiled challenge to the 2015 License Amendments and the
Certificate of Compliance for the Holtec System.
We have previously rejected litigants’ attempts to
disguise their claims to avoid an exclusive avenue of
judicial review selected by Congress. For example, in
American Bird Conservancy v. FCC, 545 F.3d 1190, 1195
(9th Cir. 2008), we held that a plaintiff could not avoid
the Communications Act’s and the Hobbs Act’s exclusive
avenue of judicial review in the courts of appeals by
“characterizing its suit as a challenge to the agency’s

45a
Appendix A
compliance with federal environmental laws rather than
to the agency’s ultimate order.” There, to avoid Hobbs Act
review in the court of appeals, the plaintiff attempted to
use the Endangered Species Act’s citizen-suit provision—
which grants district courts subject-matter jurisdiction
over suits by a person to enjoin any person that is
violating the Endangered Species Act—to challenge the
Federal Communication Commission’s (“FCC”) grant of
registration applications for seven communication towers.
Id. at 1191-92. The plaintiff “carefully disclaim[ed] any
intent to challenge the tower registrations themselves”
and instead framed its challenge “as an objection solely
to the FCC’s failure to consult with the Secretary [of
the Interior] before granting the tower registrations.”
Id. at 1193. We rejected this attempt, however, and
agreed with the FCC that, “despite [the plaintiff]’s artful
pleading, [the plaintiff’s] core objections [were] to the
tower registrations themselves and to the FCC’s policy
of delegating to applicants its responsibilities under the
[Endangered Species Act].” Id. Therefore, recognizing
that, “[i]n analogous contexts, we ha[d] concluded that a
plaintiff may not escape an exclusive avenue of judicial
review through artful pleading,” id. at 1194, we declined
to let the plaintiff “avoid the strict jurisdictional limits
imposed by Congress,” id. at 1195 (quoting Cal. Save Our
Streams Council, Inc. v. Yeutter, 887 F.2d 908, 911 (9th
Cir. 1989)).
In reaching this decision, we relied on our earlier
decision in California Save Our Streams Council, Inc.,
where the Federal Energy Regulatory Commission
(“FERC”) granted Alternative Energy Resources a

46a
Appendix A
license to construct and operate a hydroelectric power
facility in the Sierra National Forest. 887 F.2d at 909.
The Federal Power Act required FERC to solicit and
accept conditions for the license determined by the Forest
Service (the agency responsible for the protection and use
of the Sierra National Forest). Id. at 910. The plaintiffs
proceeded to challenge the FERC license conditions in
administrative proceedings held before the Forest Service
and in district court. Id. In the district court, the plaintiffs
argued FERC’s grant of the license violated the National
Environmental Policy Act (“NEPA”) and the American
Indian Religious Freedom Act (“AIRFA”); thus, it argued
the district court had subject-matter jurisdiction over
the dispute under 28 U.S.C. §§ 1331, 1343, and 1362. Id.
The district court disagreed, finding the language of the
Federal Power Act vested exclusive jurisdiction over the
plaintiffs’ action in the courts of appeals. See id.
On appeal, we held that the Federal Power Act
“vest[ed] sole jurisdiction over questions arising under
the FERC licenses in the [c]ourts of [a]ppeals.” Id. at
911. Undeterred, the plaintiffs argued that the Federal
Power Act’s exclusive judicial review provisions were
simply not applicable, because: (1) “their suit was filed
against the Forest Service and arose under the provisions
of NEPA and AIRFA”; and (2) “they [were] not attacking
the licensing decision made by FERC but instead [were]
seeking review only of the Forest Service’s failure to follow
the procedural and substantive steps outlined in statutes
outside the purview of power and energy regulation.” Id.
We rejected this argument, reasoning that,

47a
Appendix A
although [the plaintiffs] seek to characterize the
proceedings as an attack on the Forest Service’s
actions, it is clear that the suit is an attempt to
restrain the licensing procedures authorized
by FERC. The . . . conditions imposed by the
[Forest] Service have no significance outside the
licensing process, and we do not believe that the
jurisdictional remedy prescribed by Congress
hangs on the ingenuity of the complaint. . . .
Thus, even if they attempt to style [their
complaint] as an independent claim against the
Forest Service, the practical effect of the action
in district court is an assault on an important
ingredient of the FERC license.
Id. at 912. Ultimately, we agreed with the district court
that it lacked subject-matter jurisdiction over the dispute.
Id.
Despite Public Watchdogs’s artful pleading, it is
clear its claims against the Private Defendants are an
attempt to challenge the 2015 License Amendments, the
Certificate of Compliance for the Holtec System, and
actions taken by the licensees under the authority of both
of those final NRC orders. See id.; Am. Bird Conservancy,
545 F.3d at 1193-95. Thus, like the plaintiffs in American
Bird Conservancy and California Save Our Streams
Council, Inc., Public Watchdogs cannot avoid the Hobbs
Act’s exclusive avenue of judicial review by artfully
pleading its challenge to the 2015 License Amendments
and the Certificate of Compliance for the Holtec System
as a Price—Anderson, public nuisance, or strict products
liability claim.

48a
Appendix A
Moreover, to the extent Public Watchdogs’s claims
against the Private Defendants also challenge the Private
Defendants’ conduct that is expressly licensed, certified,
and regulated by the NRC, any such challenge falls within
the scope of the Hobbs Act. Put differently, the 2015
License Amendments and the Certificate of Compliance
are “inextricably intertwined” with the NRC’s regulatory
and enforcement decisions that are in turn related to the
challenged conduct of the Private Defendants. See Am.
Bird Conservancy, 545 F.3d at 1193. Thus, reading § 2239
“liberally” and the Hobbs Act “broadly” to encompass not
only all final NRC actions in licensing proceedings, but
all issues that are preliminary, ancillary, or incidental to
those licensing proceedings, we agree with the district
court that Public Watchdogs’s claims against the Private
Defendants fall within the scope of the Hobbs Act. See
Gen. Atomics, 75 F.3d at 539.
Our conclusion that Public Watchdogs’s claims against
the Private Defendants fall within the scope of the Hobbs
Act is, again, bolstered by Public Watchdogs’s decisions
to file a § 2.206 petition that addressed the same conduct
of the Private Defendants and sought the same remedy
as the district court action and its decision to appeal that
order directly to us. See Lorion, 470 U.S. at 746 (holding
that § 2239 places initial subject-matter jurisdiction over
NRC orders denying § 2.206 petitions in the courts of
appeals).
Therefore, we hold that the district court correctly
found it lacked jurisdiction over Public Watchdogs’s
claims against the Private Defendants, because they

49a
Appendix A
challenged NRC licensing orders or NRC decisions that
were ancillary or incidental to NRC licensing decisions.
IV.	CONCLUSION
Because Public Watchdogs’s FAC challenged NRC
licensing orders or NRC decisions that were ancillary or
incidental to NRC licensing decisions, the district court
correctly determined that it did not have subject-matter
jurisdiction under the Hobbs Act.13 Accordingly, the
district court’s dismissal of Public Watchdogs’s FAC with
prejudice is AFFIRMED.

13. Because we conclude that the district court correctly
determined it lacked subject-matter jurisdiction over Public
Watchdogs’s complaint, we do not reach the district court’s alternative
holding that Public Watchdogs failed to allege facts sufficient to state
a claim for relief under the Price—Anderson Act, California public
nuisance law, or California strict products liability law.

50a
B
APPENDIX B —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, DATED JANUARY 13, 2021
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-70899
PUBLIC WATCHDOGS,
Petitioner,
v.
U.S. NUCLEAR REGULATORY COMMISSION;
UNITED STATES OF AMERICA,
Respondents,
SOUTHERN CALIFORNIA EDISON COMPANY,
Intervenor.
On Petition for Review of an Order of the
Nuclear Regulatory Commission
Argued and Submitted September 1, 2020,
Pasadena, California

51a
Appendix B
MEMORANDUM*
Before: SILER,** BERZON, and LEE, Circuit Judges.
Public Watchdogs petitions for review of the U.S.
Nuclear Regulatory Commission’s (“the NRC’s”) denial of
its petition under 10 C.F.R. § 2.206 for an order suspending
decommissioning operations at the San Onofre Nuclear
Generating Station (“SONGS”). We dismiss the petition
for review.
Public Watchdogs does not dispute the NRC’s
characterization of the denial of the § 2.206 petition as
a decision not to institute an enforcement proceeding.
Such a decision is presumptively unreviewable unless the
NRC “has consciously and expressly adopted a general
policy that is so extreme as to amount to an abdication
of its statutory responsibilities” or there is law providing
“meaningful standards for defining the limits of [the
NRC’s] discretion” in declining to take enforcement action.
Heckler v. Chaney, 470 U.S. 821, 833 n.4, 834, 105 S. Ct.
1649, 84 L. Ed. 2d 714 (1985) (internal quotation marks
omitted).
Public Watchdogs has not demonstrated that the
NRC has abdicated its duty to ensure that spent nuclear
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable Eugene E. Siler, United States Circuit
Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting
by designation.

52a
Appendix B
fuel is stored safely at SONGS. The NRC addressed
the issues raised by Public Watchdogs, including the
possibility that the federal government might never
develop a permanent repository for spent nuclear fuel and,
consequently, that spent fuel might be stored at nuclear
reactor sites indefinitely, in its Generic Environmental
Impact Statement for Continued Storage of Spent Nuclear
Fuel (the “Continued Storage GEIS”). The Continued
Storage GEIS recognized that spent fuel maintained in
dry storage would eventually need to be transferred to
new containers, but it estimated that the transfer would
need to be made only once every one hundred years.
The D.C. Circuit upheld the Continued Storage GEIS,
concluding, among other things, that the NRC reasonably
determined that the “identified risks [were] essentially
common to all reactor sites.” New York v. NRC, 824 F.3d
1012, 1019, 423 U.S. App. D.C. 1 (D.C. Cir. 2016) (internal
quotation marks omitted).
Additionally, the NRC addressed safety concerns
relating to the specific dry cask storage system used at
SONGS in its notice-and-comment rulemaking issuing
a certificate of compliance for that storage system and
in its inspection reports reviewing the decommissioning
activities at SONGS. Finally, the NRC requires SONGS’s
operator to provide updated financial assurances every
year, along with an updated estimate of the costs required
to complete decommissioning. See 10 C.F.R. § 50.82(a)(8)(v).
Whatever validity Public Watchdogs’ critiques of the NRC’s
analyses and determinations may have, those critiques fall
far short of demonstrating that the NRC has abdicated its
statutory duties.

53a
Appendix B
Public Watchdogs’ contention that the NRC’s
regulations and policies provide a meaningful standard
against which to judge the NRC’s exercise of discretion
also fails. Public Watchdogs does not point to any specific
language indicating an intent to circumscribe the NRC’s
discretion in deciding whether to take an enforcement
action. See Heckler, 470 U.S. at 833-35.
Public Watchdogs has not overcome the presumption
that the NRC’s denial of the § 2.206 petition is unreviewable.
We therefore must dismiss the petition for review.
PETITION DISMISSED.

54a
Appendix C — Appendix
ruling C
of the united
states nuclear regulatory commission,
filed june 18, 2020
UNITED STATES
NUCLEAR REGULATORY COMMISSION
WASHINGTON, D.C. 20555-0001
February 26, 2020
Mr. Charles G. La Bella
Barnes & Thornburg LLP
655 West Broadway, Suite 900
San Diego, California 92101
SUBJECT: PETITIONREQUESTINGENFORCEMENT
ACTION UNDER SECTION 2.206 OF
TITLE 10 OF THE CODE OF FEDERAL
REGULATIONS AGAINST SOUTHERN
CALIFORNIA EDISON RELATED TO
DECOM MIS SIONING OEPR ATIONS
AT T H E S A N ONOFRE N UCLEA R
GENERATING STATION UNITS 2 AND 3
Dear Mr. La Bella:
On behalf of the U.S. Nuclear Regulatory Commission
(NRC), I am responding to the petition submitted
pursuant to Title 10 of the Code of Federal Regulations
(10 CFR), Section 2.206, “Requests for action under
this subpart,” dated September 24, 2019 (Agencywide
Documents Access and Management System [ADAMS]
Accession Nos. ML 19309D323 and ML 19311C699), as

55a
Appendix C
supplemented on January 21, 2020 (ADAMS Accession
No. ML20023A182). The NRC’s Executive Director for
Operations referred your petition to the Office of Nuclear
Material Safety and Safeguards (NMSS) for appropriate
review or action.
Petition
In the petition, you requested that the NRC immediately
suspend all decommissioning operations at the San
Onofre Nuclear Generating Station (SONGS) and require
Southern California Edison (SCE or the licensee) to
submit an amended decommissioning plan to account for
spent nuclear fuel being placed in storage at SONGS. As
the basis for the request you stated: burial of spent nuclear
fuel at SONGS poses an immediate threat to public safety
(for example, integrity of fuel canisters); the licensee’s
estimated cost of decommissioning SONGS is based on
unreasonable and fundamentally flawed assumptions;
and the NRC has not considered the environmental and
safety effects of sea level rise caused by climate change
and has not addressed the environmental impacts of
decommissioning on environmental justice, threatened
and endangered species, offsite land use, offsite aquatic
and terrestrial ecology, and certain cultural and historic
resources.
Staff Action
On October 25, 2019, the NRC provided a response to
Public Watchdogs by e-mail (ADAMS Accession No. ML
19326A969) stating that the NRC staff concluded, in

56a
Appendix C
accordance with Section II.B.1 of Management Directive
(MD) 8.11 “Review Process for 10 CFR 2.206 Petitions”
(ADAMS Accession No. ML 18296A043), that the request
does not warrant immediate action. The NRC staff has
determined that the decommissioning activities at SONGS
do not constitute an immediate threat to public health
and safety.
On December 18, 2019, the NRC informed you via e-mail
(ADAMS Accession No. ML 19353A048) that the petition
review board (PRB) concluded that the petition did not
meet the criteria for consideration under 10 CFR 2.206
because it appears that all of the issues raised in the
petition have previously been the subject of NRC staff
review, and do not raise concerns that the NRC staff has
not previously considered and resolved. On January 21,
2020, the PRB conducted a public teleconference with
Public Watchdogs at your request, to discuss the PRB’s
initial assessment and any supplemental information for
the PRB’s consideration. The transcript for the January
21st public meeting can be found at ADAMS Accession
No. ML20028E467. The PRB considered the information
presented during the January 21, 2020, discussion, as well
as the original petition and the supplemental information
submitted in reaching its final determination, as discussed
below.
NRC Staff Response to Specific Concerns
Protection of Public Health and Safety. The NRC
has continued to carefully regulate the licensee’s
decommissioning activities at SONGS, which include

57a
Appendix C
its review of the fuel storage facility design, inspections
encompassing the physical facility as well as the licensee’s
operational performance, and appropriate enforcement
actions. More specifically, the NRC performed a thorough
review of the UMAX Independent Spent Fuel Storage
Installation (ISFSI) design used at SONGS, a design
the NRC approved in 2017 through a public rulemaking
(ADAMS Accession No. ML 16341B061). In addition,
NRC staff continually performs oversight to ensure that
the storage of spent nuclear fuel at SONGS does not pose
a threat to public health and safety. NRC inspections
of decommissioning activities at SONGS, including
inspections related to the ISFSI, are documented in
inspection reports that are publicly available. See for
example ADAMS Accession Nos. ML 18200A400 and ML
19316A762.
The NRC staff has also considered the events described
in the petition regarding the licensee’s fuel loading
operations and potential scratching of the fuel canisters.
See ADAMS Accession No. ML 19190A217. The NRC’s
regulatory review and oversight actions included a
detailed assessment of the significance of the events,
specific enforcement actions, and subsequent consideration
of the licensee’s corrective actions. Specifically, regarding
integrity of the fuel canisters, NRC inspectors concluded
that localized scratches (peak stresses) on the canisters
are not a safety concern (using the ASME Code Section
Ill, Subsection NB stress intensity limits as reference).
NRC inspectors also concluded that canister evaluations
performed by SCE using visual scratch assessments and
statistical evaluations acceptable. These evaluations were

58a
Appendix C
adequate to demonstrate that canister scratches from
incidental contact for previous and future canisters, will
continue to meet the confinement design functions as
specified in the UMAX Final Safety Analysis Report and
ASME Code Section Ill canister wall thickness tolerances.
As a result, the NRC remains confident that reasonable
assurance of adequate protection of the public health and
safety can be maintained for as long as fuel is stored in
accordance with the requirements of the SONGS license,
the certificate of compliance for the UMAX system (and
any other licensed systems that may be implemented
in the future at the SONGS site), and other applicable
requirements.
Decommissioning Cost Estimate. Regarding your
concer n about the estimated cost of completing
decommissioning at SONGS, the NRC staff concluded in
its review of the SONGS Decommissioning Cost Estimate
(DCE) (ADAMS Accession No. ML 15204A383) that
the site-specific DCE and the cost of long-term storage
of spent fuel for SONGS, Units 2 and 3, are reasonable
and provide a sufficient level of detail on the funding
mechanisms to meet the requirements of 10 CFR
50.82(a)(4)(i). In addition, the NRC staff reviewed the
2019 Decommissioning Funding Status (DFS) report for
SONGS and determined that the licensee complies with
the decommissioning funding assurance requirements
of 10 CFR 50.75 and 10 CFR 50.82, as applicable, for the
2019 DFS reporting cycle (ADAMS Accession No. ML
19346E375). The SONGS DFS reports are submitted and
reviewed annually by the NRC staff to ensure continued

59a
Appendix C
compliance with the decommissioning financial assurance
requirements. Finally, the NRC safety evaluation for
the SONGS Irradiated Fuel Management Plan (IFMP)
(ADAMS Accession No. ML 15182A256) states that
“the NRC staff finds the SONGS IFMP estimates to
be reasonable, based on a cost comparison with similar
decommissioning reactors ....”
Environmental Impacts. Regarding your concern about
the environmental impacts of the decommissioning
activities, the NRC staff concluded in its review of the
SONGS Post Shutdown Decommissioning Activities
Report (ADAMS Accession No. ML 15204A383) that
these activities are bounded by the previously issued
NUREG-0586, “Final Generic Environmental Impact
Statement [GElS] on Decommissioning of Nuclear
Facilities,” and its supplements, and did not find any
deviations from the previously issued Environmental
Statement for SONGS (ADAMS Accession No. ML
18239A414). Therefore, the NRC is confident that the
environment can be adequately protected, and all impacts
bounded, during decommissioning activities at SONGS.
Retrievabilitv of Spent Fuel. On January 21, 2020, you
raised concerns regarding spent nuclear fuel currently
stored at SONGS being non-retrievable, in violation of 10
CFR 72.122(I), and with potential impacts from flooding.
Specifically, you stated that “although the Holtec Final
Safety Analysis Report and Certificates of Compliance
clearly contemplate a potential flooding event and state
that a site-specific analysis will be submitted by Licensees,
Public Watchdogs is not aware that any such analysis has
been performed or submitted.”

60a
Appendix C
Interim Staff Guidance No. 2, Revision 2, “Fuel
Retrievability in Spent Fuel Storage Applications”
(ADAMS Accession No. ML 16117A080), defines ready
retrieval as “the ability to safely remove the spent fuel
from storage for further processing or disposal.” A
licensee can demonstrate the ability for ready retrieval by
demonstrating that it can remove a canister loaded with
spent fuel assemblies from a storage cask/overpack. As
discussed in NRC Supplemental Inspection Report 2018002 for SONGS (ADAMS Accession No. ML 19190A217),
the NRC inspection team obser ved the licensee
implementing all the corrective action enhancements to
download and retrieve a simulated canister at the SONGS
ISFSI pad, during exercises conducted between January
28-30, 2019. SCE was fully successful in downloading
and retrieving the canister during the exercises, and the
corrective actions taken were determined by the NRC
inspectors to be adequate.
Flood Analysis. Regarding your concerns with flooding
at the SONGS ISFSI, SCE’s flood analyses determined
that the UMAX maximum design flood parameters
envelope the SONGS site flooding parameters. The NRC
staff verified this flood evaluation in the SONGS 10 CFR
72.212 report to qualify the use of the UMAX system at
SONGS, and the NRC documented this in an inspection
report (ADAMS Accession No. ML 18200A400). The NRC
did not identify any issues as a result of its review of the
flood evaluation for SONGS.
Having considered the results of recent inspections,
the NRC’s evaluation of past SONGS DFS reports, the

61a
Appendix C
applicable environmental documents, and the supplemental
information provided, the PRB’s final determination is
that your petition does not meet the acceptance criteria in
MD 8.11, Section III.C.1 (b), because the issues raised in
the petition have been “the subject of a facility-specific or
generic NRC staff review,” and none of the circumstances
in Section III.C.1 (b)(ii) applies. The NMSS Office Director
was briefed on and supported this conclusion.
Thank you for bringing these issues to the attention of
the NRC.
Sincerely,
/s/ Kevin Williams		
Kevin Williams, Deputy Director
Division of Materials Safety, Security,
State, and Tribal Programs
Office of Nuclear Material Safety and
Safeguards

62a
Appendix d —Appendix
order D
of the united
states district court for the southern
district of california, filed
december 3, 2019
United States District Court
Southern District of California
Case No.: 19-CV-1635 JLS (MSB)
PUBLIC WATCHDOGS, a California
501(c)(3) corporation,
Plaintiff,
v.
SOUTHERN CALIFORNIA EDISON COMPANY;
SAN DIEGO GAS & ELECTRIC COMPANY;
SEMPRA ENERGY; HOLTEC INTERNATIONAL;
UNITED STATES NUCLEAR REGULATORY
COMMISSION; and DOES 1 through 100,
Defendants.
December 3, 2019, Decided
December 3, 2019, Filed

63a
Appendix D
ORDER (1) GRANTING DEFENDANTS’ MOTIONS
TO DISMISS, (2) DISMISSING PLAINTIFF’S
FIRST AMENDED COMPLAINT WITH
PREJUDICE, AND (3) DENYING PLAINTIFF’S
MOTION FOR PRELIMINARY INJUNCTION
(ECF Nos. 2, 5, 41, 42, 47)
Presently before the Court are Plaintiff Public
Watchdogs’ Amended Motion for Preliminary Injunction
and Temporary Restraining Order (“Mot. for Prelim.
Inj.,” ECF No. 5) and the Motions to Dismiss filed by
Defendants Holtec International, Inc. (“Holtec”) (“Holtec
MTD,” ECF No. 41); Southern California Edison Company
(“SCE”), San Diego Gas & Electric Company (“SDG&E”),
and Sempra Energy (“Sempra”) (together, the “Utility
Defendants”; with Holtec, the “Private Defendants”)
(“Utility MTD,” ECF No. 42); and the United States
Nuclear Regulatory Commission (“NRC”) (“NRC MTD,”
ECF No. 47). The Court heard oral argument on November
25, 2019. See ECF Nos. 58, 59. Having considered the
Parties’ arguments and the law, the Court GRANTS
Defendants’ Motions to Dismiss, DISMISSES WITH
PREJUDICE Plaintiff’s First Amended Complaint, and
DENIES Plaintiff’s Motion for Preliminary Injunction,
as follows.

64a
Appendix D
BACKGROUND1
I. 	Plaintiff’s Allegations
Plaintiff “is a 501(c)(3) non-profit corporation that
advocates for public safety by ensuring that government
agencies and special interests comply with all applicable
laws, including public-safety and environmental protection
laws, especially in the public-utilities industry.” FAC ¶ 4.
“Plaintiff has at least one member who lives within the
zone of exposure to a catastrophic release of radioactive
material from SONGS.” Id.
SCE and SDG&E are public utilities doing business
in California. Id. ¶¶ 5-6. Sempra is the parent company
of SDG&E. Id. ¶ 7.
In August 1963, Congress enacted Public Law 8882, which authorized the “construct[ion], operate[ion],
maintain[enance], and use” of a nuclear power plant on
the Camp Pendleton military base. Id. ¶ 18. The Utility
Defendants operated three nuclear electric generating
units in that area—which is located within a tsunami
1. The facts alleged in Plaintiff’s First Amended Complaint
(“FAC”) are accepted as true for purposes of the Defendants’ Motions
to Dismiss under Federal Rule of Civil Procedure 12(b)(6). See
Vasquez v. L.A. Cnty., 487 F.3d 1246, 1249 (9th Cir. 2007) (holding
that, in ruling on a motion to dismiss, the Court must “accept all
material allegations of fact as true”). The Court also considers those
materials outside the First Amended Complaint that are proper
subjects of judicial notice, such as other court and administrative
filings. See Khoja v. Orexigen Therapeutics, Inc., 899 F.3d 988, 999
(9th Cir. 2018), cert. denied, 139 S. Ct. 2615, 204 L. Ed. 2d 264 (2019).

65a
Appendix D
inundation zone and between two active fault lines, see id.
¶¶ 1, 48—at the San Onofre Nuclear Generating Station
(“SONGS”). Id. ¶ 19. SCE owned 78.2% of SONGS, id. ¶ 5,
while SDG&E owned approximately 20% of SONGS. Id.
¶ 6. The first nuclear generating unit at SONGS operated
between 1968 and 1992, while the second and third units
operated from 1983 and 1984, respectively, until June 12,
2013, when they were shut down. Id.
Plaintiff alleges that, throughout this time, “SONGS
has had numerous instances of poor safety and regulatory
compliance.” Id. ¶ 20; see also id. ¶¶ 21-28. These led to
the announcement on June 7, 2013, that SONGS would be
permanently shut down. Id. ¶ 29. The Utility Defendants
permanently ceased operation of SONGS Units 2 and 3 on
June 12, 2013. Id. ¶ 41. Plaintiff contends, however, that
issues of mismanagement have continued to plague the
decommissioning process, which has led to “a continuing
liability and an ever-present existential threat.” See id.
¶ 30.
For example, the NRC—which is “federal government
agency that is mandated by Congress to license and
regulate the Nation’s civilian use of radioactive materials
to protect public health and safety, promote the common
defense and security, and protect the environment,” id.
¶ 10—“has repeatedly failed to exercise any meaningful
oversight of SONGS and has abdicated its role to regulate
[the Private Defendants].” Id. ¶ 32. The NRC has declined
to perform an independent seismic hazard assessment
of SONGS, see id. ¶ 33, and has frequently allowed the
Utility Defendants to violate NRC rules and regulations.

66a
Appendix D
See id. ¶¶ 34-36. The NRC also has granted several
exemptions to the Utility Defendants from the emergency
response regulations, see id. ¶¶ 37-38, and allowed the
Utility Defendants to use the $4.7 billion decommissioning
trust fund for purposes other than decommissioning
activities. See id. ¶ 39. Finally, the NRC granted the
Utility Defendants a license amendment on July 17, 2015
(the “July 2015 License Amendment”), which permitted
them to decommission the SONGS facility. See id. ¶ 43.
In granting the July 2015 License Amendment, however,
the NRC “relied on the [Utility] Defendants’ own analysis
instead of objective criteria or independent analysis.” Id.
Although the Utility Defendants previously had
stored spent nuclear fuel (“SNF”) at SONGS in wet
storage pools, see id. ¶ 45, the Utility Defendants’
decommissioning plan allows for the burial of SNF in an
onsite containment system called an Independent Spent
Fuel Storage Installation (“ISFSI”). Id. ¶ 48. The ISFSI
is located in a tsunami inundation zone located between
two seismic fault lines and only 108 feet from the Pacific
Ocean. See id. ¶ 48. Consequently, the ISFSI “is only
about 18 feet above the Pacific Ocean’s median high tide,”
and “[t]he bottom of the structure is a mere three feet
above the underground water table.” Id. ¶ 49. Accordingly,
“[c]limate-change experts predict that the bottom of each
silo located in the ISFSI will be inundated with salt water
as early as 2035.” Id. ¶ 51.
Designed by Holtec, id. ¶ 52, and guaranteed only
for ten years, id. ¶ 55, the ISFSI calls for the burial of
73 canisters filled with 3.6 million pounds of SNF, see

67a
Appendix D
id. ¶¶ 49, 54, approximately 20 feet underground. See id.
¶ 48. Like the ISFSI itself, the canisters were designed
and manufactured by Holtec, id. ¶ 54, who warrants them
only for 25 years. See id. ¶ 55. In contrast to the thickwalled dry casks used by many international nuclear
decommissioning projects, see id. ¶ 57, Holtec’s “thin-wall”
canisters have “only a 5/8-inch thick stainless[-]steel wall
with an aluminum egg-crate structure designed to hold up
to 37 spent fuel assemblies.” Id. ¶ 56. Holtec made design
changes to its canisters without the authorization of the
NRC, which rendered four canisters already loaded into
the ISFSI at SONGS potentially defective. See id. ¶¶ 6062. The NRC declined to impose a civil fine for the failure
to seek pre-authorization of the change in the design
of the Holtec canisters. See id. ¶ 62. Independent risk
assessments of the decommissioning plan and the Holtec
canisters, if performed, have not been made publicly
available. See id. ¶¶ 50, 52, 58.
Despite the lack of independent analyses and NRC
oversight, the Utility Defendants began burying the
canisters at the SONGS ISFSI on January 31, 2018. See
id. ¶ 53. Workers discovered a defective Holtec canister
on March 5, 2018, see id. ¶ 63, and the Utility Defendants
admitted that four potentially defective canisters had
already been filled and buried at a Community Engagement
Panel Meeting on March 22, 2018. See id. ¶ 64. Because
“Defendants have consistently used [fewer] personnel than
necessary to ensure that the Holtec canisters are safely
and effectively loaded into the ISFSI,” id. ¶ 66, they have
“negligently gouged and then buried twenty-nine (29) fully
loaded canisters at SONGS.” Id. ¶ 67. “[T]his gouging may

68a
Appendix D
lead to deeper, through-the-wall cracks,” which may “be
exacerbated, inter alia, by the presence of salt air, fog,
rain, and salt water—the precise weather conditions that
the canisters will be exposed to at the current location
just steps from the Pacific Ocean.” Id. Further, “many (if
not all) of the canisters were negligently scratched during
transportation to the ISFSI.” Id. ¶ 68.
On July 22, 2018, the Utility Defendants “nearly
dropped a 49-ton canister full of deadly radioactive nuclear
waste more than 18 feed into the ISFSI when it was caught
on a quarter inch thick steel guide ring.” Id. ¶ 69. They
failed to report the incident to the NRC. See id. ¶¶ 70-71.
On August 3, 2018, the Utility Defendants “once again
lost control of a 49-ton canister full of deadly radioactive
nuclear waste while it was being lowered into a belowground storage silo,” id. ¶ 72, which resulted in a work
stoppage. See id. ¶ 74. The Utility Defendants informally
informed the NRC on August 6, 2018, see id. ¶ 76, and
a whistleblower reported the event at a Community
Engagement Panel Meeting on August 9, 2018. See id.
¶ 73. As a result of the August 3, 2018 incident, “[o]n
March 25, 2019, the NRC issued a ‘Notice of Violation’
and ‘NRC Special Inspection Report’ to Edison for two
safety violations.” Id. ¶ 91. The first violation concerned
“a failure to make certain that safety equipment was
operating,” while the second was for “failure to report the
safety incident to the NRC.” Id. “[T]he NRC issued an
Inspection Charter for SONGS, which found five violations
that were ultimately penalized [by] the imposition of a
. . . fee of $116,000 on [SCE].” Id. ¶ 79; see also id. ¶ 91.

69a
Appendix D
“On August 24, 2018, the NRC issued an Inspection
Report to the [Utility] Defendants,” in which “the NRC
determined that [SCE] had committed a Severity IV
violation of the NRC’s safety requirements between June
2017 and June 2018.” Id. ¶ 85. “The violation related to
the design control of field changes made to the safety
equipment the [Utility] Defendants used to loan SNF into
storage canisters.” Id.
“On November 29, 2018, the NRC issued an Inspection
Report to Holtec,” in which the NRC “informed Holtec
that it was being considered for ‘Escalated Enforcement
Action’ for two apparent violations” related to the change
in the design of the spent fuel storage casks. See id. ¶ 87.
Plaintiff believes that the first violation relates to Holtec’s
“failure to establish adequate design control measures,”
which resulted in the defect that may have rendered
the first four canisters deployed at SONGS unsafe.
See id. ¶ 88. Plaintiff believes that the second violation
relates to Holtec’s failure to provide the NRC with prior
authorization of its design changes. See id. ¶ 89.
On July 15, 2019, after voluntarily suspending the
transfer of SNF following the August 3, 2018 incident,
the Utility “Defendants notified the public that Defendant
Holtec was again moving SNF from wet storage to
canisters[] and burying canisters near San Onofre beach.”
Id. ¶ 93. Additional canisters have continued to be buried
during the pendency of this action. See id. ¶¶ 95-97.

70a
Appendix D
II. 	Procedural Background
On November 15, 2017, Plaintiff filed an action for
declaratory and injunctive relief against the United States;
the United States Department of Defense; James Mattis,
Secretary of Defense; the United States Department of
the Navy; Richard V. Spencer, Secretary of the Navy;
SCE; and SDG&E, alleging a single cause of action for
violation of Public Law 88-82. See generally Complaint,
Pub. Watchdogs v. United States (“Pub. Watchdogs I”), No.
17-CV-2323 JLS (MSB) (S.D. Cal. filed Nov. 25, 2017), ECF
No. 1. On August 30, 2018, the Court dismissed Public
Watchdogs I on the grounds that Plaintiff had failed to
establish Article III standing because “Plaintiff ha[d] not
shown that the alleged future harm or diminishment of
the area [wa]s ‘certainly impending’ or even that there
[wa]s a ‘substantial risk’ or ‘credible threat’ that immediate
harm w[ould] occur.” Order Granting Defendants’ Motions
to Dismiss at 7-8, Pub. Watchdogs I (filed Aug. 30, 2018),
ECF No. 24; see also 2018 U.S. Dist. LEXIS 148501, 2018
WL 4153302, at *4. Although Plaintiff filed an amended
complaint, see Amended Complaint, Pub. Watchdogs I
(filed Sept. 28, 2018), ECF No. 25, it voluntarily dismissed
Public Watchdogs I on July 3, 2019. See Notice of Voluntary
Dismissal Without Prejudice, Public Watchdogs I (filed
July 3, 2019), ECF No. 50.
On August 29, 2019, Plaintiff filed the instant
action against SCE, SDG&E, Sempra, Holtec, and the
NRC, alleging three causes of action: (1) violation of
the Administrative Procedures Act, 5 U.S.C. §§ 702 et
seq., against the NRC; (2) public nuisance in violation of

71a
Appendix D
California Civil Code §§ 3479-3480 against the Private
Defendants; and (3) strict products liability against Holtec.
See generally ECF No. 1. Plaintiff also filed a motion for
preliminary injunction and temporary restraining order
seeking to restrain Defendants from transferring further
SNF into the Holtec canisters or storing additional spent
nuclear fuel in the ISFSI at SONGS pending a full hearing
on the decommissioning plan. See generally ECF No. 2.
Plaintiff amended its motion the following day, see ECF
No. 5, and the case was reassigned to this Court based on
its relation to Public Watchdogs I. See ECF No. 16.
In response to Defendants’ notification of their intent
to oppose Plaintiff’s request for a temporary restraining
order, see ECF Nos. 6, 17, the Court set a briefing schedule.
See ECF No. 18. Soon thereafter, Defendants filed motions
to dismiss that raised, among other concerns, the Court’s
lack of subject-matter jurisdiction. See ECF Nos. 19, 28,
29. These concerns were echoed in Defendants’ oppositions
to Plaintiff’s motion for a preliminary injunction. See ECF
Nos. 36, 37.
Seemingly in response to Defendants’ jurisdictional
arguments, Plaintiff filed the operative First Amended
Complaint, which added an additional cause of action for
a public liability action pursuant to the Price-Anderson
Act, 42 U.S.C. § 2210(n)(2). See generally ECF No. 38. The
Court therefore denied as moot and without prejudice the
pending motions to dismiss. See ECF No. 39. The instant
Motions to Dismiss followed. See ECF Nos. 41, 42, 47.

72a
Appendix D
On October 21, 2019, shortly before filing its oppositions
to Defendants’ Motions to Dismiss, see ECF Nos. 51, 52,
Plaintiff filed with the NRC a 10 C.F.R. § 2.206 Petition
to Immediately Suspend Decommissioning Operations
at San Onofre Nuclear Generating Station Unites 2 and
3. Pub. Watchdogs v. S. Cal. Edison Co., No. 19-72670
(N.R.C. filed Oct. 21, 2019), DE 1; see also ECF No. 54
Ex. 47. The same day, Plaintiff also filed an Emergency
Petition for Writ of Mandamus with the United States
Court of Appeals for the Ninth Circuit. Pub. Watchdogs
v. U.S. Nuclear Regulatory Comm’n, No. 19-72670 (9th
Cir. filed Oct. 21, 2019), DE 1; see also ECF No. 55 Ex. 48.
DEFENDANTS’ MOTIONS TO DISMISS
I. 	Federal Rule of Civil Procedure 12(b)(1)
A. 	Legal Standard
Federal courts are courts of limited jurisdiction, and
as such have an obligation to dismiss claims for which
they lack subject-matter jurisdiction. Demarest v. United
States, 718 F.2d 964, 965 (9th Cir. 1983). Because the issue
of standing pertains to the subject matter jurisdiction
of a federal court, motions raising lack of standing are
properly brought under Federal Rule of Civil Procedure
12(b)(1). White v. Lee, 227 F.3d 1214, 1242 (9th Cir. 2000).
“The party asserting jurisdiction bears the burden of
establishing subject matter jurisdiction on a motion to
dismiss for lack of subject matter jurisdiction.” In re
Dynamic Random Access Memory (DRAM) Antitrust
Litig., 546 F.3d 981, 984 (9th Cir. 2008) (citing Kokkonen

73a
Appendix D
v. Guardian Life Ins. Co. of Am., 511 U.S. 375, 377, 114
S. Ct. 1673, 128 L. Ed. 2d 391 (1994); Stock W., Inc. v.
Confederated Tribes of the Colville Reservation, 873
F.2d 1221, 1225 (9th Cir. 1989)). “Dismissal for lack of
subject matter jurisdiction is appropriate if the complaint,
considered in its entirety, on its face fails to allege facts
sufficient to establish subject matter jurisdiction.” Id.
(citing Love v. United States, 915 F.2d 1242, 1245 (9th
Cir. 1990)).
Rule 12(b)(1) motions may challenge jurisdiction
facially or factually. Safe Air for Everyone v. Meyer, 373
F.3d 1035, 1039 (9th Cir. 2004). A facial attack is one where
“the challenger asserts that the allegations contained in
a complaint are insufficient on their face to invoke federal
jurisdiction.” Id. In evaluating such a challenge, the court
accepts the factual allegations in the complaint as true. See
Miranda v. Reno, 238 F.3d 1156, 1157 n.1 (9th Cir. 2001).
In contrast, where the defendant challenges the factual
basis underlying the allegations, the court need not accept
the allegations as true and may instead make factual
determinations. White, 227 F.3d at 1242. “In ruling on a
challenge to subject matter jurisdiction, the district court
is ordinarily free to hear evidence regarding jurisdiction
and to rule on that issue prior to trial, resolving factual
disputes where necessary.” Augustine v. United States,
704 F.2d 1074, 1077 (9th Cir. 1983) (citing Thornhill Publ’g
Co. v. Gen. Tel. Corp., 594 F.2d 730, 733 (9th Cir. 1979)).
When making such a ruling, the district court may review
evidence beyond the complaint without converting the
motion to dismiss into a motion for summary judgment.
Savage v. Glendale Union High Sch., 343 F.3d 1036, 1039
n.2 (9th Cir. 2003) (citing White, 227 F.3d at 1242).

74a
Appendix D
The decision whether to grant leave to amend rests in
the discretion of the trial court. See Pink v. Modoc Indian
Health Project, Inc., 157 F.3d 1185, 1189 (9th Cir. 1998)
(citing DCD Programs, Ltd. v. Leighton, 833 F.2d 183,
185-86 (9th Cir.1987)). Leave to amend is properly denied
where leave would be futile, id. (citing DCD Programs,
833 F.2d at 185-86), such as where “the alleged facts, even
if true, provide[] no basis for subject matter jurisdiction.”
Id. (citing DCD Programs, 833 F.2d at 185-86).
B. Analysis
1. 	Plaintiff’s Standing
“[B]efore a federal court can consider the merits of a
legal claim, the person seeking to invoke the jurisdiction
of the court must establish the requisite standing to sue.”
Whitmore v. Arkansas, 495 U.S. 149, 154, 110 S. Ct. 1717,
109 L. Ed. 2d 135 (1990). The Private Defendants challenge
Plaintiff’s standing to seek injunctive relief because
“Plaintiff does not have Article III standing to bring any
claim because it has not suffered an injury in fact.”2 Holtec
2. The Private Defendants also contend that “Plaintiff does
not have standing to bring a public nuisance claim because it has
not alleged it has suffered a unique injury,” Holtec MTD at 21, and
Holtec urges that “Plaintiff does not have standing to bring a strict
products liability claim against Holtec because it does not allege it
suffered personal injury or incurred property damage as a result
of an alleged safety-related design defect.” See Holtec MTD at 21;
see also id. at 22. But “[t]he requirements to allege standing are not
the same as the requirements to plead injury under the substantive
law.” Opperman v. Path, Inc., 87 F. Supp. 3d 1018, 1038 (N.D. Cal.
2014) (citing Low v. LinkedIn Corp., 900 F. Supp. 2d 1010, 1027 (N.D.

75a
Appendix D
MTD at 21; see also id. at 21-23; Utility MTD at 19-22. The
NRC also disputes Plaintiff’s standing to challenge “two
exemptions concerning the use of the decommissioning
trust fund and insurance requirements” on the grounds
that Plaintiff has failed to allege any injury-in-fact or
redressability. ECF No. 53 at 9-10.
“Article III of the Constitution limits the jurisdiction
of federal courts to ‘Cases’ and ‘Controversies.’ One
component of the case-or-controversy requirement is
standing, which requires a plaintiff to demonstrate the
now-familiar elements of injury in fact, causation, and
redressability.” Lance v. Coffman, 549 U.S. 437, 439, 127 S.
Ct. 1194, 167 L. Ed. 2d 29 (2007) (per curiam) (citing Lujan
v. Defenders of Wildlife, 504 U.S. 555, 573-74, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992)). To satisfy the requirements
of “injury in fact,” a plaintiff must show that she suffered
“an invasion of a legally protected interest which is (a)
concrete and particularized, and (b) actual or imminent,
not conjectural or hypothetical.” Lujan, 504 U.S. at 560
(internal quotation marks and citations omitted).
“[A]n association has standing to bring suit on behalf
of its members when: (a) its members would otherwise have
standing to sue in their own right; (b) the interests it seeks
Cal. 2012)); see also Andrews v. Plains All Am. Pipeline, L.P., No.
CV154113PSGJEMX, 2017 U.S. Dist. LEXIS 225018, 2017 WL
10543401, at *15 (C.D. Cal. Aug. 25, 2017) (noting distinction between
the “special injury” requirement for public nuisance and Article III
standing). Consequently, the Court addresses these arguments in
the context of the Public Defendants’ Rule 12(b)(6) motions. See infra
Sections II.B.3.b.i, II.B.3.c.

76a
Appendix D
to protect are germane to the organization’s purpose; and
(c) neither the claim asserted nor the relief requested
requires the participation of individual members in the
lawsuit.” Hunt v. Wash. State Apple Advert. Comm’n,
432 U.S. 333, 343, 97 S. Ct. 2434, 53 L. Ed. 2d 383 (1977).
Claims for declaratory and injunctive relief do not require
individualized proof, thereby satisfying the third prong.
See id. at 344.
a. 	The NRC
The NRC contends that “Plaintiff lacks standing to
challenge” the “two exemptions concerning the use of the
decommissioning trust fund and insurance requirements,”
ECF No. 53 at 9; see also NRC MTD at 13-14. Plaintiff
does not address the NRC’s standing argument in its
Opposition. See generally ECF No. 52. Under Ninth
Circuit precedent, the Court therefore may consider
Plaintiff to have conceded the issue. See Ramirez v.
Ghilotti Bros. Inc., 941 F. Supp. 2d 1197, 1210-11 (N.D. Cal.
2013) (granting motion to strike and concluding that the
defendant had conceded that certain affirmative defenses
could not be saved by amendment where the defendant had
failed to respond to the plaintiffs’ arguments); see also id.
at 1210 n.7 (collecting cases).
Even if Plaintiff had not conceded its lack of standing
as to the two exemptions concerning the use of the
decommissioning trust fund and insurance requirements,
the Court concludes that Plaintiff has failed to establish
any injury in fact. Here, Plaintiff alleges that “[t]he NRC
. . . issued a series of exemptions to requests by the SONG

77a
Appendix D
Defendants to use the decommissioning trust funds
for purposes other than decommissioning activities.”
FAC ¶ 39. Specifically, on September 5, 2014, the “NRC
grant[ed] exemptions from 10 C.F.R. §§ 50.82(a)(8)(i)(A)
and 50.75(h)(2), which allows the SONGS Defendants
to use decommissioning trust funds for purposes other
than decommissioning activities,” id. ¶ 39(f), and on
January 5, 2018, the “NRC grant[ed] an exemption to
10 C.F.R. § 50.54(w)(1), which requires the operator of
a nuclear power plant to maintain property insurance
in the amount of $1.06 billion to ensure adequate funds
for decontamination and stabilization in the event of an
accident.” Id. ¶ 39(g). Among other things, Plaintiff prays
for “[a] full and complete accounting of the decommissioning
trust fund to ensure that the funds collected are adequate
to permit the safe decommissioning of SONGS,” id. at
Prayer ¶ 4, and “[t]he appointment of an independent
monitor at SONGS to provide independent oversight and
accountability regarding the decommissioning taking
place at SONGS.” Id. at Prayer ¶ 6.
Although the Court concludes that the relief Plaintiff
requests would redress any alleged injury, the Court
concludes that Plaintiff has failed to allege any such
injury resulting from the NRC’s issuance of these two
exemptions. 3 The NRC contends that “Plaintiff fails to
3. To the extent Plaintiff’s claim is premised on the exemptions
detailed in paragraph 39 subparagraphs (a) through (e), which were
granted between February 22, 1983, and December 21, 2001, the
Court concludes that Plaintiff’s challenge is untimely. See ECF No. 53
at 2-3 (citing 28 U.S.C. § 2401(a); Wind River Mining Corp. v. United
States, 946 F.2d 710, 713-14 (9th Cir. 1991); Spannaus v. U.S. Dep’t
of Justice, 824 F.2d 52, 56, 262 U.S. App. D.C. 325 (D.C. Cir. 1987)).

78a
Appendix D
show . . . that either the use of the decommissioning trust
fund for other purposes represents a direct harm to
Plaintiff or that the fund will be insufficient” or, regarding
the insurance exemption, that “any kind of accident is
imminent” or “how [Plaintiff] specifically would have to
bear a pecuniary impact in such a circumstance.” ECF
No. 53 at 9-10. The Court agrees. See, e.g., Nuclear Info. &
Res. Serv. v. Nuclear Regulatory Comm’n, 457 F.3d 941,
954 (9th Cir. 2006) (“[The organizational plaintiff] fails to
show that its members’ concrete interest is threatened by
the challenged regulation, rather than by ‘unregulated
transportation of radioactive material’ in the abstract. The
declarations simply express undifferentiated ‘concerns’—
the same concerns about nuclear hazards shared by
the public at large—and speculate that unregulated
transportation of radioactive material in general—not
this regulation in particular—may present unspecified
threats to their health.”) (emphasis in original); Texans
Against Gov’tal Waste & Unconstitutional Gov’tal
Conduct v. U.S. Dep’t of Treasury, 619 F. Supp. 2d 274, 280
(N.D. Tex. 2009) (concluding that the plaintiffs did not have
standing to challenge the Department of the Treasury’s
distribution of funds to U.S. automobile manufacturers
from Troubled Asset Relief Program because the alleged
injury was a generalized grievance that did not satisfy
Article III’s injury-in-fact requirement); see also Hein v.
Freedom from Religion Found., Inc., 551 U.S. 587, 593,
127 S. Ct. 2553, 168 L. Ed. 2d 424, (2007) (“It has long
been established . . . that the payment of taxes is generally
not enough to establish standing to challenge an action
taken by the Federal Government.”); DaimlerChrysler
Corp. v. Cuno, 547 U.S. 332, 345, 126 S. Ct. 1854, 164 L.

79a
Appendix D
Ed. 2d 589 (2006) (“The . . . rationale for rejecting federal
taxpayer standing applies with undiminished force to
state taxpayers.”). Accordingly, the Court concludes that
Plaintiff has failed to allege standing as to its first cause
of action to the extent it is predicated on the exemptions
related to the use of the decommissioning trust funds.
The Court therefore GRANTS the NRC’s Motion in that
respect.
b. 	The Private Defendants
The Private Defendants argue that Plaintiff has
failed to establish Article III standing because it “does
not allege an injury in fact to itself that is distinct and
palpable, or that is based on anything other than its own
speculation that a harm may occur in the future.” Utility
MTD at 21 (emphasis in original); see also Holtec MTD
at 22-23. Plaintiff responds that “a ‘credible threat that a
probabilistic harm will materialize is enough’ to establish
injury-in-fact,” ECF No. 51 at 18 (quoting Nat. Res. Def.
Council v. EPA, 735 F.3d 873, 878 (9th Cir. 2013)), and that
“[t]he Amended Complaint amply details—and supports
with citations—the conditions that will lead to probabilistic
harm, including: (1) the various design and manufacture
defects in Holtec canisters . . . ; (2) the negligent and
ongoing mishandling of the Holtec canisters by the
Private Defendants . . . ; and (3) the precarious location
of the ISFSI, which . . . credibly establish that probably
harm will materialize.” Id. at 19 (footnotes omitted). The
Private Defendants respond that “Plaintiff’s failure to
allege any actual radioactive leak is a hurdle to Article III
standing” and “Plaintiff’s conclusory assertions regarding

80a
Appendix D
imminent harm are also speculative because . . . Plaintiff
. . . alleges a ‘speculative chain of possibilities,’ and ‘relies
only on alleged hypothetical conditions that might lead to
certain consequences.’” ECF No. 54 at 8-9 (quoting Pub.
Watchdogs I, 2018 U.S. Dist. LEXIS 148501, 2018 WL
4153302, at *4); see also ECF No. 55 at 8.
Defendants rely heavily on the Court’s prior ruling
dismissing Plaintiff’s 2017 lawsuit for lack of standing.
See Utility MTD at 20-22; ECF No. 54 at 8-9. That
determination, however, was made on the basis of the
allegations in Plaintiff’s November 15, 2017 complaint
in Public Watchdogs I. Whether Plaintiff adequately
alleges standing for purposes of this suit depends on the
allegations in its operative First Amended Complaint,
which contains additional factual details. For example, in
addition to alleging that it “has at least one member who
lives within the zone of exposure to a catastrophic release
of radioactive material from SONGS,” FAC ¶ 4, Plaintiff
now alleges that “Defendants have already committed
grievous errors in their management and handling of
spent nuclear waste,” which “creates an imminent risk
that deadly nuclear waste will be released, resulting in
the death, injury, illness, and/or significant bodily harm
to millions of California residents, as well as damage to
and destruction of wildlife, agriculture, public and private
property, and critical transportation infrastructure.”
Id. ¶ 2; see also id. ¶ 94 (“Given the SONGS Defendants’
track record, the continued operation of the current
decommissioning plan presents an imminent danger to
the Plaintiff, the public, and the environment of Southern
California.”). Specifically, Plaintiff alleges that the Utility

81a
Appendix D
Defendants have compromised the structural integrity of
the cannisters, see id. ¶¶ 66-68, and nearly dropped two
49-ton canisters of SNF, see id. ¶¶ 69-80, and that the
NRC has abdicated meaningful supervision at SONGS.
See id. ¶¶ 31-44, 85-94.
Accepting Plaintiff’s allegations as true and construing
them in favor of Plaintiff, as the Court must in ruling on
Defendants’ Rule 12(b)(1) motions, see Warth v. Seldin,
422 U.S. 490, 501, 95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975)
(citing Jenkins v. McKeithen, 395 U.S. 411, 421-22, 89 S.
Ct. 1843, 23 L. Ed. 2d 404 (1969)), the Court concludes
that Plaintiff’s allegations suffice to establish Article III
standing. Even after the Supreme Court’s decision in
Clapper v. Amnesty International USA, 568 U.S. 398, 133
S. Ct. 1138, 185 L. Ed. 2d 264 (2013), the Ninth Circuit has
“consistently held that an injury is ‘actual or imminent’
where there is a ‘credible threat’ that a probabilistic harm
will materialize.” Nat. Res. Def. Council v. U.S. E.P.A., 735
F.3d 873, 878 (9th Cir. 2013); see also In re Zappos.com,
Inc., 888 F.3d 1020, 1027-29 (9th Cir. 2018) (concluding
that the plaintiffs had alleged a credible threat of real and
immediate harm sufficient to establish standing where
hackers had stolen their personal information from the
defendant’s servers, thereby exposing the plaintiffs to
an increased risk of identity theft), cert. denied, 139 S.
Ct. 1373, 203 L. Ed. 2d 609 (2019); San Luis & DeltaMendota Water Auth. v. Jewell, 747 F.3d 581, 645 n.49
(9th Cir. 2014) (“[A] credible threat of harm is sufficient
to constitute actual injury for standing purposes, whether
or not a statutory violation has occurred.”) (quoting Cent.
Delta Water Agency v. United States, 306 F.3d 938, 950

82a
Appendix D
(9th Cir. 2002)). Indeed, the Ninth Circuit has recognized
that “[t]he ability to challenge actions creating threatened
environmental harms is particularly important because
in contrast to many other types of harms, monetary
compensation may well not adequately return plaintiffs
to their original position,” given that “[t]he extinction of
a species, the destruction of a wilderness habitat, or the
fouling of air and water are harms that are frequently
difficult or impossible to remedy.” Cent. Delta Water
Agency, 306 F.3d at 950, abrogated on other grounds by
Clapper, 568 U.S. 398, 133 S. Ct. 1138, 185 L. Ed. 2d 264.
This reasoning is equally applicable in the context
of nuclear contamination. The Court therefore concludes
that Plaintiff adequately has alleged Article III standing
to seek injunctive relief against the Private Defendants.
See, e.g., Ocean Advocates v. U.S. Army Corps of Eng’rs,
402 F.3d 846, 860 (9th Cir. 2005) (finding that the plaintiff
had established standing where “the [challenged]
dock extension risks increased tanker traffic and a
. . . corresponding increase in the risk of an oil spill” and
concluding that “the alleged injury is not conjectural
or hypothetical, as ‘an increased risk of harm can itself
be injury in fact for standing,’ and nothing necessitates
a showing of existing environmental harm”) (quoting
Ecological Rights Found. v. Pac. Lumber Co., 230 F.3d
1141, 1151 (9th Cir. 2000)); US Citrus Sci. Council v. U.S.
Dep’t of Agric., No. 117CV00680LJOSAB, 2017 U.S. Dist.
LEXIS 177230, 2017 WL 4844376, at *8 (E.D. Cal. Oct. 25,
2017) (“Plaintiffs have established environmental standing
by showing that there is a significant risk of environmental
injury [through the spread of disease from the importation

83a
Appendix D
of Argentine lemons] that would be caused by the Final
Rule and remedied by its reversal.”); Levine v. Johanns,
No. C 05-04764 MHP, 2006 U.S. Dist. LEXIS 63667, 2006
WL 8441742, at *4 (N.D. Cal. Sept. 6, 2006) (concluding
that the plaintiffs had standing to assert APA claim
premised on theory that the “USDA’s interpretation of, or
failure to interpret, the 1958 HMSA causes an increased
risk of contracting food-borne illnesses from inhumanely
slaughtered animals”).
2. 	The Court’s Subject-Matter Jurisdiction
Defendants also contend that the Court lacks subjectmatter jurisdiction because Plaintiff’s causes of action all
challenge actions taken pursuant to the Atomic Energy
Act of 1954 (“AEA”), 42 U.S.C. §§ 2011-2021, 2022-2286i,
2296a-2297h-13, and NRC regulations and therefore must
be brought in the Ninth Circuit under the Hobbs Act, see
Holtec MTD at 7-9; Utility MTD at 22-25; NRC MTD at
6-11, pursuant to which “[t]he court of appeals . . . has
exclusive jurisdiction to . . . determine[] the validity of
. . . all final orders of the [NRC] made reviewable by
section 2239 of title 42.” 28 U.S.C. § 2342(4). Section
2239, in turn, applies in relevant part to “proceeding[s]
. . . for the granting, suspending, revoking, or amending
of any license or construction permit, or application to
transfer control, and . . . proceeding[s] for the issuance
or modification of rules and regulations dealing with the
activities of licensees.” 42 U.S.C. § 2239(a)(1)(A).
The Hobbs Act is to be read broadly. See Gen. Atomics
v. U.S. Nuclear Regulatory Comm’n, 75 F.3d 536, 539 (9th

84a
Appendix D
Cir. 1996). The Supreme Court has recognized that, “[i]n
the absence of specific evidence of contrary congressional
intent, . . . review of orders resolving issues preliminary
or ancillary to the core issue in a proceeding should be
reviewed in the same forum as the final order resolving
the core issue.” Fla. Power & Light Co. v. Lorion, 470 U.S.
729, 743, 105 S. Ct. 1598, 84 L. Ed. 2d 643 (1985).
a. 	The NRC
Plaintiff alleges a single cause of action for violation of
the APA against the NRC. See generally FAC ¶¶ 100-08.
Specifically, Plaintiff alleges that “[t]he NRC’s grant of the
SONG Defendants’ application for a License Amendment
[in July 2015] was in violation of the Administrative
Procedures Act,” id. ¶ 101, and that, “[s]ince the License
Amendment, Defendant NRC has periodically taken final
action on various requests by the SONGS Defendants to
continue the removal of SNF from wet storage and burial
in defective canisters, including by accepting amendments
to certificates of compliance and granting exemptions from
other statutory and regulatory requirements ( . . . “Other
Agency Actions”).” Id. ¶ 102. Plaintiff alleges that the
NRC “failed to fulfill the procedural and adjudicative
rule-making requirements” with respect to the License
Amendment and Other Agency Actions, see id. ¶ 104,
and that “[t]he License Amendment and Other Agency
Actions were contrary to and in excess of authority of
law, and were arbitrary, capricious, an abuse of discretion,
and otherwise not in accordance with the law.” Id. ¶ 105.
Consequently, “[t]he NRC . . . has acted contrary to and
in excess of its authority,” id. ¶ 106, and “in violation and

85a
Appendix D
contravention of obligations incumbent by operation of law
or in excess of duly delegated authority.” Id. ¶ 107.
The NRC contends that, “[b]y its own terms, Plaintiff’s
cause of action against the NRC is a challenge to a license
amendment issued in July 2015 . . . [, a]nd the basis for
the injunctive relief Plaintiff seeks against the NRC is
the irreparable harm allegedly caused by the License
Amendment.” NRC MTD at 8 (citing FAC ¶¶ 101-06, 109).
Consequently, “[o]nly the Court of Appeals may hear
Plaintiff’s claim that the NRC improperly granted the
License Amendment, which forms the basis for its request
for injunctive relief.” Id. at 6. As for Plaintiff’s allegations
concerning Other Agency Actions, those challenges
“cannot be bifurcated and reviewed by this Court under a
separate jurisdictional theory,” id. at 11 (citing Lorion, 470
U.S. at 742-43), and largely “’flow[ed] from’ and occurr[ed]
‘after’ the License Agreement.” Id. at 13. Further, “the
[challenged] decisions, which Plaintiff characterizes as
‘exemptions enforcement actions,’ are examples of the
Agency exercising its discretion to develop the remedies
it considers appropriate in instances where SCE may have
acted inconsistently with the requirements of its license
of Agency regulations,” which are not exemptions or, “in
any event, . . . []reviewable because [they are] committed
to agency discretion by law.” Id. at 12 (collecting cases).
The NRC urges that Plaintiff’s remedy is to file a petition
for review pursuant to 10 C.F.R. § 2.206 or a petition for
rulemaking pursuant to 10 C.F.R. § 2.802, either of which
provides for judicial review before the Ninth Circuit
pursuant to the Hobbs Act. See id. at 10-11, 13 n.4.

86a
Appendix D
Plaintiff counters that the Hobbs Act does not apply
to all NRC actions, such as “final orders issued in [NRC]
proceedings involving exemptions,” ECF No. 52 at 12
(alteration in original) (quoting Brodsky v. U.S. Nuclear
Regulatory Comm’n, 578 F.3d 175, 180 (2d Cir. 2009)),
and that the “NRC’s many failures involving SONGS
fall outside the Hobbs Act.” Id. (emphasis omitted). For
example, Plaintiff indicates that the NRC has granted
numerous exemptions, some of which involve use of the
decommissioning trust funds, see id. at 13, or defects in
or changes to the design of the Holtec cannisters, see
id. at 14-15, or the filing of event reports. See id. at 15.
Finally, “the relief Public Watchdogs seeks—a temporary
halt to the movement of nuclear fuel and performance of
an independent risk assessment—cannot be secured in a
proceeding before the NRC.” Id. at 16-17.
Noting that Plaintiff does not dispute that its
challenges to the July 2015 License Amendment is
untimely and subject to the Hobbs Act, the NRC responds
that “this Court should dismiss, with prejudice, for lack
of jurisdiction Plaintiff’s claim relating to the License
Amendment.” ECF No. 53 at 2. As for the Other Agency
Actions, “none . . . support the Court exercising jurisdiction
in this case.” Id. First, several of the exemptions Plaintiff
challenges are time-barred under the APA’s six-year
statute of limitations. Id. at 2-3. Second, “any challenge
by Plaintiff to the Certificate of Compliance for the Holtec
system is before the wrong court (and untimely).” Id. at
4. Third, “[m]uch of the conduct that Plaintiff identifies
in the Opposition relates to the Agency’s approach to
enforcement, which is neither an ‘exemption,’ as Plaintiff

87a
Appendix D
contends, nor subject to judicial review,” id.; see also id. at
5-7, because “an agency’s enforcement decision, including
refusal to pursue enforcement action, is presumptively
unreviewable.” Id. at 7 (citing Heckler v. Chaney, 470 U.S.
821, 837, 105 S. Ct. 1649, 84 L. Ed. 2d 714 (1985); City &
Cnty. of S.F. v. U.S. Dep’t of Transp., 796 F.3d 993, 1001
(9th Cir. 2015)).
It is clear that the Court lacks jurisdiction over
Plaintiff’s challenges related to the July 2015 License
Amendment and the Certificate of Compliance for the
Holtec system, both of which are final orders of the
NRC relating to the grant or amendment of a license for
purposes of the Hobbs Act. See, e.g., 10 C.F.R. § 72.210
(granting “[a] general license . . . for the storage of spent
fuel in an independent spent fuel storage installation at
power reactor sites to persons authorized to possess or
operate nuclear power reactors”); 10 C.F.R. § 72.212
(limiting the general license in 10 C.F.R. § 72.210 to
“storage of spent fuel in casks approved under the
provisions of this part”); 10 C.F.R. § 72.214 (listing
approved spent fuel storage casks, including certificates
for several manufactured by Holtec); N.J. Dep’t of Envt’l
Prot. & Energy v. Long Island Power Auth., 30 F.3d 403,
410 (3d Cir. 1994) (affirming district court’s dismissal of
challenges to NRC’s approval of license amendment and
issuance of a certificate of compliance for radioactive
material cannisters for lack of jurisdiction and concluding
that “[t]hese challenges cannot be maintained in the
district court” under the Hobbs Act); Skull Valley Band
of Goshute Indians v. Leavitt, 215 F. Supp. 2d 1232, 1252
(D. Utah 2002) (“Pursuant to the [Hobbs Act], the proper

88a
Appendix D
forum for the review of issues concerning the NRC’s
authority to license the proposed [privately owned] facility
[for storage of spent nuclear fuel] or the propriety of such
a license is the federal courts of appeals.”), aff’d, 376 F.3d
1223 (10th Cir. 2004); Citizens Awareness Network, Inc. v.
U.S. Nuclear Regulatory Comm’n, 854 F. Supp. 16, 18-19
(D. Mass. 1994) (denying motion for preliminary injunction
and dismissing for lack of jurisdiction complaint alleging
that NRC violated the National Environmental Policy Act
by failing to conduct an environmental impact study prior
to approving decommissioning of nuclear power plant
because “the court must address NRC’s decision that [the
operator of the nuclear plant] did not have to amend its
license in order to engage in extensive early component
removal prior to NRC’s approval of a decommissioning
plan,” judicial review of which “must rest with the court
of appeals” pursuant to the Hobbs Act). Plaintiff appears
to have conceded as much by filing a 2.206 petition before
the NRC and an emergency petition for writ of mandate
before the Ninth Circuit.4 See ECF No. 54 Exs. 47-48.
As for the “exemptions from other statutory and
regulatory requirements” comprising the Other Agency
4. As indicated at the November 25, 2019 hearing, the Court is
troubled by Plaintiff’s decision to seek the same relief—a temporary
cessation of the decommissioning efforts at SONGS—simultaneously
before this Court, the NRC, and the Ninth Circuit. Plaintiff’s
scattershot approach has resulted in duplicative review of issues
that may be rendered moot by the NRC’s action on Plaintiff’s 2.206
petition. See Sierra Club v. U.S. Nuclear Regulatory Comm’n, 825
F.2d 1356, 1362 (9th Cir. 1987) (expressing disfavor of entertaining
judicial review of issues that may be mooted by further agency
action).

89a
Appendix D
Actions—to the extent that they are not time-barred and
that Plaintiff has standing to pursue them, see supra
Section I.B.1.a—they tend to touch on “issues preliminary
or ancillary to the” July 2015 License Amendment and the
Certificate of Compliance for the Holtec system, thereby
rendering the Ninth Circuit the appropriate forum
pursuant to the Hobbs Act. See, e.g., Gen. Atomics, 75
F.3d at 539 (affirming district court’s dismissal of lawsuit
concerning the NRC’s imposition of reclamation costs
against an entity without a license granted by the NRC
under the Hobbs Act); Commonwealth Edison Co. v. U.S.
Nuclear Regulatory Comm’n, 830 F.2d 610, 613 (7th Cir.
1987) (concluding that Court of Appeal had jurisdiction
over challenge to the NRC’s license fee regulations);
F.A.C.T.S, Inc. v. U.S. Nuclear Regulatory Comm’n, No.
98-CV-0354E(H), 1998 U.S. Dist. LEXIS 16288, 1998
WL 748340, at *2 (W.D.N.Y. Sept. 11, 1998) (transferring
action to Court of Appeals for lack of jurisdiction where
the plaintiff challenged the NRC’s “determination that
it lacks jurisdiction over certain radioactive materials
located at the [subject] site,” which is a “determination
. . . necessarily preliminary to the type of licensing
proceeding reviewable only in the court of appeals”). Were
the Court to conclude otherwise, this proceeding would
result in the “irrational” “duplication of judicial review in
the district court and court of appeals, with its attendant
delays.” See Lorion, 470 U.S. at 742.
Even if the Other Agency Actions were not ancillary
to matters properly before the Ninth Circuit Court of
appeals, the Court concludes that it lacks jurisdiction to
review those decisions of the NRC under 5 U.S.C. § 701(a)(2),

90a
Appendix D
which exempts from review under the APA “agency action
. . . committed to agency discretion by law.” The Supreme
Court has clarified that this provision applies where “the
statute is drawn so that a court would have no meaningful
standard against which to judge the agency’s exercise of
discretion.” Heckler v. Chaney, 470 U.S. 821, 830, 105 S.
Ct. 1649, 84 L. Ed. 2d 714 (1985). “[A]n agency’s decision
not to . . . enforce . . . is a decision generally committed
to an agency’s absolute discretion,” id. at 831 (collecting
cases); consequently, “an agency’s decision not to take
enforcement action should be presumed immune from
judicial review under § 701(a)(2).” Id. at 832. The Supreme
Court clarified, however, that “the decision is only
presumptively unreviewable,” id., and “may be rebutted
where the substantive statute has provided guidelines
for the agency to follow in exercising its enforcement
powers.” Id. at 833. The Court intimated that an agency’s
decision may also be reviewable where “the agency has
‘consciously and expressly adopted a general policy’
that is so extreme as to amount to an abdication of its
statutory responsibilities.” Id. at 833 n.4 (quoting Adams
v. Richardson, 480 F.2d 1159, 156 U.S. App. D.C. 267 (D.C.
Cir. 1973) (en banc)).
Here, the Other Agency Actions a re la rgely
“exemptions from the rules and regulations promulgated
to ensure that nuclear facilities are operated and
decommissioned safely.” See FAC ¶ 31. In Riverkeeper,
Inc. v. Collins, 359 F.3d 156 (2d Cir. 2004), for example,
the Second Circuit concluded that the NRC’s decision
to not, among other things, change the nuclear power
plant’s spent-fuel storage to a dry-cask system was a

91a
Appendix D
denial of enforcement. See id. at 166 & n.11. Consequently,
the NRC’s “decision [wa]s presumptively not reviewable
unless the presumption [wa]s overcome by one of the
means recognized by Chaney.” Riverkeeper, Inc., 359
F.3d at 166. The Court concludes that Plaintiff has failed
to meet this burden here. See id. at 166-71. Accordingly,
the Court GRANTS the NRC’s Motion and DISMISSES
WITH PREJUDICE Plaintiff’s first cause of action
against the NRC. See Berka v. U.S. Nuclear Regulatory
Comm’n, No. 17-CV-02836 (APM), 2018 U.S. Dist. LEXIS
213142, 2018 WL 7269949, at *2 (D.D.C. Dec. 19, 2018)
(dismissing with prejudice complaint against the NRC
where district court lacked jurisdiction under the Hobbs
Act and the plaintiff’s challenge was not timely pursuant
to 28 U.S.C. § 2344).
b. 	The Private Defendants
Similarly, the Private Defendants contend that the
Court lacks jurisdiction over Plaintiff’s Price-Anderson
Act, public nuisance, and strict products liability causes
of action because Plaintiff is “trying to use [those] laws
to challenge the NRC’s final licensing and certification
decisions regarding spent fuel storage at SONGS,” while
“original jurisdiction to review such NRC licensing
activity is vested exclusively in the United States Courts
of Appeals” pursuant to the Hobbs Act. See Holtec MTD at
7-8; Utility MTD at 22-25. “Further, even if this Court did
have original subject matter jurisdiction to hear Plaintiff’s
claims, it would nevertheless lack jurisdiction because (1)
Plaintiff did not challenge either NRC’s issuance in 2015
of an amendment to the SONGS operating license . . . or

92a
Appendix D
the Holtec [Certificate of Compliance (“COCs”)] within
60 days of the Amendment or the CoCs becoming final
. . . ; and (2) Plaintiff has not exhausted its administrative
remedies.” Holtec MTD at 8-9.
Plaintiff responds that the July 2015 License
Amendment and the Certificate of Compliance for the
Holtec system are “not the basis of Plaintiff’s claims
against the Private Defendants” and that Plaintiff’s claims
are instead predicated on, “among other things, . . . Private
Defendants[‘] . . . secret and material modifications to the
existing canister design (previously approved by the
NRC) without telling the NRC; . . . Holtec[‘s] design[
of] a product[ that] doesn’t conform to its Certificate of
Compliance (“CoC”); and . . . the Private Defendants[‘]
further damage[ to] the canisters while downloading
them.” ECF No. 51 at 8. Further, not “everything they
have done (and continue to do) is under the aegis of the
NRC,” id., and the Private Defendants’ “failure to disclose
noncompliance with material statutory, regulatory, or
contractual requirements” is actionable. Id. at 9 (citing
Campie v. Gilead Scis., Inc., 862 F.3d 890, 901 (9th Cir.
2017)).
The Private Defendants reply that Plaintiff ’s
challenged actions amount to “conduct taken under
license, under the NRC’s regulation, and encompassed
by the Hobbs Act.” ECF No. 54 at 7; see also ECF No. 55
at 2-5. Further, “Plaintiff’s 10 C.F.R. § 2.206 Petition is
a tacit concession that this Court does not have subject
matter jurisdiction to hear this dispute,” ECF No. 55 at
2, and the Court should “not entertain a petition where

93a
Appendix D
pending administrative proceedings or further agency
action might render the case moot and judicial review
completely unnecessary.” Id. at 4 (emphasis omitted)
(quoting Sierra Club, 825 F.2d at 1362); see also ECF
No. 54 at 7-8.
As with Plaintiff’s cause of action against the NRC, see
supra Section I.B.2.a, the Court agrees with the Private
Defendants that the causes of action Plaintiff against
alleges them are premised on conduct that falls under the
Hobbs Act, thereby depriving this Court of jurisdiction.
Plaintiff alleges that, “on July 17, 2015, the NRC granted
the SONGS Defendants’ request for a license amendment
and permitted the SONGS Defendants[] to decommission
the SONGS facility,” FAC ¶ 43, and that the NRC
“accept[ed] amendments to certificates of compliance”
for the Holtec canisters, id. ¶ 102, the design of which
has been changed without the approval of the NRC, id.
¶ 62, and is defective, id. ¶ 60, and of which the Private
Defendants have compromised the structural integrity
by negligently scratching the gouging the walls prior
to burial. Id. ¶¶ 66-68. Plaintiff’s second cause of action
under the Price-Anderson Act is premised on the Private
Defendants’ “burying of SNF in defective canisters that
are destined to fail.” Id. ¶ 116. Plaintiff’s third cause of
action for public nuisance is premised on the Private
Defendants’ “failing to investigate and replace the
substandard canisters” and “inten[tion] to store additional
SNF in these substandard canisters, despite the wellknown defects that render these canisters insufficient
for the task.” Id. ¶ 121. Finally, Plaintiff’s fourth cause of
action for strict products liability is premised on “Holtec’s

94a
Appendix D
defectively designed canisters.” Id. ¶ 135. Ultimately,
these causes of action all trace back to actions that were
taken pursuant to or that were incidental to the NRC’s
issuance of the July 2015 License Amendment or the
certificate of compliance for the Holtec canisters, actions
that must be challenged before the Ninth Circuit pursuant
to the Hobbs Act. See supra Section I.B.2.a.
Because the Court concludes that it lacks jurisdiction
over Plaintiff’s causes of action against the Private
Defendants, the Court GRANTS their Motions and
DISMISSES WITH PREJUDICE Plaintiff’s second,
third, and fourth causes of action. See Berka, 2018 U.S.
Dist. LEXIS 213142, 2018 WL 7269949, at *2.
II. 	Federal Rule of Civil Procedure 12(b)(6)
A. 	Legal Standard
Under Federal Rule of Civil Procedure 12(b)(6), a
party may file a motion to dismiss on the grounds that a
complaint “fail[s] to state a claim upon which relief can be
granted.” A motion to dismiss under Rule 12(b)(6) “tests
the legal sufficiency of a claim.” Navarro v. Block, 250 F.3d
729, 732 (9th Cir. 2001); Bryan v. City of Carlsbad, 209 F.
Supp. 3d 1107, 1114 (S.D. Cal. Mar. 20, 2018).
Because Rule 12(b)(6) focuses on the “sufficiency” of a
claim rather than the claim’s substantive merits, “a court
may [ordinarily] look only at the face of the complaint to
decide a motion to dismiss,” Van Buskirk v. Cable News
Network, Inc., 284 F.3d 977, 980 (9th Cir. 2002), including

95a
Appendix D
the exhibits attached to it. See Fed. R. Civ. P. 10(c) (“A copy
of a written instrument that is an exhibit to a pleading
is a part of the pleading for all purposes.”); Hal Roach
Studios, Inc. v. Richard Feiner & Co., 896 F.2d 1542,
1555 n.19 (9th Cir. 1990) (citing Amfac Mortg. Corp. v.
Ariz. Mall of Tempe, Inc., 583 F.2d 426 (9th Cir. 1978)
(holding that “material which is properly submitted as
part of the complaint may be considered” in ruling on a
Rule 12(b)(6) motion to dismiss). Exhibits that contradict
the claims in a complaint, however, may fatally undermine
the complaint’s allegations. See Sprewell v. Golden State
Warriors, 266 F.3d 979, 988 (9th Cir. 2001) (a plaintiff
can “plead himself out of a claim by including . . . details
contrary to his claims”) (citing Steckman v. Hart Brewing,
Inc., 143 F.3d 1293, 1295-96 (9th Cir. 1998) (“[Courts]
are not required to accept as true conclusory allegations
[that] are contradicted by documents referred to in the
complaint.”))); see also Nat’l Assoc. for Advancement of
Psychoanalysis v. Cal. Bd. of Psychology, 228 F.3d 1043,
1049 (9th Cir. 2000) (holding that courts “may consider
facts contained in documents attached to the complaint”
in determining whether the complaint states a claim for
relief).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007));
Villa v. Maricopa Cnty., 865 F.3d 1224, 1228-29 (9th Cir.
2017). A claim is facially plausible “when the plaintiff

96a
Appendix D
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Iqbal, 556 U.S. at 678. Plausibility
requires pleading facts, as opposed to conclusory
allegations or the “formulaic recitation of the elements of
a cause of action,” Twombly, 550 U.S. at 555, which rise
above the mere conceivability or possibility of unlawful
conduct. Iqbal, 556 U.S. at 678-79; Somers v. Apple, Inc.,
729 F.3d 953, 959-60 (9th Cir. 2013). “Threadbare recitals
of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Iqbal, 556 U.S. at
678. While a pleading “does not require ‘detailed factual
allegations,’” Rule 8 nevertheless “demands more than
an unadorned, the defendant-unlawfully-harmed-me
accusation.” Iqbal, 556 U.S. at 678 (quoting Twombly, 550
U.S. at 555).
Therefore, “[f]actual allegations must be enough
to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555. “Where a complaint pleads facts
that are merely consistent with a defendant’s liability, it
stops short of the line between possibility and plausibility
of entitlement to relief.” Iqbal, 556 U.S. at 678 (citation and
quotes omitted); accord Lacey v. Maricopa Cnty., 693 F.3d
896, 911 (9th Cir. 2012) (en banc). “In sum, for a complaint
to survive a motion to dismiss, the non-conclusory ‘factual
content,’ and reasonable inferences [drawn] from that
content, must be plausibly suggestive of a claim entitling
the plaintiff to relief.” Moss v. U.S. Secret Serv., 572 F.3d
962, 969 (9th Cir. 2009) (quoting Iqbal, 556 U.S. at 678).

97a
Appendix D
B. Analysis
1. 	Sempra
Sempra contends that Plaintiff’s second and third
causes of action against it should “be dismissed because
it is not a proper party to the case” given that “Sempra
is not a direct owner of SONGS and is not a licensee”
and “there are no allegations in the FAC as to Sempra’s
conduct separate from it simply being the ultimate parent
company of SDG&E[,] which is insufficient for liability.”
Utility MTD at 1 n.1 (citing Maple Leaf Adventures Corp.
v. Jet Tern Marine Co., No. 15-CV-02504-AJB-BGS, 2016
U.S. Dist. LEXIS 76157, 2016 WL 3063956, at *6 (S.D.
Cal. Mar. 11, 2016) (“As a general principle, corporate
separateness insulates a parent corporation from liability
created by its subsidiary, notwithstanding the parent’s
ownership of the subsidiary.”) (quoting Ranza v. Nike,
Inc., 793 F.3d 1059, 1070 (9th Cir. 2015))). Plaintiff counters
that “[t]he Amended Complaint alleges that Sempra, as
one of the SONGS Defendants, is equally responsible
for the unlawful activity described therein” and “that
Sempra’s conduct establishes a pattern of corporate
conduct relevant to its claims.” ECF No. 51 (citing FAC
¶ 7 & n.3).
“It is a general principle of corporate law deeply
‘ingrained in our economic and legal systems’ that a
parent corporation (so-called because of control through
ownership of another corporation’s stock) is not liable for
the acts of its subsidiaries.” United States v. Bestfoods,
524 U.S. 51, 61, 118 S. Ct. 1876, 141 L. Ed. 2d 43 (1998).

98a
Appendix D
“[A]ctivities that involve the facility but which are
consistent with the parent’s investor status, such as
monitoring of the subsidiary’s performance, supervision
of the subsidiary’s finance and capital budget decisions,
and articulation of general policies and procedures, should
not give rise to direct liability.” Id. at 72 (alteration in
original). But a parent company may be “directly liable for
its own actions” where “the alleged wrong can seemingly
be traced to the parent through the conduit of its own
personnel and management” and “the parent is directly
a participant in the wrong complained of.” See id. at
64-65. Additionally, “the corporate veil may be pierced
and the [parent company] held liable for the [subsidiary]
corporation’s conduct when, inter alia, the corporate
form would otherwise be misused to accomplish certain
wrongful purposes, most notably fraud, on the [parent
company]’s behalf.” Id. at 62.
Here, Plaintiff alleges that “[Sempra] is the parent
company of SDG&E doing business within the state
of California,” FAC ¶ 7, and that “Sempra is currently
under investigation for its role in the massive natural gas
leak in Aliso Canyon.” Id. n.3. Although there are many
allegations pertaining to the “SONGS Defendants,” see,
e.g., id. ¶¶ 18-19, 21-26, 29-30, 32-39, 41-44, 50, 52-53, 56,
58-59, 62-69, 71-74, 76-80, 85, 93-94, 96-99, which Plaintiff
defines to include Sempra, see id. ¶ 8, there are only
passing references to Sempra in the Amended Complaint,
none of which allege particular actions taken by Sempra.
See id. ¶ 116, 119. Consequently, Plaintiff’s Amended
Complaint contains no allegations supporting Sempra’s
liability, either directly or vicariously.

99a
Appendix D
Further, a review of Plaintiff’s voluminous exhibits
indicates that the filings and correspondence from the
NRC neither mentions nor is addressed to—or even
copied to—anybody identified as working at Sempra. See
generally FAC Exs. 8, 10, 13-23, 37. Given the absence of
any allegations concerning Sempra’s direct involvement in
the actions underlying Plaintiff’s second and third causes
of action or any allegations supporting the piercing of the
corporate veil such that Sempra may be held liable for the
actions of SDG&E, the Court concludes that Plaintiff has
failed to state a claim against Sempra. See, e.g., Saaiman
v. Am. Gen. Life Ins. Co., Inc., No. 18-CV-596-BTM-AGS,
2019 U.S. Dist. LEXIS 70265, 2019 WL 1864858, at *2
(S.D. Cal. Apr. 25, 2019) (concluding that the plaintiff
had failed to state a claim against parent company under
theories of direct or vicarious liability where the plaintiff
failed to allege any wrongful actions taken by the parent
company or any facts supporting agency or alter ego
theories). Accordingly, the Court GRANTS Sempra’s
Motion and DISMISSES Plaintiff’s second and third
causes of action against it.
2. 	Second Cause of Action: Violation of the
Public Liability Action for Violation of the
Price-Anderson Act, 42 U.S.C. § 2210(n),
Against the Private Defendants
The Price-Anderson Act provides, in relevant part:
With respect to any public liability action
arising out of or resulting from a nuclear
incident, the United States district court in

100a
Appendix D
the district where the nuclear incident takes
place . . . shall have original jurisdiction without
regard to the citizenship of any party or the
amount in controversy.
42 U.S.C. § 2210(n)(2). The Act defines “public liability” as
“any legal liability arising out of or resulting from a nuclear
incident,” 42 U.S.C.A. § 2014(w), and “nuclear incident”
as “any occurrence, including an extraordinary nuclear
occurrence, within the United States causing, within or
outside the United States, bodily injury, sickness, disease,
or death, or loss of or damage to property, or loss of use of
property, arising out of or resulting from the radioactive,
toxic, explosive, or other hazardous properties of source,
special nuclear, or byproduct material.” 42 U.S.C.A.
§ 2014(q).
Plaintiff alleges that the Private Defendants “have
caused an ‘occurrence’ and thereby created a ‘nuclear
incident’ and ‘public liability’ within the meaning of
the Price Anderson Act” by “burying SNF in defective
canisters that are destined to fail.” FAC ¶ 116. The Private
Defendants contend that Plaintiff cannot state a cause of
action under the Price-Anderson Act because there has
not been a “nuclear incident” as defined by the statute. See
Holtec MTD at 9-17; Utility MTD at 13-14. Specifically,
Plaintiff has not alleged that anybody has been exposed
to radiation in excess of the federal dose limits, see Holtec
MTD at 11-15, or that anybody has suffered physical harm
to their person or property as a result of such exposure.
See id. at 15-17.

101a
Appendix D
Plaintiff counters that “the PAA does not require a
completed nuclear catastrophe before public intervention
becomes appropriate.” ECF No. 51 at 10. Plaintiff urges
that “[t]he PAA claim must—statutorily—be considered
in light of the nuisance claim,” which “allows a court to
step-in and step-on a prospective nuisance.” Id. at 12.
Plaintiff contends that it “alleges that Holtec’s defective
cannisters and their negligent installation will lead to
‘lethal’ and ‘deadly’ releases of radiation, which would
never be allowed under any reasonable reading of federal
regulations.” Id. at 14 (quoting FAC ¶¶ 45-46). Further,
“a completed radiation injury is not a prerequisite to
equitable PAA relief.” Id.
On reply, the Private Defendants note that “[n]o
authority cited in the Opposition contradicts binding Ninth
Circuit precedent which holds that a viable PAA [claim]
requires 1) physical harm to persons and property; and
2) the release of radiation above the federal limits.” ECF
No. 54 at 8 (citing In re Berg Litig., 293 F.3d 1127, 1131
(9th Cir. 2002); O’Connor v. Boeing N. Am., Nos. CV 971554 DT (RCx) et al., 2005 U.S. Dist. LEXIS 46226, 2005
WL 6035255, at *39-40 (C.D. Cal. Aug. 18, 2005)); see also
ECF No. 55 at 5-8.
The Court agrees with the Private Defendants.
Despite Plaintiff ’s arguments to the contrary, the
Ninth Circuit has recognized that “[p]hysical harm to
persons or property is . . . a jurisdictional prerequisite”
to a cause of action under the Price-Anderson Act. In
re Berg Litig., 293 F.3d at 1131. Plaintiff’s attempt to
dispense with this requirement under the anticipatory

102a
Appendix D
nuisance doctrine “would be inconsistent with the Act’s
‘bodily injury’ requirement.” See id. (rejecting argument
that the plaintiffs could assert claims for emotional
distress under the Price-Anderson Act despite not
having suffered a physical injury because Washington
law permits emotional distress claims in the absence
of physical injury). Further, “[e]very Court of Appeals
that has decided the duty or standard of care issue has
held that the plaintiff must prove a dose in excess of the
federal permissible dose limits in order to show a breach
of duty in a Price-Anderson Act [public liability action
(“PLA”)].” O’Connor, 2005 U.S. Dist. LEXIS 46226, 2005
WL 6035255, at *40 (collecting cases). This means that
“[a]n essential element of any [public liability action] is that
the plaintiff’s exposure exceed the federal dose limits.”
2005 U.S. Dist. LEXIS 46226, [WL] at *39 (collecting
cases). Because Plaintiff alleges neither that Defendants
have caused exposure to radiation in excess of the federal
limits nor that Plaintiff or any of its members has suffered
physical harm, see FAC ¶¶ 112-17, the Court GRANTS the
Private Defendants’ Motions and DISMISSES Plaintiff’s
second cause of action.
3. 	State Law Causes of Action
a. 	Preemption
The Supreme Court has recognized that “state law can
be preempted in either of two general ways.” Silkwood v.
Kerr-McGee Corp., 464 U.S. 238, 248, 104 S. Ct. 615, 78
L. Ed. 2d 443 (1984). First, “[i]f Congress evidences an
intent to occupy a given field, any state law falling within

103a
Appendix D
that field is preempted.” Id. (collecting cases). Second, “[i]f
Congress has not entirely displaced state regulation over
the matter in question, state law is still preempted to the
extent it actually conflicts with federal law, that is, when
it is impossible to comply with both state and federal law
. . . , or where the state law stands as an obstacle to the
accomplishment of the full purposes and objectives of
Congress.” Id. (citation omitted).
The Private Defendants contend that Plaintiff’s state
law causes of action for public nuisance and strict products
liability are preempted by the AEA, which occupies the
field of nuclear safety. See Holtec MTD at 17-20; Utility
MTD at 14-18. Plaintiff counters that “the source of any
preemption must be the PAA specifically rather than the
AEA generally” and that the Price-Anderson Act does not
preempt state-law claims for plaintiffs who cannot plead
nuclear incidents under the Price-Anderson Act. See ECF
No. 51 at 15-16. Consequently, “Plaintiff is entitled to relief
either under the PAA (using California tort law to supply
the rules of decision) or directly under California tort law.”
Id. at 16. The Private Defendants reply that “Plaintiff fails
to address any of [their] case law concerning preemption
under the Atomic Energy Act, including law holding that
nuisance and strict liability claims dealing with nuclear
safety are preempted.” ECF No. 54 at 2 (citing In re
Hanford Nuclear Reservation Litig., 534 F.3d 986, 1003
(9th Cir. 2008); Laine v. Weinberger, 541 F. Supp. 599, 604
(C.D. Cal. 1982)); see also ECF No. 55 at 2 (citing United
States v. Manning, 527 F.3d 828 (9th Cir. 2008); Laine,
541 F. Supp. at 604).

104a
Appendix D
The Court finds that Plaintiff’s state law claims
are preempted by the AEA, which occupies the field for
protection against hazards of radiation and the disposal
of radioactive materials. According to Congress, the
AEA was intended, among other purposes, to provide
for “a program for Government control of the possession,
use, and production of atomic energy and special nuclear
material.” 42 U.S.C. § 2013 (c). Although recognizing the
interests of the States, see 42 U.S.C. § 2021(a), Congress
explicitly reserved to the NCR the responsibility to
regulate “the disposal of . . . nuclear material as the
Commission determines by regulation or order should,
because of the hazards or potential hazards thereof, not
be so disposed of without a license from the Commission,”
see 42 U.S.C. § 2021(c)(4), and “activities for . . . protection
against radiation hazards.” See 42 U.S.C. § 2021(k).
Here, Plaintiff ’s state law causes of action are
predicated on potential radiation hazards that may result
from the disposal of nuclear material. See, e.g., FAC
¶¶ 121 (“Unless restrained by this Court, the Nuisance
Defendants intend to and will continue to maintain
the nuisance by failing to investigate and replace the
substandard canisters, which are currently used to store
SNF. Worse still, the Nuisance Defendants intend to
store additional SNF in these substandard canisters,
despite the well-known defects that render these canisters
insufficient for the task.”), 125 (“Unless the public nuisance
activities of the Nuisance Defendants’ remediation plan
are restrained by a preliminary and permanent injunction,
Plaintiffs and the citizens of the surrounding area will
suffer great and irreparable injury in that additional

105a
Appendix D
nuclear waste will be stored in containers significantly
more prone to malfunction.”), 135 (“As a direct and
proximate cause of Holtec’s defectively designed canisters,
Plaintiff and the citizens of and visitors to California
have suffered and will suffer damage including, but not
limited to, imminent threat of harm in the form of a
catastrophic release of deadly nuclear waste.”). As such,
they are preempted by the AEA. See, e.g., Brown v.
Kerr-McGee Chem. Corp., 767 F.2d 1234, 1242 (7th Cir.
1985) (“[P]laintiffs’ request for an injunction ordering the
[nuclear] wastes moved elsewhere is preempted because,
if granted, the injunction would stand ‘as an obstacle to
the accomplishment of the full purposes and objectives’
of federal regulation of radiation hazards.”) (quoting
Silkwood, 464 U.S. at 248); Pennsylvania v. Gen. Pub.
Utils. Corp., 710 F.2d 117, 120 (3d Cir. 1983) (“Private
litigants therefore may not obtain by way of injunctive
relief pursuant to state law an order abating as a public
nuisance, because of public safety hazards, activity of a
duly licensed nuclear energy electric generating plant.”);
Dailey v. Bridgeton Landfill, LLC, 299 F. Supp. 3d 1090,
1099 (E.D. Mo. 2017) (“The allegations of the [plaintiffs]’
nuisance claims fall within the purview of PAA and are
therefore preempted like any other state-law claims.”);
Lawson v. Gen. Elec. Co., 140 F. Supp. 3d 968, 974 (N.D.
Cal. 2015) (“Plaintiff’s second and third causes of action
are preempted by Price-Anderson because they are
based on the theory of strict liability.”) (citing O’Connor,
2005 U.S. Dist. LEXIS 46226, 2005 WL 6035255 at *43);
Osarczuk v. Associated Univs., Inc., 36 A.D.3d 872, 830
N.Y.S.2d 711, 714 (N.Y. App. Div. 2007) (“[T]he Act and
Act Amendments preempt all state common-law causes

106a
Appendix D
of action and theories of relief which might otherwise
address radiological exposure from nuclear facilities,
including negligence, strict liability based on engagement
in an ultrahazardous activity, and nuisance.”); Md. Heights
Leasing, Inc. v. Mallinckrodt, Inc., 706 S.W.2d 218, 222-23
(Mo. Ct. App. 1985) (“Private litigants may not obtain state
law injunctive relief against nuclear facilities for radiation
hazards since public protection from radiation hazards is
exclusively a federal concern.”); Marshall v. Consumers
Power Co., 65 Mich. App. 237, 247, 237 N.W.2d 266 (1975)
(concluding that action for nuisance based on radioactive
hazard was preempted by the AEA). Consequently, the
Court GRANTS the Private Defendants’ Motions and
DISMISSES Plaintiff’s third and fourth causes of action
as preempted by the AEA.
b. 	T hi rd Cause of Action: Public
Nuisance in Violation of California
Civil Code §§ 3479-3480 Against the
Private Defendants
In addition to arguing that the claim is preempted
by the AEA, see supra Section II.B.3.a, the Private
Defendants contend that “Plaintiff lacks standing to bring
a public nuisance claim under California law because
Plaintiff has not alleged a special injury to its person
property,” Utility MTD at 19; see also Holtec MTD at
21-22, and “Plaintiff’s public nuisance claim is barred
by California Civil Code section 3482, which provides
that ‘nothing which is done or maintained under the
express authority of a statute can be deemed a nuisance.’”
Holtec MTD at 20 (quoting Friends of H St. v. City of

107a
Appendix D
Sacramento, 20 Cal. App. 4th 152, 160, 24 Cal. Rptr. 2d
607 (1993)); Utility MTD at 18 (same).
i. 	Special Injury
Under California law, “a private individual . . . does
not have a cause of action on account of a public nuisance
unless he alleges facts showing special injury to himself in
person or property of a character different in kind from
that suffered by the general public.” Brown v. Petrolane,
Inc., 102 Cal. App. 3d 720, 725, 162 Cal. Rptr. 551 (1980)
(emphasis in original) (collecting cases). “Under this rule[,]
the requirement is that the plaintiff’s damage be different
in kind, rather than in degree, from that shared by the
general public.” Id. (collecting cases).
The Private Defendants contend that “Plaintiff lacks
standing to bring a public nuisance claim under California
law because Plaintiff has not alleged a special injury to
its person or property.” Utility MTD at 19; see also id.
at 19-20; Holtec MTD at 21-22. Plaintiff responds that
“a public nuisance that interferes with a not-for-profit
organization’s ability to fulfill its corporate mission (as
Private Defendants’ public nuisance does) can—and does—
constitute a special injury for the purposes of California’s
public nuisance laws.” ECF No. 51 at 22. “Furthermore,
Plaintiff’s allegations in the instant case establish that
Private Defendants’ conduct creates a credible risk of
probabilistic harm to Plaintiff that is different in kind
from the harm suffered by the general public” because
“[t]he Private Defendants’ conduct constitutes a public
nuisance of the precise type that Plaintiff was created to

108a
Appendix D
prevent.” Id. at 22-23. The Private Defendants note that
“Plaintiff concedes that it has not alleged any property
damage or any injury to itself [or] any of its members”
and that “Plaintiff has not cited a single case for the
proposition that injury to its ‘organization[al] mission . . . ‘
is a cognizable injury under California law.” ECF No. 55
at 9; see also ECF No. 54 at 9. Further, “Plaintiff does
not, and cannot, make an argument that the public does
not have an interest in government agencies and special
interests following all applicable laws.” ECF No. 55 at 9.
The Court concludes that Plaintiff has failed to allege
a special injury as required to maintain a cause of action
for public nuisance. The Private Defendants are correct
that Plaintiff has identified no authority in support of its
proposition that injury to its “organization[al] mission”
suffices as a “special injury” for purposes of California’s
public nuisance law. In the absence of contrary authority,
the Court must conclude that Plaintiff’s concerns are
shared by “the entire community of the Southern District
of California,” see FAC ¶ 119, including “all those living or
working near the temporary storage area, including the
major metropolitan areas of San Diego, Irvine, Riverside,
San Clemente, and others.” Id. ¶ 122. Accordingly, the
Court concludes that Plaintiff has failed to allege a
special injury as required to maintain an action for public
nuisance; the Court therefore GRANTS the Private
Defendants’ Motion and DISMISSES Plaintiff’s third
cause of action. See, e.g., Koll-Irvine Ctr. Prop. Owners
Ass’n v. Cnty. of Orange, 24 Cal. App. 4th 1036, 104041, 29 Cal. Rptr. 2d 664 (1994) (affirming dismissal of
action for public nuisance asserted by property owners’

109a
Appendix D
association alleging that it would suffer special injury due
to its proximity to alleged nuisance because its “proximity
arguably exposes it to a higher degree of these damages,
but not to a different kind altogether”); see also Simpson
v. Cal. Pizza Kitchen, Inc., 989 F. Supp. 2d 1015, 1025
(S.D. Cal. 2013) (dismissing public nuisance claim for
lack of standing where the “[p]laintiff has failed to allege
sufficient facts to demonstrate a special injury”).
ii. 	Section 3482
The Private Defendants also contend that “Plaintiff’s
public nuisance claim is barred by California Civil Code
section 3482, which provides that ‘nothing which is done or
maintained under the express authority of a statute can be
deemed a nuisance.’” Utility MTD at 18 (quoting Friends
of H St., 20 Cal. App. 4th at 160); Holtec MTD at 20 (same).
Specifically, the Private Defendants note that the NRC
certified the Holtec System as “approved for storage of
spent fuel” in 10 C.F.R. § 72.214 and the construction of
the SONGS ISFSI in 10 C.F.R. § 72.210. See Holtec MTD
at 21; Utility MTD at 19. Because Plaintiff’s allegations
relate to activities authorized by regulation, they cannot
be a public nuisance. See id. (citing Dina v. People ex rel.
Dep’t of Trans., 151 Cal. App. 4th 1029, 1053, 60 Cal. Rptr.
3d 559 (2007); Friends of H St., 20 Cal. App. 4th at 163;
Orpheum Bldg. Co. v. S.F. Bay Area Rapid Transit Dist.,
80 Cal. App. 3d 863, 876, 146 Cal. Rptr. 5 (1978); Lombardy
v. Peter Kiewit Sons’ Co., 266 Cal. App. 2d 599, 605, 72
Cal. Rptr. 240 (1968)).

110a
Appendix D
Plaintiff counters that “a regulatory scheme that
‘impose[s] the design, siting, operation, and safety
requirements’ will not” bar Plaintiff’s nuisance claim
under Section 3482. ECF No. 51 at 16 (quoting Wilson v.
S. Cal. Edison Co., 234 Cal. App. 4th 123, 157, 184 Cal.
Rptr. 3d 26 (2015)). Consequently, “Private Defendants
must hunt for and find a statute that expressly permits
them to defectively design canisters and negligently install
them.” Id.
Defendants rejoin that, “[u]nder the AEA, the NRC
regulatory authority covers the field of nuclear safety,
and pursuant to the statutory authority, NRC certified
via rulemaking the Holtec System at issue herein, as well
as the 2015 License Amendment approval for SONGS.”
ECF No. 55 at 10; see also ECF No. 54 at 10. To the extent
Plaintiff attempts to avoid Section 3482 “by alleging
flaws in the NRC licensing and certification processes
. . . Plaintiff’s remedy lies with a petition under 10 C.F.R.
§ 2.[2]06 and an action before the Ninth Circuit Court
under the Hobbs Act — not with a public nuisance claim.”
ECF No. 55 at 10.
Again, the Court agrees with the Private Defendants.
To the extent that Plaintiff’s nuisance cause of action is
predicated on the Private Defendants’ actions pursuant to
licenses and certificates issued by the NRC, it is barred
by Section 3482. See supra Section I.B.2.b; see also, e.g.,
Carson Harbor Vill., Ltd. v. Unocal Corp., 270 F.3d 863,
888 (9th Cir. 2001) (“Here, the Water Quality Board issued
NPDES permits to the Government Defendants in 1990
and 1996. Those permits authorized the discharge of storm

111a
Appendix D
water containing pollutants, and there is no evidence that
there was any lead-contaminated storm water runoff to
the property prior to 1994 or a violation of the permits.
Therefore, the district court properly granted summary
judgment to the Government Defendants on the state
law claims.”); SF Chapter of A. Philip Randolph Inst.
v. U.S. E.P.A., No. C 07-04936 CRB, 2008 U.S. Dist.
LEXIS 27794, 2008 WL 859985, at *5 (N.D. Cal. Mar.
28, 2008) (“Case law interpreting § 3482 suggests that
a nuisance claim cannot lie against a state agency that
issues permits allowing the discharge of pollutants so
long as the permits are issued pursuant to statutory
authority.”) (citing Carson Harbor Vill., 270 F.3d at 888);
Union City v. S. Pac. Co., 261 Cal. App. 2d 277, 281, 67
Cal. Rptr. 816 (1968) (“What is Required by a statute,
including what is required by an authorized commission
acting under authority of statute, cannot be a nuisance.”);
see also North Carolina ex rel. Cooper v. Tenn. Valley
Auth., 615 F.3d 291, 310 (4th Cir. 2010) (“TVA’s plants
cannot logically be public nuisances under Alabama and
Tennessee law where TVA is in compliance with EPA
NAAQS, the corresponding state SIPs, and the permits
that implement them.”); N.Y. State Energy Research &
Dev. Auth. v. Nuclear Fuel Servs., Inc., 102 F.R.D. 18, 26
(W.D.N.Y. 1983) (“[T]he mere shipment of such nuclear
fuel, without more, cannot be found to constitute common
law nuisance in light of the express authorization for such
transportation under federal law.”). 5
5. A decision from the California Court of Appeal, Third
District, which was depublished when the Supreme Court of
California granted review, supports this conclusion. See Akins v.
Sacramento Mun. Util. Dist., 6 Cal. App. 4th 1605, 12 Cal. App.

112a
Appendix D
The California Supreme Court has recognized that,
“although an activity authorized by statute cannot be a
nuisance, the manner in which the activity is performed
may constitute a nuisance,” Greater Westchester
Homeowners Ass’n v. City of L.A., 26 Cal. 3d 86, 101,
160 Cal. Rptr. 733, 603 P.2d 1329 (1979) (emphasis
in original) (quoting Venuto, 22 Cal. App. 3d at 129);
however, to the extent Plaintiff wishes to challenge
the NRC’s authorization of the Utility Defendants’ and
Holtec’s alleged safety violations under these licenses
and certificates, see FAC ¶¶ 31-44, 85-108, Plaintiff’s
recourse lies under 10 C.F.R. § 2.206(a). See ECF No. 54
Ex. 47. Consequently, the Court GRANTS the Private
Defendants’ Motions as to Plaintiff’s nuisance cause of
action and DISMISSES Plaintiff’s third cause of action.
c. 	Four th Cause of Action: Strict
Products Liability Against Holtec
Plaintiff alleges a cause of action for strict products
liability against Holtec, see FAC ¶¶ 127-35, and alleges
that, “[a]s a direct and proximate cause of Holtec’s
defectively designed canisters, Plaintiff and the citizens
of and visitors to California have suffered and will suffer
4th 208, 8 Cal. Rptr. 2d 785 (1992) (“[A] plaintiff cannot predicate a
nuisance case upon the mere existence of a facility or activity which
is statutorily authorized or upon anxiety caused by mere knowledge
of its presence.”) (citing Varjabedian v. City of Madera, 20 Cal. 3d
285, 292, 142 Cal. Rptr. 429, 572 P.2d 43 (1977); Venuto v. OwensCorning Fiberglas Corp., 22 Cal. App. 3d 116, 129, 99 Cal. Rptr. 350
(1971)), review granted & opinion superseded, 11 Cal. Rptr. 2d 329,
834 P.2d 1147, 834 P.2d 329 (Cal. 1992).

113a
Appendix D
damage including, but not limited to, imminent threat
of harm in the form of a catastrophic release of deadly
nuclear waste.” Id. ¶ 135. Holtec argues that “Plaintiff
does not have standing under California strict liability
law” because “California law bars [plaintiffs] who have
not suffered personal injury of incurred property damage
as a result of an alleged safety-related design defect from
asserting a strict liability action” and “Plaintiff does not
allege that it, or any of its members, actually suffered
injury to its person or property.” Holtec MTD at 22
(alteration in original) (quoting Bishop v. Saab Auto. A.B.,
No. CV 95-0721 JGD(JRX), 1996 U.S. Dist. LEXIS 22890,
1996 WL 33150020, at *5 (Feb. 16, 1996)).
Plaintiff does not respond to Holtec’s argument in
its Opposition. See generally ECF No. 51. Under Ninth
Circuit precedent, the Court therefore considers Plaintiff
to have abandoned its strict liability cause of action. See
Jenkins v. Cnty. of Riverside, 398 F.3d 1093, 1095 n.4
(9th Cir. 2005) (dismissing causes of action as abandoned
where plaintiff did not oppose dismissal in her opposition);
Shull v. Ocwen Loan Servicing, LLC, No. 13-CV-2999
BEN (WVG), 2014 U.S. Dist. LEXIS 50686, 2014 WL
1404877, at *2 (S.D. Cal. Apr. 10, 2014) (“Where a party
fails to address arguments against a claim raised in a
motion to dismiss, the claims are abandoned and dismissal
is appropriate.”); see also Walsh v. Nev. Dep’t of Human
Res., 471 F.3d 1033, 1037 (9th Cir. 2006) (holding that the
plaintiff forfeited her right to raise an issue on appeal
because her opposition to a motion to dismiss failed to
suggest a continuing interest in pursuing the claim and
therefore “effectively abandoned” it).

114a
Appendix D
In any event, Holtec is correct that, “[u]nder the
product liability law of California, injury to the plaintiff
from a defective product is an essential element of a cause
of action.” Kanter v. Warner-Lambert Co., 99 Cal. App.
4th 780, 790, 122 Cal. Rptr. 2d 72 (2002) (collecting cases);
see also Opperman v. Path, Inc., 87 F. Supp. 3d 1018,
1054 (N.D. Cal. 2014) (“[R]ecovery under the doctrine of
strict liability is limited solely to ‘physical harm to person
or property.’”) (quoting Jimenez v. Super. Ct., 29 Cal.
4th 473, 482, 127 Cal. Rptr. 2d 614, 58 P.3d 450 (2002));
Restatement (Third) of Torts: Prod. Liab. § 1 cmt. d (1998)
(“The rule stated in this Section applies only to harm to
persons or property, commonly referred to as personal
injury and property damage.”). Here, Plaintiff alleges no
injury to itself or its members; rather, it alleges only an
“imminent threat of harm.” See FAC ¶ 135. Accordingly,
the Court concludes that Plaintiff has failed to allege a
strict products liability cause of action against Holtec and
DISMISSES Plaintiff’s fourth cause of action. See, e.g.,
Kanter, 99 Cal. App. 4th at 790-91 (affirming dismissal
where “[p]laintiffs acknowledge that their complaint does
not allege any personal injury or injury to property as a
result of using defendants’ products”).
PLAINTIFF’S MOTION FOR PRELIMINARY
INJUNCTION
“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his
favor, and that an injunction is in the public interest.”

115a
Appendix D
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20, 129
S. Ct. 365, 172 L. Ed. 2d 249 (2008). Because the Court
concludes that it lacks jurisdiction over this action and that
Plaintiff has failed to state a plausible claim for relief, the
Court concludes that Plaintiff is unlikely to succeed on the
merits. Accordingly, the Court DENIES Plaintiff’s Motion
for Preliminary Injunction. See, e.g., Sports Form, Inc. v.
United Press Int’l, Inc., 686 F.2d 750, 753 (9th Cir. 1982)
(affirming district court’s denial of preliminary injunction
where the plaintiff “had failed to show any chance of
success on the merits,” which “made a determination of
potential injury or a balancing of hardships unnecessary”);
Kelley v. Mortg. Elec. Registration Sys., Inc., 642 F.
Supp. 2d 1048, 1059 (N.D. Cal. 2009) (granting motions
to dismiss and therefore denying motion for preliminary
injunction for failure to show likelihood of success on the
merits); see also Angelotti Chiropractic, Inc. v. Baker,
791 F.3d 1075, 1088 (9th Cir. 2015) (reversing district
court’s grant of preliminary injunction where there was
no “serious question” going to the merits of the claim and,
consequently, reversing district court’s denial of motion
to dismiss as to that claim); Washington v. O’Dell, No.
3:17-CV-1615-MMA-PCL, 2018 U.S. Dist. LEXIS 69854,
2018 WL 1942372, at *10 (S.D. Cal. Apr. 25, 2018) (denying
preliminary injunction when granting motion to dismiss);
Physician’s Surrogacy, Inc. v. German, No. 17CV718MMA (WVG), 2018 U.S. Dist. LEXIS 16261, 2018 WL
638229, at *11 (S.D. Cal. Jan. 31, 2018) (same); Wallace v.
Sosa, No. 16-CV-01501-BAS-BGS, 2017 U.S. Dist. LEXIS
15715, 2017 WL 469140, at *4-5 (S.D. Cal. Feb. 3, 2017)
(same); Ananiev v. Aurora Loan Servs., LLC, No. C 122275 SI, 2012 U.S. Dist. LEXIS 95441, 2012 WL 2838689,
at *8 (N.D. Cal. July 10, 2012) (same).

116a
Appendix D
CONCLUSION
In light of the foregoing, the Court GRANTS
Defendants’ Motions to Dismiss (ECF Nos. 41, 42, 47).
Specifically, the Court CONCLUDES that it lacks subjectmatter jurisdiction as to all of Plaintiff’s causes of action
and that Plaintiff fails to allege facts sufficient to state a
claim as to its second, third, and fourth causes of action.
Because the Court concludes that the jurisdictional defects
enumerated above cannot be cured by further amendment,
the Court DISMISSES WITH PREJUDICE Plaintiff’s
First Amended Complaint. Accordingly, the Court
DENIES Plaintiffs’ Amended Motion for Preliminary
Injunction (ECF Nos. 2, 5). The Clerk of Court SHALL
CLOSE the file.
IT IS SO ORDERED.
Dated: December 3, 2019
/s/ Janis L. Sammartino
Hon. Janis L. Sammartino
United States District Judge

117a
Appendix
E
APPENDIX
E — RELEVANT
STATUTORY PROVISIONS
28 U.S.C. § 2342. Jurisdiction of court of appeals
The court of appeals (other than the United States
Court of Appeals for the Federal Circuit) has exclusive
jurisdiction to enjoin, set aside, suspend (in whole or in
part), or to determine the validity of—
(1) all final orders of the Federal Communications
Commission made reviewable by section 402(a) of
title 47;
(2) all final orders of the Secretary of Agriculture
made under chapters 9 and 20A of title 7 [7 USCS §§
181 et seq. and §§ 501 et seq.], except orders issued
under sections 210(e), 217a, and 499g(a) of title 7 [7
USCS §§ 210(e), 217a, and 499g(a)];
(3) all rules, regulations, or final orders of—
(A) the Secretary of Transportation issued
pursuant to section 50501, 50502, 56101–56404,
or 57109 of title 46 [46 USCS §§ 50501, 50502,
56101–56404, or 57109] or pursuant to part B or
C of subtitle IV, subchapter III of chapter 311,
chapter 313, or chapter 315 of title 49 [49 USCS §§
13101 et seq., 15101 et seq., 31131 et seq., 31301 et
seq., or 31501 et seq.]; and
(B) the Federal Maritime Commission issued
pursuant to section 305, 41304, 41308, or 41309 or
chapter 421 or 441 of title 46 [46 USCS § 305, 41304,
41308, or 41309 or §§ 42101 et seq. or 44101 et seq.];

118a
Appendix E
(4) all final orders of the Atomic Energy Commission
made reviewable by section 2239 of title 42;
(5) all rules, regulations, or final orders of the Surface
Transportation Board made reviewable by section 2321
of this title [28 USCS § 2321];
(6) all final orders under section 812 of the Fair
Housing Act [42 USCS § 3612]; and
(7) all final agency actions described in section 20114(c)
of title 49.
Jurisdiction is invoked by filing a petition as provided by
section 2344 of this title [28 USCS § 2344].

119a
Appendix E
42 U.S.C. § 2014. Definitions
The intent of Congress in the definitions as given in this
section should be construed from the words or phrases
used in the definitions. As used in this Act [42 USCS §§
2011 et seq.]:
(a) The term “agency of the United States” means the
executive branch of the United States, or any Government
agency, or the legislative branch of the United States,
or any agency, committee, commission, office, or other
establishment in the legislative branch, or the judicial
branch of the United States, or any office, agency,
committee, commission, or other establishment in the
judicial branch.
(b) The term “agreement for cooperation” means any
agreement with another nation or regional defense
organization authorized or permitted by sections 54, 57,
64, 82, 91(c), 103, 104, or 144 [42 USCS § 2074, 2077, 2094,
2112, 2121(c), 2133, 2134, or 2164], and made pursuant to
section 123 [42 USCS § 2153].
(c) The term “atomic energy” means all forms of energy
released in the course of nuclear fission or nuclear
transformation.
(d) The term “atomic weapon” means any device utilizing
atomic energy, exclusive of the means for transporting or
propelling the device (where such means is a separable
and divisible part of the device), the principal purpose
of which is for use as, or for development of, a weapon, a
weapon prototype, or a weapon test device.

120a
Appendix E
(e) The term “byproduct material” means—
(1) any radioactive material (except special nuclear
material) yielded in or made radioactive by exposure
to the radiation incident to the process of producing
or utilizing special nuclear material;
(2) the tailings or wastes produced by the extraction
or concentration of uranium or thorium from any ore
processed primarily for its source material content;
(3)
(A) any discrete source of radium-226 that is
produced, extracted, or converted after extraction,
before, on, or after the date of enactment of this
paragraph [enacted Aug. 8, 2005] for use for a
commercial, medical, or research activity; or
(B) any material that—
(i) has been made radioactive by use of a
particle accelerator; and
(ii) is produced, extracted, or converted
after extraction, before, on, or after the date
of enactment of this paragraph for use for a
commercial, medical, or research activity; and
(4) any discrete source of naturally occurring
radioactive material, other than source material,
that—

121a
Appendix E
(A) the Commission, in consultation with the
Administrator of the Environmental Protection
Agency, the Secretary of Energy, the Secretary
of Homeland Security, and the head of any other
appropriate Federal agency, determines would
pose a threat similar to the threat posed by a
discrete source of radium-226 to the public health
and safety or the common defense and security; and
(B) before, on, or after the date of enactment of this
paragraph [enacted Aug. 8, 2005] is extracted or
converted after extraction for use in a commercial,
medical, or research activity.
(f) The term “Commission” means the Atomic Energy
Commission.
(g) The term “common defense and security” means the
common defense and security of the United States.
(h) The term “defense information” means any information
in any category determined by any Government agency
authorized to classify information, as being information
respecting, relating to, or affecting the national defense.
(i) The term “design” means (1) specifications, plans,
drawings, blueprints, and other items of like nature; (2)
the information contained therein; or (3) the research and
development data pertinent to the information contained
therein.
(j) The term “extraordinary nuclear occurrence”
means any event causing a discharge or dispersal of

122a
Appendix E
source, special nuclear, or byproduct material from
its intended place of confinement in amounts offsite,
or causing radiation levels offsite, which the Nuclear
Regulatory Commission or the Secretary of Energy, as
appropriate, determines to be substantial, and which
the Nuclear Regulatory Commission or the Secretary of
Energy, as appropriate, determines has resulted or will
probably result in substantial damages to persons offsite
or property offsite. Any determination by the Nuclear
Regulatory Commission or the Secretary of Energy, as
appropriate, that such an event has, or has not, occurred
shall be final and conclusive, and no other official or any
court shall have power or jurisdiction to review any such
determination. The Nuclear Regulatory Commission or
the Secretary of Energy, as appropriate, shall establish
criteria in writing setting forth the basis upon which such
determination shall be made. As used in this subsection,
“offsite” means away from “the location” or “the contract
location” as defined in the applicable Nuclear Regulatory
Commission or the Secretary of Energy, as appropriate,
indemnity agreement, entered into pursuant to section
170 [42 USCS § 2210].
(k) The term “financial protection” means the ability to
respond in damages for public liability and to meet the
costs of investigating and defending claims and settling
suits for such damages.
(l) The term “Government agency” means any executive
department, commission, independent establishment,
corporation, wholly or partly owned by the United States
of America which is an instrumentality of the United

123a
Appendix E
States, or any board, bureau, division, service, office,
officer, authority, administration, or other establishment
in the executive branch of the Government.
(m) The term “indemnitor” means (1) any insurer with
respect to his obligations under a policy of insurance
furnished as proof of financial protection; (2) any licensee,
contractor or other person who is obligated under any
other form of financial protection, with respect to such
obligations; and (3) the Nuclear Regulatory Commission
or the Secretary of Energy, as appropriate, with respect to
any obligation undertaken by it in an indemnity agreement
entered into pursuant to section 170 [42 USCS § 2210].
(n) The term “international arrangement” means any
international agreement hereafter approved by the
Congress or any treaty during the time such agreement
or treaty is in full force and effect, but does not include
any agreement for cooperation.
(o) The term “Energy Committees” means the Committee
on Energy and Natural Resources of the Senate and the
Committee on Energy and Commerce of the House of
Representatives.
(p) The term “licensed activity” means an activity
licensed pursuant to this Act [42 USCS §§ 2011 et seq.]
and covered by the provisions of section 170(a) [42 USCS
§ 2210(a)].
(q) The term “nuclear incident” means any occurrence,
including an extraordinary nuclear occurrence, within

124a
Appendix E
the United States causing, within or outside the United
States, bodily injury, sickness, disease, or death, or loss of
or damage to property, or loss of use of property, arising
out of or resulting from the radioactive, toxic, explosive,
or other hazardous properties of source, special nuclear,
or byproduct material: Provided, however, That as the
term is used in section 170(l) [42 USCS § 2210(l)], it shall
include any such occurrence outside the United States:
And provided further, That as the term is used in section
170(d) [42 USCS § 2210(d)], it shall include any such
occurrence outside the United States if such occurrence
involves source, special nuclear, or byproduct material
owned by, and used by or under contract with, the United
States: And provided further, That as the term is used in
section 170 c. [42 USCS § 2210(c)], it shall include any such
occurrence outside both the United States and any other
nation if such occurrence arises out of or results from the
radioactive, toxic, explosive, or other hazardous properties
of source, special nuclear, or byproduct material licensed
pursuant to chapters 6, 7, 8, and 10 of this Act [42 USCS
§§ 2071 et seq., 2091 et seq., 2111 et seq., and 2131 et
seq.], which is used in connection with the operation of
a licensed stationary production or utilization facility or
which moves outside the territorial limits of the United
States in transit from one person licensed by the Nuclear
Regulatory Commission to another person licensed by the
Nuclear Regulatory Commission.
(r) The term “operator” means any individual who
manipulates the controls of a utilization or production
facility.

125a
Appendix E
(s) The term “person” means (1) any individual,
corporation, partnership, firm, association, trust, estate,
public or private institution, group, Government agency
other than the Commission, any State or any political
subdivision of, or any political entity within a State, any
foreign government or nation or any political subdivision
of any such government or nation, or other entity; and (2)
any legal successor, representative, agent, or agency of
the foregoing.
(t) The term “person indemnified” means (1) with respect
to a nuclear incident occurring within the United States
or outside the United States as the term is used in section
170(c) [42 USCS § 2210(c)], and with respect to any nuclear
incident in connection with the design, development,
construction, operation, repair, maintenance, or use of
the nuclear ship Savannah, the person with whom an
indemnity agreement is executed or who is required to
maintain financial protection, and any other person who
may be liable for public liability or (2) with respect to
any other nuclear incident occurring outside the United
States, the person with whom an indemnity agreement
is executed and any other person who may be liable
for public liability by reason of his activities under any
contract with the Secretary of Energy or any project
to which indemnification under the provisions of section
170(d) [42 USCS § 2210(d)] has been extended or under
any subcontract, purchase order, or other agreement, of
any tier, under any such contract or project.
(u) The term “produce”, when used in relation to special
nuclear material, means (1) to manufacture, make,

126a
Appendix E
produce, or refine special nuclear material; (2) to separate
special nuclear material from other substances in which
such material may be contained; or (3) to make or to
produce new special nuclear material.
(v) The term “production facility” means (1) any equipment
or device determined by rule of the Commission to be
capable of the production of special nuclear material
in such quantity as to be of significance to the common
defense and security, or in such manner as to affect the
health and safety of the public; or (2) any important
component part especially designed for such equipment
or device as determined by the Commission. Except
with respect to the export of a uranium enrichment
production facility, such term as used in chapters 10 and
16 [42 USCS §§ 2131 et seq. and §§ 2231 et seq.] shall not
include any equipment or device (or important component
part especially designed for such equipment or device)
capable of separating the isotopes of uranium or enriching
uranium in the isotope 235.
(w) The term “public liability” means any legal liability
arising out of or resulting from a nuclear incident or
precautionary evacuation (including all reasonable
additional costs incurred by a State, or a political
subdivision of a State, in the course of responding to a
nuclear incident or a precautionary evacuation), except:
(i) claims under State or Federal workmen’s compensation
acts of employees of persons indemnified who are employed
at the site of and in connection with the activity where the
nuclear incident occurs; (ii) claims arising out of an act
of war; and (iii) whenever used in subsections (a), (c), and

127a
Appendix E
(k) of section 170 [42 USCS § 2210], claims for loss of, or
damage to, or loss of use of property which is located at
the site of and used in connection with the licensed activity
where the nuclear incident occurs. “Public liability” also
includes damage to property of persons indemnified:
Provided, That such property is covered under the terms
of the financial protection required, except property which
is located at the site of and used in connection with the
activity where the nuclear incident occurs.
(x) The term “research and development” means (1)
theoretical analysis, exploration, or experimentation; or
(2) the extension of investigative findings and theories of a
scientific or technical nature into practical application for
experimental and demonstration purposes, including the
experimental production and testing of models, devices,
equipment, materials, and processes.
(y) The term “Restricted Data” means all data concerning
(1) design, manufacture, or utilization of atomic weapons;
(2) the production of special nuclear material; or (3) the
use of special nuclear material in the production of energy,
but shall not include data declassified or removed from
the Restricted Data category pursuant to section 142 [42
USCS § 2162].
(z) The term “source material” means (1) uranium,
thorium, or any other material which is determined by
the Commission pursuant to the provisions of section
61 [42 USCS § 2091] to be source material; or (2) ores
containing one or more of the foregoing materials, in
such concentration as the Commission may by regulation
determine from time to time.

128a
Appendix E
(aa) The term “special nuclear material” means (1)
plutonium, uranium enriched in the isotope 233 or in the
isotope 235, and any other material which the Commission,
pursuant to the provisions of section 51 [42 USCS § 2071],
determines to be special nuclear material, but does not
include source material; or (2) any material artificially
enriched by any of the foregoing, but does not include
source material.
(bb) The term “United States” when used in a geographical
sense includes all Territories and possessions of the
United States, the Canal Zone and Puerto Rico.
(cc) The term “utilization facility” means (1) any
equipment or device, except an atomic weapon, determined
by rule of the Commission to be capable of making use
of special nuclear material in such quantity as to be of
significance to the common defense and security, or in such
manner as to affect the health and safety of the public, or
peculiarly adapted for making use of atomic energy in such
quantity as to be of significance to the common defense
and security, or in such manner as to affect the health
and safety of the public; or (2) any important component
part especially designed for such equipment or device as
determined by the Commission.
(dd) The terms “high-level radioactive waste” and “spent
nuclear fuel” have the meanings given such terms in
section 2 of the Nuclear Waste Policy Act of 1982 (42
U.S.C. 10101).
(ee) The term “transuranic waste” means material
contaminated with elements that have an atomic number

129a
Appendix E
greater than 92, including neptunium, plutonium,
americium, and curium, and that are in concentrations
greater than 10 nanocuries per gram, or in such other
concentrations as the Nuclear Regulatory Commission
may prescribe to protect the public health and safety.
(ff) The term “nuclear waste activities”, as used in
section 170 [42 USCS § 2210], means activities subject to
an agreement of indemnification under subsection d. of
such section, that the Secretary of Energy is authorized to
undertake, under this Act [42 USCS §§ 2011 et seq.] or any
other law, involving the storage, handling, transportation,
treatment, or disposal of, or research and development
on, spent nuclear fuel, high-level radioactive waste, or
transuranic waste, including (but not limited to) activities
authorized to be carried out under the Waste Isolation
Pilot Project under section 213 of Public Law 96-164 (93
Stat. 1265) [unclassified].
(gg) The term “precautionary evacuation” means an
evacuation of the public within a specified area near a
nuclear facility, or the transportation route in the case of
an accident involving transportation of source material,
special nuclear material, byproduct material, high-level
radioactive waste, spent nuclear fuel, or transuranic
waste to or from a production or utilization facility, if the
evacuation is—
(1) the result of any event that is not classified as a
nuclear incident but that poses imminent danger of
bodily injury or property damage from the radiological
properties of source material, special nuclear material,

130a
Appendix E
byproduct material, high-level radioactive waste,
spent nuclear fuel, or transuranic waste, and causes
an evacuation; and
(2) initiated by an official of a State or a political
subdivision of a State, who is authorized by State law
to initiate such an evacuation and who reasonably
determined that such an evacuation was necessary to
protect the public health and safety.
(hh) The term “public liability action”, as used in section
170 [42 USCS § 2210], means any suit asserting public
liability. A public liability action shall be deemed to be an
action arising under section 170 [42 USCS § 2210], and
the substantive rules for decision in such action shall be
derived from the law of the State in which the nuclear
incident involved occurs, unless such law is inconsistent
with the provisions of such section.
(ii) [Not enacted]
(jj) Legal costs. As used in section 170 [42 USCS §
2210], the term “legal costs” means the costs incurred
by a plaintiff or a defendant in initiating, prosecuting,
investigating, settling, or defending claims or suits for
damage arising under such section.

131a
Appendix E
42 U.S.C. § 2210. Indemnification
and limitation of liability
(a) Requirement of financial protection for licensees.
Each license issued under section 103 or 104 [42 USCS §
2133 or 2134] and each construction permit issued under
section 185 [42 USCS § 2235] shall, and each license
issued under section 53, 63, or 81 [42 USCS § 2073, 2093,
or 2111] may, for the public purposes cited in section 2(i)
[42 USCS § 2012(i)], have as a condition of the license a
requirement that the licensee have and maintain financial
protection of such type and in such amounts as the Nuclear
Regulatory Commission (in this section referred to as
the “Commission”) in the exercise of its licensing and
regulatory authority and responsibility shall require in
accordance with subsection (b) to cover public liability
claims. Whenever such financial protection is required, it
may be a further condition of the license that the licensee
execute and maintain an indemnification agreement in
accordance with subsection (c). The Commission may
require, as a further condition of issuing a license, that
an applicant waive any immunity from public liability
conferred by Federal or State law.
(b) Amount and type of financial protection for
licensees.
(1) The amount of primary financial protection required
shall be the amount of liability insurance available from
private sources, except that the Commission may
establish a lesser amount on the basis of criteria set
forth in writing, which it may revise from time to time,

132a
Appendix E
taking into consideration such factors as the following:
(A) the costs and terms of private insurance, (B) the
type, size, and location of the licensed activity and
other factors pertaining to the hazard, and (C) the
nature and purpose of the licensed activity: Provided,
That for facilities designed for producing substantial
amounts of electricity and having a rated capacity of
100,000 electrical kilowatts or more, the amount of
primary financial protection required shall be the
maximum amount available at reasonable cost and on
reasonable terms from private sources (excluding the
amount of private liability insurance available under
the industry retrospective rating plan required in
this subsection). Such primary financial protection
may include private insurance, private contractual
indemnities, self-insurance, other proof of financial
responsibility, or a combination of such measures
and shall be subject to such terms and conditions as
the Commission may, by rule, regulation, or order,
prescribe. The Commission shall require licensees
that are required to have and maintain primary
financial protection equal to the maximum amount
of liability insurance available from private sources
to maintain, in addition to such primary financial
protection, private liability insurance available under
an industry retrospective rating plan providing for
premium charges deferred in whole or major part
until public liability from a nuclear incident exceeds
or appears likely to exceed the level of the primary
financial protection required of the licensee involved in
the nuclear incident: Provided, That such insurance is
available to, and required of, all of the licensees of such

133a
Appendix E
facilities without regard to the manner in which they
obtain other types or amounts of such primary financial
protection: And provided further, That the maximum
amount of the standard deferred premium that may be
charged a licensee following any nuclear incident under
such a plan shall not be more than $95,800,000 (subject
to adjustment for inflation under subsection (t)), but
not more than $15,000,000 in any 1 year (subject to
adjustment for inflation under subsection (t)), for each
facility for which such licensee is required to maintain
the maximum amount of primary financial protection:
And provided further, That the amount which may
be charged a licensee following any nuclear incident
shall not exceed the licensee’s pro rata share of the
aggregate public liability claims and costs (excluding
legal costs subject to subsection (o)(1)(D), payment of
which has not been authorized under such subsection)
arising out of the nuclear incident. Payment of any
State premium taxes which may be applicable to any
deferred premium provided for in this Act [42 USCS §§
2011 et seq.] shall be the responsibility of the licensee
and shall not be included in the retrospective premium
established by the Commission.
(2)
(A) The Commission may, on a case by case basis,
assess annual deferred premium amounts less than
the standard annual deferred premium amount
assessed under paragraph (1)—
(i) for any facility, if more than one nuclear
incident occurs in any one calendar year; or

134a
Appendix E
(ii) for any licensee licensed to operate more
than one facility, if the Commission determines
that the financial impact of assessing the
standard annual deferred premium amount
under paragraph (1) would result in undue
financial hardship to such licensee or the
ratepayers of such licensee.
(B) In the event that the Commission assesses
a lesser annual deferred premium amount under
subparagraph (A), the Commission shall require
payment of the difference between the standard
annual deferred premium assessment under
paragraph (1) and any such lesser annual deferred
premium assessment within a reasonable period
of time, with interest at a rate determined by
the Secretary of the Treasury on the basis of
the current average market yield on outstanding
marketable obligations of the United States of
comparable maturities during the month preceding
the date that the standard annual deferred
premium assessment under paragraph (1) would
become due.
(3) The Commission shall establish such requirements
as are necessary to assure availability of funds to
meet any assessment of deferred premiums within
a reasonable time when due, and may provide
reinsurance or shall otherwise guarantee the payment
of such premiums in the event it appears that the
amount of such premiums will not be available on a
timely basis through the resources of private industry

135a
Appendix E
and insurance. Any agreement by the Commission with
a licensee or indemnitor to guarantee the payment
of deferred premiums may contain such terms as
the Commission deems appropriate to carry out the
purposes of this section and to assure reimbursement
to the Commission for its payments made due to the
failure of such licensee or indemnitor to meet any of
its obligations arising under or in connection with
financial protection required under this subsection
including without limitation terms creating liens
upon the licensed facility and the revenues derived
therefrom or any other property or revenues of such
licensee to secure such reimbursement and consent to
the automatic revocation of any license.
(4)
(A) In the event that the funds available to pay
valid claims in any year are insufficient as a
result of the limitation on the amount of deferred
premiums that may be required of a licensee in any
year under paragraph (1) or (2), or the Commission
is required to make reinsurance or guaranteed
payments under paragraph (3), the Commission
shall, in order to advance the necessary funds—
(i) request the Congress to appropriate
sufficient funds to satisfy such payments; or
(ii) to the extent approved in appropriation
Acts, issue to the Secretary of the Treasury
obligations in such forms and denominations,

136a
Appendix E
bearing such maturities, and subject to such
terms and conditions as may be agreed to by the
Commission and the Secretary of the Treasury.
(B) Except for funds appropriated for purposes
of making reinsurance or guaranteed payments
under paragraph (3), any funds appropriated under
subparagraph (A)(i) shall be repaid to the general
fund of the United States Treasury from amounts
made available by standard deferred premium
assessments, with interest at a rate determined
by the Secretary of the Treasury on the basis of
the current average market yield on outstanding
marketable obligations of the United States of
comparable maturities during the month preceding
the date that the funds appropriated under such
subparagraph are made available.
(C) Except for funds appropriated for purposes
of making reinsurance or guaranteed payments
under paragraph (3), redemption of obligations
issued under subparagraph (A)(ii) shall be made
by the Commission from amounts made available
by standard deferred premium assessments. Such
obligations shall bear interest at a rate determined
by the Secretary of the Treasury by taking
into consideration the average market yield on
outstanding marketable obligations to the United
States of comparable maturities during the month
preceding the issuance of the obligations under
this paragraph. The Secretary of the Treasury
shall purchase any issued obligations, and for such

137a
Appendix E
purpose the Secretary of the Treasury may use
as a public debt transaction the proceeds from the
sale of any securities issued under chapter 31 of
title 31, United States Code [31 USCS §§ 3101 et
seq.], and the purposes for which securities may
be issued under such chapter [31 USCS §§ 3101 et
seq.] are extended to include any purchase of such
obligations. The Secretary of the Treasury may at
any time sell any of the obligations acquired by the
Secretary of the Treasury under this paragraph.
All redemptions, purchases, and sales by the
Secretary of the Treasury of obligations under
this paragraph shall be treated as public debt
transactions of the United States.
(5)
(A) For purposes of this section only, the
Commission shall consider a combination of
facilities described in subparagraph (B) to be a
single facility having a rated capacity of 100,000
electrical kilowatts or more.
(B) A combination of facilities referred to in
subparagraph (A) is two or more facilities located
at a single site, each of which has a rated capacity
of 100,000 electrical kilowatts or more but not more
than 300,000 electrical kilowatts, with a combined
rated capacity of not more than 1,300,000 electrical
kilowatts.
(c) Indemnification of licensees by Nuclear Regulatory
Commission. The Commission shall, with respect to

138a
Appendix E
licenses issued between August 30, 1954, and December
31, 2025, for which it requires financial protection of less
than $560,000,000, agree to indemnify and hold harmless
the licensee and other persons indemnified, as their
interest may appear, from public liability arising from
nuclear incidents which is in excess of the level of financial
protection required of the licensee. The aggregate
indemnity for all persons indemnified in connection
with each nuclear incident shall not exceed $500,000,000
excluding costs of investigating and settling claims and
defending suits for damage: Provided, however, That this
amount of indemnity shall be reduced by the amount that
the financial protection required shall exceed $60,000,000.
Such a contract of indemnification shall cover public
liability arising out of or in connection with the licensed
activity. With respect to any production or utilization
facility for which a construction permit is issued between
August 30, 1954, and December 31, 2025, the requirements
of this subsection shall apply to any license issued for such
facility subsequent to December 31, 2025.
(d) Indemnification of contractors by Department of
Energy.
(1)
(A) In addition to any other authority the
Secretary of Energy (in this section referred to
as the “Secretary”) may have, the Secretary shall,
until December 31, 2025, enter into agreements
of indemnification under this subsection with
any person who may conduct activities under a

139a
Appendix E
contract with the Department of Energy that
involve the risk of public liability and that are not
subject to financial protection requirements under
subsection (b) or agreements of indemnification
under subsection (c) or (k).
(B)
(i)
(I) Beginning 60 days after the date
of enactment of the P r ice -A nderson
Amendments Act of 1988 [enacted Aug.
20, 1988], agreements of indemnification
under subparag raph (A) shall be the
exclusive means of indemnification for public
liability arising from activities described
in such subparagraph, including activities
conducted under a contract that contains
an indemnification clause under Public Law
85-804 [50 USCS §§ 1431 et seq.] entered
into between August 1, 1987, and the
date of enactment of the Price-Anderson
Amendments Act of 1988 [enacted Aug. 20,
1988].
(II) The Secretary may incorporate
i n ag reement s of i ndem n i f icat ion
under subparagraph (A) the provisions
relating to the waiver of any issue or
defense as to charitable or governmental
immunity authorized in subsection (n)

140a
Appendix E
(1) to be incorporated in agreements of
indemnif ication. A ny such provisions
incorporated under this subclause shall
apply to any nuclear incident arising
out of nuclear waste activities subject to
an agreement of indemnification under
subparagraph (A).
(ii) Public liability arising out of nuclear
waste activities subject to an agreement
of indemnification under subparagraph (A)
that are funded by the Nuclear Waste Fund
established in section 302 of the Nuclear Waste
Policy Act of 1982 (42 U.S.C. 10222) shall be
compensated from the Nuclear Waste Fund in
an amount not to exceed the maximum amount
of financial protection required of licensees
under subsection (b).
(2) In an agreement of indemnification entered into
under paragraph (1), the Secretary—
(A) may require the contractor to provide and
maintain financial protection of such a type and in
such amounts as the Secretary shall determine to
be appropriate to cover public liability arising out of
or in connection with the contractual activity; and
(B) shall indemnify the persons indemnified
against such liability above the amount of the
financial protection required, in the amount of
$10,000,000,000 (subject to adjustment for inflation

141a
Appendix E
under subsection (t)), in the aggregate, for all
persons indemnified in connection with the contract
and for each nuclear incident, including such legal
costs of the contractor as are approved by the
Secretary.
(3) All agreements of indemnification under which the
Department of Energy (or its predecessor agencies)
may be required to indemnify any person under this
section shall be deemed to be amended, on the date of
enactment of the Price-Anderson Amendments Act
of 2005 [enacted Aug. 8, 2005], to reflect the amount
of indemnity for public liability and any applicable
financial protection required of the contractor under
this subsection.
(4) Financial protection under parag raph (2)
and indemnification under paragraph (1) shall
be the exclusive means of financial protection
and indemnification under this section for any
Department of Energy demonstration reactor licensed
by the Commission under section 202 of the Energy
Reorganization Act of 1974 (42 U.S.C. 5842).
(5) In the case of nuclear incidents occurring outside
the United States, the amount of the indemnity
provided by the Secretary under this subsection shall
not exceed $500,000,000.
(6) The provisions of this subsection may be applicable
to lump sum as well as cost type contracts and to
contracts and projects financed in whole or in part by
the Secretary.

142a
Appendix E
(7) A contractor w ith whom an agreement of
indemnification has been executed under paragraph (1)
(A) and who is engaged in activities connected with the
underground detonation of a nuclear explosive device
shall be liable, to the extent so indemnified under this
subsection, for injuries or damage sustained as a result
of such detonation in the same manner and to the same
extent as would a private person acting as principal,
and no immunity or defense founded in the Federal,
State, or municipal character of the contractor or of
the work to be performed under the contract shall be
effective to bar such liability.
(e) Limitation on aggregate public liability.
(1) The aggregate public liability for a single nuclear
incident of persons indemnified, including such legal
costs as are authorized to be paid under subsection (o)
(1)(D), shall not exceed—
(A) in the case of facilities designed for producing
substantial amounts of electricity and having a
rated capacity of 100,000 electrical kilowatts or
more, the maximum amount of financial protection
required of such facilities under subsection (b) (plus
any surcharge assessed under subsection (o)(1)(E));
(B) in the case of contractors with whom the
Secretary has entered into an agreement of
indemnification under subsection (d), the amount
of indemnity and financial protection that may be
required under paragraph (2) of subsection (d); and

143a
Appendix E
(C) in the case of all other licensees of the
Commission required to maintain financial
protection under this section—
(i) $500,000,000, together with the amount of
financial protection required of the licensee; or
(ii) if the amount of financial protection
required of the licensee exceeds $60,000,000,
$560,000,000 or the amount of financial
protection required of the licensee, whichever
amount is more.
(2) In the event of a nuclear incident involving damages
in excess of the amount of aggregate public liability
under paragraph (1), the Congress will thoroughly
review the particular incident in accordance with the
procedures set forth in section 170(i) [subsec. (i) of this
section] and will in accordance with such procedures,
take whatever action is determined to be necessary
(including approval of appropriate compensation plans
and appropriation of funds) to provide full and prompt
compensation to the public for all public liability claims
resulting from a disaster of such magnitude.
(3) No provision of paragraph (1) may be construed
to preclude the Congress from enacting a revenue
measure, applicable to licensees of the Commission
required to maintain financial protection pursuant to
subsection (b), to fund any action undertaken pursuant
to paragraph (2).

144a
Appendix E
(4) With respect to any nuclear incident occurring
outside of the United States to which an agreement
of indemnification entered into under the provisions
of subsection (d) is applicable, such aggregate public
liability shall not exceed the amount of $500,000,000,
together with the amount of financial protection
required of the contractor.
(f) Collection of fees by Nuclear Regulatory Commission.
The Commission or the Secretary, as appropriate, is
authorized to collect a fee from all persons with whom
an indemnification agreement is executed under this
section. This fee shall be $30 per year per thousand
kilowatts of thermal energy capacity for facilities licensed
under section 103 [42 USCS § 2133]: Provided, That the
Commission or the Secretary, as appropriate, is authorized
to reduce the fee for such facilities in reasonable relation
to increases in financial protection required above, a level
of $60,000,000. For facilities licensed under section 104 [42
USCS § 2134], and for construction permits under section
185 [42 USCS § 2235], the Commission is authorized to
reduce the fee set forth above. The Commission shall
establish criteria in writing for determination of the fee
for facilities licensed under section 104 [42 USCS § 2134],
taking into consideration such factors as (1) the type,
size, and location of facility involved, and other factors
pertaining to the hazard, and (2) the nature and purpose
of the facility. For other licenses, the Commission shall
collect such nominal fees as it deems appropriate. No fee
under this subsection shall be less than $100 per year.
(g) Use of services of private insurers. In administering
the provisions of this section, the Commission or the

145a
Appendix E
Secretary, as appropriate, shall use, to the maximum
extent practicable, the facilities and services of private
insurance organizations, and the Commission or the
Secretary, as appropriate, may contract to pay a reasonable
compensation for such services. Any contract made under
the provisions of this subsection may be made without
regard to the provisions of section 3709 of the Revised
Statutes (41 U.S.C. 5) [41 USCS § 6101], as amended
upon a showing by the Commission or the Secretary, as
appropriate, that advertising is not reasonably practicable
and advance payments may be made.
(h) Conditions of agreements of indemnification. The
agreement of indemnification may contain such terms as
the Commission or the Secretary, as appropriate, deems
appropriate to carry out the purposes of this section.
Such agreement shall provide that, when the Commission
or the Secretary, as appropriate, makes a determination
that the United States will probably be required to make
indemnity payments under this section, the Commission
or the Secretary, as appropriate, shall collaborate with
any person indemnified any may approve the payment of
any claim under the agreement of indemnification, appear
through the Attorney General on behalf of the person
indemnified, take charge of such action, and settle or
defend any such action. The Commission or the Secretary,
as appropriate, shall have final authority on behalf of the
United States to settle or approve the settlement of any
such claim on a fair and reasonable basis with due regard
for the purposes of this Act [42 USCS §§ 2011 et seq.]. Such
settlement shall not include expenses in connection with
the claim incurred by the person indemnified.

146a
Appendix E
(i) Compensation plans.
(1) After any nuclear incident involving damages that
are likely to exceed the applicable amount of aggregate
public liability under subparagraph (A), (B), or (C) of
subsection (e)(1), the Secretary or the Commisison
[Commission], as appropriate, shall—
(A) make a survey of the causes and extent of
damage; and
(B) expeditiously submit a report setting forth
the results of such survey to the Congress, to the
Representatives of the affected districts, to the
Senators of the affected States, and (except for
information that will cause serious damage to the
national defense of the United States) to the public,
to the parties involved, and to the courts.
(2) Not later than 90 days after any determination
by a court, pursuant to subsection (o), that the public
liability from a single nuclear incident may exceed the
applicable amount of aggregate public liability under
subparagraph (A), (B), or (C) of subsection (e)(1) the
President shall submit to the Congress—
(A) an estimate of the aggregate dollar value of
personal injuries and property damage that arises
from the nuclear incident and exceeds the amount
of aggregate public liability under subsection (e)(1);
(B) recommendations for additional sources of
funds to pay claims exceeding the applicable

147a
Appendix E
amount of agg regate public liability under
subparagraph (A), (B), or (C) of subsection (e)(1),
which recommendations shall consider a broad
range of possible sources of funds (including
possible revenue measures on the sector of the
economy, or on any other class, to which such
revenue measures might be applied);
(C) 1 or more compensation plans, that either
individually or collectively shall provide for full
and prompt compensation for all valid claims and
contain a recommendation or recommendations
as to the relief to be provided, including any
recommendations that funds be allocated or set
aside for the payment of claims that may arise as a
result of latent injuries that may not be discovered
until a later date; and
(D) any additional legislative authorities necessary
to implement such compensation plan or plans.
(3)
(A) Any compensation plan transmitted to the
Congress pursuant to paragraph (2) shall bear an
identification number and shall be transmitted to
both Houses of Congress on the same day and to
each House while it is in session.
(B) The provisions of paragraphs (4) through (6)
shall apply with respect to consideration in the
Senate of any compensation plan transmitted to
the Senate pursuant to paragraph (2).

148a
Appendix E
(4) No such compensation plan may be considered
approved for purposes of subsection 170(e)(2) [subsec.
(e)(2) of this section] unless between the date of
transmittal and the end of the first period of sixty
calendar days of continuous session of Congress after
the date on which such action is transmitted to the
Senate, the Senate passes a resolution described in
paragraph 6 [paragraph (6)] of this subsection.
(5) For the purpose of parag raph (4) of this
subsection—
(A) continuity of session is broken only by an
adjournment of Congress sine die; and
(B) the days on which either House is not in session
because of an adjournment of more than three days
to a day certain are excluded in the computation of
the sixty-day calendar period.
(6)
(A) This paragraph is enacted—
(i) as an exercise of the rulemaking power
of the Senate and as such it is deemed a part
of the rules of the Senate, but applicable only
with respect to the procedure to be followed in
the Senate in the case of resolutions described
by subparagraph and it supersedes other
rules only to the extent that it is inconsistent
therewith; and

149a
Appendix E
(ii) with full recognition of the constitutional
right of the Senate to change the rules at any
time, in the same manner and to the same
extent as in the case of any other rule of the
Senate.
(B) For purposes of this paragraph, the term
“resolution” means only a joint resolution of the
Congress the matter after the resolving clause of
which is as follows: “That the     approves
the compensation plan numbered    submitted
to the Congress on     , 19 .”, the first blank
space therein being filled with the name of the
resolving House and the other blank spaces being
appropriately filled; but does not include a resolution
which specifies more than one compensation plan.
(C) A resolution once introduced with respect to a
compensation plan shall immediately be referred
to a committee (and all resolutions with respect to
the same compensation plan shall be referred to the
same committee) by the President of the Senate.
(D)
(i) If the committee of the Senate to which a
resolution with respect to a compensation plan
has been referred has not reported it at the
end of twenty calendar days after its referral,
it shall be in order to move either to discharge
the committee from further consideration of
such resolution or to discharge the committee

150a
Appendix E
from further consideration with respect to such
compensation plan which has been referred to
the committee.
(ii) A motion to discharge may be made only by
an individual favoring the resolution, shall be
highly privileged (except that it may not be made
after the committee has reported a resolution
with respect to the same compensation plan),
and debate thereon shall be limited to not
more than one hour, to be divided equally
between those favoring and those opposing the
resolution. An amendment to the motion shall
not be in order, and it shall not be in order to
move to reconsider the vote by which the motion
was agreed to or disagreed to.
(iii) If the motion to discharge is agreed
to or disagreed to, the motion may not be
renewed, nor may another motion to discharge
the committee be made with respect to any
other resolution with respect to the same
compensation plan.
(E)
(i) When the committee has reported, or has
been discharged from further consideration of,
a resolution, it shall be at any time thereafter
in order (even though a previous motion to the
same effect has been disagreed to) to move to
proceed to the consideration of the resolution.

151a
Appendix E
The motion shall be highly privileged and shall
not be debatable. An amendment to the motion
shall not be in order, and it shall not be in order
to move to reconsider the vote by which the
motion was agreed to or disagreed to.
(ii) Debate on the resolution referred to in
clause (i) of this subparagraph shall be limited
to not more than ten hours, which shall be
divided equally between those favoring and
those opposing such resolution. A motion
further to limit debate shall not be debatable.
An amendment to, or motion to recommit, the
resolution shall not be in order, and it shall
not be in order to move to reconsider the vote
by which such resolution was agreed to or
disagreed to.
(F)
(i) Motions to postpone, made with respect
to the discharge from committee, or the
consideration of a resolution or motions to
proceed to the consideration of other business,
shall be decided without debate.
(ii) Appeals from the decision of the Chair
relating to the application of the rules of the
Senate to the procedures relating to a resolution
shall be decided without debate.
( j) Cont r a c t s i n a d va nc e of appr opr iation s .
In administering the provisions of this section, the

152a
Appendix E
Commission or the Secretary, as appropriate, may
make contracts in advance of appropriations and incur
obligations without regard to sections 1341, 1342, 1349,
1350, and 1351, and subchapter II of chapter 15, of title 31,
United States Code [31 USCS §§ 1341, 1342, 1349, 1350,
1351, and 1511 et seq.].
(k) Exemption from financial protection requirement
for nonprofit educational institutions. With respect to
any license issued pursuant to section 53, 63, 81, 104(a), or
104(c) [42 USCS § 2073, 2093, 2111, 2134(a), or 2134(c)] for
the conduct of educational activities to a person found by
the Commission to be a nonprofit educational institution,
the Commission shall exempt such licensee from the
financial protection requirement of subsection (a). With
respect to licenses issued between August 30, 1954, and
December 31, 2025, for which the Commission grants
such exemption:
(1) the Commission shall agree to indemnify and hold
harmless the licensee and other persons indemnified,
as their interests may appear, from public liability in
excess of $250,000 arising from nuclear incidents. The
aggregate indemnity for all persons indemnified in
connection with each nuclear incident shall not exceed
$500,000,000, including such legal costs of the licensee
as are approved by the Commission;
(2) such contracts of indemnification shall cover public
liability arising out of or in connection with the licensed
activity; and shall include damage to property of
persons indemnified, except property which is located

153a
Appendix E
at the site of and used in connection with the activity
where the nuclear incident occurs; and
(3) such contracts of indemnification, when entered
into with a licensee having immunity from public
liability because it is a State agency, shall provide
also that the Commission shall make payments under
the contract on account of activities of the licensee
in the same manner and to the same extent as the
Commission would be required to do if the licensee
were not such a State agency.
Any licensee may waive an exemption to which it is entitled
under this subsection. With respect to any production or
utilization facility for which a construction permit is issued
between August 30, 1954, and December 31, 2025, the
requirements of this subsection shall apply to any license
issued for such facility subsequent to December 31, 2025.
(l) Presidential Commission on Catastrophic Nuclear
Accidents.
(1) Not later than 90 days after the date of the
enactment of the Price-Anderson Amendments Act
of 1988 [enacted Aug. 20, 1988], the President shall
establish a commission (in this subsection referred
to as the “study commission”) in accordance with
the Federal Advisory Committee Act (5 U.S.C. App.)
to study means of fully compensating victims of a
catastrophic nuclear accident that exceeds the amount
of aggregate public liability under subsection (e)(1).

154a
Appendix E
(2)
(A) The study commission shall consist of not less
than 7 and not more than 11 members, who—
(i) shall be appointed by the President; and
(ii) shall be representative of a broad range of
views and interests.
(B) The members of the study commission shall be
appointed in a manner that ensures that not more
than a mere majority of the members are of the
same political party.
(C) Each member of the study commission shall
hold office until the termination of the study
commission, but may be removed by the President
for inefficiency, neglect of duty, or malfeasance in
office.
(D) Any vacancy in the study commission shall
be filled in the manner in which the original
appointment was made.
(E) The President shall designate one of the
members of the study commission as chairperson,
to serve at the pleasure of the President.
(3) The study commission shall conduct a comprehensive
study of appropriate means of fully compensating
victims of a catastrophic nuclear accident that
exceeds the amount of aggregate public liability under

155a
Appendix E
subsection (e)(1), and shall submit to the Congress a
final report setting forth—
(A) recommendations for any changes in the laws
and rules governing the liability or civil procedures
that are necessary for the equitable, prompt, and
efficient resolution and payment of all valid damage
claims, including the advisability of adjudicating
public liability claims through an administrative
agency instead of the judicial system;
(B) recommendations for any standards or
procedures that are necessary to establish
priorities for the hearing, resolution, and payment
of claims when awards are likely to exceed the
amount of funds available within a specific time
period; and
(C) recommendations for any special standards
or procedures necessary to decide and pay claims
for latent injuries caused by the nuclear incident.
(4)
(A) The chairperson of the study commission may
appoint and fix the compensation of a staff of such
persons as may be necessary to discharge the
responsibilities of the study commission, subject to
the applicable provisions of the Federal Advisory
Committee Act (5 U.S.C. App.) and title 5, United
States Code.

156a
Appendix E
(B) To the extent permitted by law and requested
by the chairperson of the study commission, the
Administrator of General Services shall provide the
study commission with necessary administrative
services, facilities, and support on a reimbursable
basis.
(C) The Attorney General, the Secretary of
Health and Human Services, and the Director
[Administrator] of the Federal Emergency
Management Agency shall, to the extent permitted
by law and subject to the availability of funds,
provide the study commission with such facilities,
support, funds and services, including staff, as may
be necessary for the effective performance of the
functions of the study commission.
(D) The study commission may request any
Executive agency to furnish such information,
advice, or assistance as it determines to be
necessary to carry out its functions. Each such
agency is directed, to the extent permitted by law,
to furnish such information, advice or assistance
upon request by the chairperson of the study
commission.
(E) Each member of the study commission
may receive compensation at the maximum rate
prescribed by the Federal Advisory Committee
Act (5 U.S.C. App.) for each day such member is
engaged in the work of the study commission. Each
member may also receive travel expenses, including

157a
Appendix E
per diem in lieu of subsistence under sections 5702
and 5703 of title 5, United States Code.
(F) The functions of the President under the
Federal Advisory Committee Act (5 U.S.C. App.)
that are applicable to the study commission, except
the function of reporting annually to the Congress,
shall be performed by the Administrator of General
Services.
(5) The final report required in paragraph (3) shall
be submitted to the Congress not later than the
expiration of the 2-year period beginning on the date
of the enactment of the Price-Anderson Amendments
Act of 1988 [enacted Aug. 20, 1988].
(6) The study commission shall terminate upon the
expiration of the 2-month period beginning on the
date on which the final report required in paragraph
(3) is submitted.
(m) Coordinated procedures for prompt settlement of
claims and emergency assistance. The Commission
or the Secretary, as appropriate, is authorized to enter
into agreements with other indemnitors to establish
coordinated procedures for the prompt handling,
investigation, and settlement of claims for public liability.
The Commission or the Secretary, as appropriate, and
other indemnitors may make payments to, or for the aid
of, claimants for the purpose of providing immediate
assistance following a nuclear incident. Any funds
appropriated to the Commission or the Secretary, as

158a
Appendix E
appropriate, shall be available for such payments. Such
payments may be made without securing releases, shall
not constitute an admission of the liability of any person
indemnified or of any indemnitor, and shall operate as a
satisfaction to the extent thereof of any final settlement
or judgment.
(n) Waiver of defenses and judicial procedures.
(1) With respect to any extraordinary nuclear
occurrence to which an insurance policy or contract
furnished as proof of financial protection or an
indemnity agreement applies and which—
(A) arises out of or results from or occurs in the
course of the construction, possession, or operation
of a production or utilization facility,
(B) arises out of or results from or occurs in
the course of transportation of source material,
byproduct material, or special nuclear material to
or from a production or utilization facility,
(C) during the course of the contract activity arises
out of or results from the possession, operation,
or use by a Department of Energy contractor or
subcontractor of a device utilizing special nuclear
material or byproduct material,
(D) arises out of, results from, or occurs in the
course of, the construction, possession, or operation
of any facility licensed under section 53, 63, or

159a
Appendix E
81 [42 USCS § 2073, 2093, or 2111], for which the
Commission or the Secretary, as appropriate, has
imposed as a condition of the license a requirement
that the licensee have and maintain financial
protection under subsection (a),
(E) arises out of, results from, or occurs in the
course of, transportation of source material,
byproduct material, or special nuclear material to
or from any facility licensed under section 53, 63,
or 81 [42 USCS § 2073, 2093, or 2111], for which
the Commission has imposed as a condition of the
license a requirement that the licensee have and
maintain financial protection under subsection (a),
or
(F) arises out of, results from, or occurs in the
course of nuclear waste activities.[,]
the Commission may incorporate provisions in
indemnity agreements with licensees and contractors
under this section, and may require provisions to
be incorporated in insurance policies or contracts
furnished as proof of financial protection, which waive
(i) any issue or defense as to conduct of the claimant or
fault of persons indemnified, (ii) any issue or defense
as to charitable or governmental immunity, and (iii)
any issue or defense based on any statute of limitations
if suit is instituted within three years from the date
on which the claimant first knew, or reasonably could
have known, of his injury or damage and the cause
thereof. The waiver of any such issue or defense

160a
Appendix E
shall be effective regardless of whether such issue or
defense may otherwise be deemed jurisdictional or
relating to an element in the cause of action. When
so incorporated, such waivers shall be judicially
enforcible in accordance with their terms by the
claimant against the person indemnified. Such waivers
shall not preclude a defense based upon a failure to take
reasonable steps to mitigate damages, nor shall such
waivers apply to injury or damage to a claimant or to a
claimant’s property which is intentionally sustained by
the claimant or which results from a nuclear incident
intentionally and wrongfully caused by the claimant.
The waivers authorized in this subsection shall, as to
indemnitors, be effective only with respect to those
obligations set forth in the insurance policies or the
contracts furnished as proof of financial protection and
in the indemnity agreements. Such waivers shall not
apply to, or prejudice the prosecution or defense of,
any claim or portion of claim which is not within the
protection afforded under (i) the terms of insurance
policies or contracts furnished as proof of financial
protection, or indemnity agreements, and (ii) the limit
of liability provisions of subsection (e).
(2) With respect to any public liability action arising
out of or resulting from a nuclear incident, the United
States district court in the district where the nuclear
incident takes place, or in the case of a nuclear incident
taking place outside the United States, the United
States District Court for the District of Columbia,
shall have original jurisdiction without regard to the
citizenship of any party or the amount in controversy.

161a
Appendix E
Upon motion of the defendant or of the Commission or
the Secretary, as appropriate, any such action pending
in any State court (including any such action pending
on the date of the enactment of the Price-Anderson
Amendments Act of 1988 [enacted Aug. 20, 1988])
or United States district court shall be removed or
transferred to the United States district court having
venue under this subsection. Process of such district
court shall be effective throughout the United States.
In any action that is or becomes removable pursuant
to this paragraph, a petition for removal shall be filed
within the period provided in section 1446 of title
28, United States Code, or within the 30-day period
beginning on the date of the enactment of the PriceAnderson Amendments Act of 1988 [enacted Aug. 20,
1988], whichever occurs later.
(3)
(A) Following any nuclear incident, the chief
judge of the United States district court having
jurisdiction under paragraph (2) with respect to
public liability actions (or the judicial council of
the judicial circuit in which the nuclear incident
occurs) may appoint a special caseload management
panel (in this paragraph referred to as the
“management panel”) to coordinate and assign (but
not necessarily hear themselves) cases arising out
of the nuclear incident, if—
(i) a court, acting pursuant to subsection
(o), determines that the aggregate amount of

162a
Appendix E
public liability is likely to exceed the amount
of primary financial protection available
under subsection (b) (or an equivalent amount
in the case of a contractor indemnified under
subsection (d)); or
(ii) the chief judge of the United States district
court (or the judicial council of the judicial
circuit) determines that cases arising out of the
nuclear incident will have an unusual impact on
the work of the court.
(B)
(i) Each management panel shall consist only of
members who are United States district judges
or circuit judges.
(ii) Members of a management panel may
include any United States district judge or
circuit judge of another district court or court
of appeals, if the chief judge of such other
district court or court of appeals consents to
such assignment.
(C) It shall be the function of each management
panel—
(i) to consolidate related or similar claims for
hearing or trial;
(ii) to establish priorities for the handling of
different classes of cases;

163a
Appendix E
(iii) to assign cases to a particular judge or
special master;
(iv) to appoint special masters to hear
particular types of cases, or particular elements
or procedural steps of cases;
(v) to promulgate special rules of court, not
inconsistent with the Federal Rules of Civil
Procedure, to expedite cases or allow more
equitable consideration of claims;
(vi) to implement such other measures,
consistent with existing law and the Federal
Rules of Civil Procedure, as will encourage
the equitable, prompt, and efficient resolution
of cases arising out of the nuclear incident; and
(vii) to assemble and submit to the President
such data, available to the court, as may be
useful in estimating the aggregate damages
from the nuclear incident.
(o) Plan for distribution of funds.
(1) Whenever the United States district court in the
district where a nuclear incident occurs, or the United
States District Court for the District of Columbia in
case of a nuclear incident occurring outside the United
States, determines upon the petition of any indemnitor
or other interested person that public liability from
a single nuclear incident may exceed the limit of

164a
Appendix E
liability under the applicable limit of liability under
subparagraph (A), (B), or (C) of subsection (e)(1):
(A) Total payments made by or for all indemnitors
as a result of such nuclear incident shall not exceed
15 per centum of such limit of liability without the
prior approval of such court;
(B) The court shall not authorize payments in
excess of 15 per centum of such limit of liability
unless the court determines that such payments
are or will be in accordance with the plan of
distribution which has been approved by the
court or such payments are not likely to prejudice
the subsequent adoption and implementation by
the court of a plan of distribution pursuant to
subparagraph (C); and
(C) The Commission or the Secretar y, as
appropriate, shall, and any other indemnitor
or other interested person may, submit to such
district court a plan for the disposition of pending
claims and for the distribution of remaining funds
available. Such a plan shall include an allocation of
appropriate amounts for personal injury claims,
property damage claims, and possible latent
injury claims which may not be discovered until
a later time, and shall include establishment of
priorities between claimants and classes of claims,
as necessary to insure the most equitable allocation
of available funds. Such court shall have all power
necessary to approve, disapprove, or modify plans
proposed, or to adopt another plan; and to determine

165a
Appendix E
the proportionate share of funds available for each
claimant. The Commission or the Secretary as
appropriate, any other indemnitor, and any person
indemnified shall be entitled to such orders as
may be appropriate to implement and enforce the
provisions of this section, including orders limiting
the liability of the persons indemnified, orders
approving or modifying the plan, orders staying
the payment of claims and the execution of court
judgments, orders apportioning the payments to be
made to claimants, and orders permitting partial
payments to be made before final determination of
the total claims. The orders of such court shall be
effective throughout the United States.
(D) A court may authorize payment of only such
legal costs as are permitted under paragraph (2)
from the amount of financial protection required
by subsection (b).
(E) If the sum of public liability claims and legal
costs authorized under paragraph (2) arising
from any nuclear incident exceeds the maximum
amount of financial protection required under
subsection (b), any licensee required to pay a
standard deferred premium under subsection (b)
(1) shall, in addition to such deferred premium, be
charged such an amount as is necessary to pay a
pro rata share of such claims and costs, but in no
case more than 5 percent of the maximum amount
of such standard deferred premium described in
such subsection.

166a
Appendix E
(2) A court may authorize the payment of legal costs
under paragraph (1)(D) only if the person requesting
such payment has—
(A) submitted to the court the amount of such
payment requested; and
(B) demonstrated to the court—
(i) that such costs are reasonable and equitable;
and
(ii) that such person has—
(I) litigated in good faith;
(II) avoided unnecessary duplication of
effort with that of other parties similarly
situated;
(III) not made frivolous claims or defenses;
and
(IV) not attempted to unreasonably delay
the prompt settlement or adjudication of
such claims.
(p) Reports to Congress. The Commission and the
Secretary shall submit to the Congress by December 31,
2021, detailed reports concerning the need for continuation
or modification of the provisions of this section, taking into
account the condition of the nuclear industry, availability of

167a
Appendix E
private insurance, and the state of knowledge concerning
nuclear safety at that time, among other relevant factors,
and shall include recommendations as to the repeal or
modification of any of the provisions of this section.
(q) Limitation on awarding of precautionary evacuation
costs. No court may award costs of a precautionary
evacuation unless such costs constitute a public liability.
(r) Limitation on liability of lessors. No person under
a bona fide lease of any utilization or production facility
(or part thereof or undivided interest therein) shall be
liable by reason of an interest as lessor of such production
or utilization facility, for any legal liability arising out of
or resulting from a nuclear incident resulting from such
facility, unless such facility is in the actual possession and
control of such person at the time of the nuclear incident
giving rise to such legal liability.
(s) Limitation on punitive damages. No court may
award punitive damages in any action with respect to a
nuclear incident or precautionary evacuation against a
person on behalf of whom the United States is obligated
to make payments under an agreement of indemnification
covering such incident or evacuation.
(t) Inflation adjustment.
(1) The Commission shall adjust the amount of
the maximum total and annual standard deferred
premium under subsection (b)(1) not less than once
during each 5-year period following August 20, 2003,

168a
Appendix E
in accordance with the aggregate percentage change
in the Consumer Price Index since—
(A) August 20, 2003, in the case of the first
adjustment under this subsection; or
(B) the previous adjustment under this subsection.
(2) The Secretary shall adjust the amount of
indemnification provided under an agreement of
indemnification under subsection d. not less than once
during each 5-year period following July 1, 2003, in
accordance with the aggregate percentage change in
the Consumer Price Index since—
(A) that date, in the case of the first adjustment
under this paragraph; or
(B) the previous adjustment under this paragraph.
(3) For purposes of this subsection, the term
“Consumer Price Index” means the Consumer Price
Index for all urban consumers published by the
Secretary of Labor.

169a
Appendix E
42 U.S.C. § 2239. Hearings and judicial review
(a)
(1)
(A) In any proceeding under this Act [42 USCS
§§ 2011 et seq.], for the granting, suspending,
revoking, or amending of any license or construction
permit, or application to transfer control, and in
any proceeding for the issuance or modification of
rules and regulations dealing with the activities of
licensees, and in any proceeding for the payment of
compensation, an award or royalties under sections
[section] 153, 157, 186(c), or 188 [42 USCS § 2183,
2187, 2236(c), or 2238], the Commission shall grant
a hearing upon the request of any person whose
interest may be affected by the proceeding, and
shall admit any such person as a party to such
proceeding. The Commission shall hold a hearing
after thirty days’ notice and publication once in
the Federal Register, on each application under
section 103 or 104(b) [42 USCS § 2133 or 2134(b)]
for a construction permit for a facility, and on
any application under section 104(c) [42 USCS §
2134(c)] for a construction permit for a testing
facility. In cases where such a construction permit
has been issued following the holding of such a
hearing, the Commission may, in the absence of
a request therefor by any person whose interest
may be affected, issue an operating license or
an amendment to a construction permit or an

170a
Appendix E
amendment to an operating license without a
hearing, but upon thirty days’ notice and publication
once in the Federal Register of its intent to do so.
The Commission may dispense with such thirty
days’ notice and publication with respect to any
application for an amendment to a construction
permit or an amendment to an operating license
upon a determination by the Commission that
the amendment involves no significant hazards
consideration.
(B)
(i) Not less than 180 days before the date
scheduled for initial loading of fuel into a plant
by a licensee that has been issued a combined
construction permit and operating license
under section 185(b) [42 USCS § 2235(b)],
the Commission shall publish in the Federal
Register notice of intended operation. That
notice shall provide that any person whose
interest may be affected by operation of
the plant, may within 60 days request the
Commission to hold a hearing on whether
the facility as constructed complies, or on
completion will comply, with the acceptance
criteria of the license.
(ii) A request for hearing under clause (i)
shall show, prima facie, that one or more of the
acceptance criteria in the combined license have
not been, or will not be met, and the specific

171a
Appendix E
operational consequences of nonconformance
that would be contrary to providing reasonable
assurance of adequate protection of the public
health and safety.
(iii) After receiving a request for a hearing
under clause (i), the Commission expeditiously
shall either deny or grant the request. If the
request is granted, the Commission shall
determine, after considering petitioners’
prima facie showing and any answers thereto,
whether during a period of interim operation,
there will be reasonable assurance of adequate
protection of the public health and safety. If
the Commission determines that there is such
reasonable assurance, it shall allow operation
during an interim period under the combined
license.
(iv) The Commission, in its discretion, shall
determine appropriate hearing procedures,
whether informal or formal adjudicatory, for
any hearing under clause (i), and shall state its
reasons therefor.
(v) The Commission shall, to the maximum
possible extent, render a decision on issues
raised by the hearing request within 180 days of
the publication of the notice provided by clause
(i) or the anticipated date for initial loading
of fuel into the reactor, whichever is later.
Commencement of operation under a combined
license is not subject to subparagraph (A).

172a
Appendix E
(2)
(A) The Commission may issue and make
immediately effective any amendment to an
operati ng l icense or a ny a mendment t o a
combined construction and operating license,
upon a determination by the Commission that
such amendment involves no significant hazards
consideration, notwithstanding the pendency
before the Commission of a request for a hearing
from any person. Such amendment may be issued
and made immediately effective in advance of the
holding and completion of any required hearing.
In determining under this section whether such
amendment involves no significant hazards
consideration, the Commission shall consult with
the State in which the facility involved is located. In
all other respects such amendment shall meet the
requirements of this Act [42 USCS §§ 2011 et seq.].
(B) The Commission shall periodically (but not
less frequently than once every thirty days) publish
notice of any amendments issued, or proposed to
be issued, as provided in subparagraph (A). Each
such notice shall include all amendments issued, or
proposed to be issued, since the date of publication
of the last such periodic notice. Such notice shall,
with respect to each amendment or proposed
amendment (i) identify the facility involved; and
(ii) provide a brief description of such amendment.
Nothing in this subsection shall be construed to
delay the effective date of any amendment.

173a
Appendix E
(C) The Commission shall, during the ninety-day
period following the effective date of this paragraph,
promulgate regulations establishing (i) standards
for determining whether any amendment to an
operating license or any amendment to a combined
construction and operating license involves no
significant hazards consideration; (ii) criteria for
providing or, in emergency situations, dispensing
with prior notice and reasonable opportunity
for public comment on any such determination,
which criteria shall take into account the exigency
of the need for the amendment involved; and
(iii) procedures for consultation on any such
determination with the State in which the facility
involved is located.
(b) The following Commission actions shall be subject to
judicial review in the manner prescribed in chapter 158
of title 28, United States Code [28 USCS §§ 2341 et seq.],
and chapter 7 of title 5, United States Code [5 USCS §§
701 et seq.]:
(1) Any final order entered in any proceeding of the
kind specified in subsection (a).
(2) Any final order allowing or prohibiting a facility
to begin operating under a combined construction and
operating license.
(3) Any final order establishing by regulation
standards to govern the Department of Energy’s
gaseous diffusion uranium enrichment plants,

174a
Appendix E
including any such facilities leased to a corporation
established under the USEC Privatization Act.
(4) Any final determination under section 1701(c) [42
USCS § 2297f(c)] relating to whether the gaseous
diffusion plants, including any such facilities leased to a
corporation established under the USEC Privatization
Act, are in compliance w ith the Commission’s
standards governing the gaseous diffusion plants and
all applicable laws.

